<html>
<title> - PUBLIC LANDS BILLS</title>
<body><pre>[Senate Hearing 111-223]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-223
 
                           PUBLIC LANDS BILLS 

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                         S. 555         S. 607

                         S. 721         S. 1122

                         S. 1328        S. 1442

                         H.R. 129

                               __________

                            OCTOBER 29, 2009


                       Printed for the use of the
               Committee on Energy and Natural Resources
                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

54-226 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 















               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           JOHN McCAIN, Arizona
ROBERT MENENDEZ, New Jersey          ROBERT F. BENNETT, Utah
BLANCHE L. LINCOLN, Arkansas         JEFF SESSIONS, Alabama
MARK UDALL, Colorado                 BOB CORKER, Tennessee
JEANNE SHAHEEN, New Hampshire

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              subcommittee

























                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Barrasso, Hon. John, U.S. Senator From Wyoming...................     6
Bidwell, Ryan D., Executive Director, Colorado Wild, Durango, CO.    43
Bingaman, Hon., Jeff, U.S. Senator From New Mexico...............     5
Crapser, Bill, State Forester, Wyoming State Forestry Division, 
  Cheyenne, WY...................................................    40
Gregory, Rusty, CEO/President, Mammoth Chairman, National Ski 
  Areas Association, Mammoth Lakes, CA...........................    36
Holtrop, Joel, Deputy Chief, National Forest System, Forest 
  Service, Department of Agriculture.............................    10
Hon. Mark Udall, U.S. Senator From Colorado......................     8
Moseley, Cassandra Ph.D., Director of The Ecosystem Workforce 
  Program, Institute For A Sustainable Environment, University of 
  Oregon, Eugene, OR.............................................    48
Stanton, Robert G., Deputy Assistant Secretary, for Policy and 
  Program Management, Department of the Interior.................    19
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    63

                              Appendix II

Additional material submitted for the record.....................    77


                           PUBLIC LANDS BILLS

                              ----------                              


                       THURSDAY, OCTOBER 29, 2009

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden 
presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    Senator Wyden. This subcommittee will come to order. The 
purpose of today's hearing is to receive testimony on several 
bills pending before the subcommittee.
    These include S. 555, the Sugar Loaf Fire Protection 
District Land Exchange Act.
    S. 607, the Ski Area Recreational Opportunity Enhancement 
Act.
    S. 721, the Alpine Lakes Wilderness Additions and Pratt and 
Middle Fork Snoqualmie Rivers Protection Act.
    S. 1122, the Good Neighbor Forestry Act.
    S. 1328 and H.R. 689, the Shasta-Trinity National Forest 
Administrative Jurisdiction Transfer Act.
    S. 1442, the Public Lands Service Corps Act.
    H.R. 129, to authorize the conveyance of certain National 
Forest System lands in the Los Padres National Forest in 
California.
    Our ranking minority member, Senator Barrasso, is very 
gracious, as always, and thought that Senator Bingaman, our 
Chair of our full committee should go next. So, Chairman 
Bingaman, welcome.
    [The prepared Statements of Senators Ensign, Murray, and 
Feinstein, and Representative Reichert follow:]

   Prepared Statement of Hon. John Ensign, U.S. Senator From Nevada, 
                               on S. 607
    I want to thank Senator Wyden for holding today's hearing about the 
Ski Area Recreational Opportunity Enhancement Act. This legislation 
provides us with a unique opportunity to promote some of our country's 
most beautiful recreational areas by encouraging and welcoming 
innovative thinking and more efficient use of our land.
    Several decades ago, ski slopes were for skiing. That was pretty 
much the extent of the scope and income of ski areas. We have all 
witnessed the evolution of those slopes into prime opportunities for 
year-round activities. Unfortunately, our outdated laws are stifling 
recreational and economic opportunity.
    The Ski Permit Act of 1986 makes it difficult for the U.S. Forest 
Service to permit some recreational activities at ski resorts during 
the summer months. While a variety of activities have been permitted at 
resorts in some regions, resorts in other regions are stuck struggling 
through a bureaucratic process.
    The legislation under consideration today would allow the U.S. 
Forest Service to provide more consistent and informed decisions across 
the country. Increasing the amount and availability of year-round 
activities at ski resorts will help attract more visitors to the resort 
communities. By allowing these year-round activities, families will 
have a greater variety of activities to choose from.
    Attracting guests with new experiences and activities will also 
help local communities by stimulating the economy. Many of these 
communities have the capability to accommodate visitors all four 
seasons but lack the tourism needed to capitalize on their current 
infrastructure. This leaves many businesses behind and stagnant in the 
off months as their potential is being greatly underutilized.
    In my home State of Nevada, we have tremendous ski resorts at Lake 
Tahoe, Mount Rose, and Mount Charleston. Their slopes are breathtaking 
when they are covered in fresh snow, but they are also beautiful on a 
warm summer day. We should not prevent people from enjoying these 
recreational areas all year long. Let's update this law to allow for 
more opportunities to take advantage of our recreational areas. It will 
benefit our local economies, benefit visitors to these areas, encourage 
an appreciation for our natural surroundings, and lead to increased 
health and fitness opportunities.
                                 ______
                                 
Prepared Statement of Hon. Patty Murray, U.S. Senator From Washington, 
                               on S. 721
    Thank you, Chairman Wyden. I want to thank you and Senator Barrasso 
for including the Alpine Lakes Wilderness Additions and Pratt and 
Middle Fork Snoqualmie Rivers Protection Act as part of your hearing 
today.
    The existing 394,000 acre Alpine Lakes Wilderness is a treasure 
both in Washington State and across the country. As one of the most 
visited wilderness areas in the country, Alpine Lakes Wilderness gives 
millions of people the opportunity to enjoy our public lands just a 
short drive from Seattle.
    Today we are here to discuss the opportunity to permanently protect 
additional lands near the Alpine Lakes Wilderness, and to designate two 
rivers of great importance to the surrounding ecosystem as Wild and 
Scenic. The Alpine Lakes Wilderness Additions and Pratt and Middle Fork 
Snoqualmie Rivers Protection Act will protect wildlife, promote clean 
water, enhance and protect recreational opportunities, reflect the 
diverse landscapes of the Puget Sound region, and contribute to the 
local economy.
    This has been a team effort and I want to thank Senator Cantwell 
for being here. I appreciate her co-sponsorship of this bill as well as 
her assistance.
    I also want to acknowledge my colleague and partner on this bill, 
Congressman Dave Reichert. Throughout this process, Dave has reached 
out to the local communities and stakeholders to understand their 
priorities.
    The bill before you today is the result of discussion and 
negotiation with the local community and interested stakeholders 
regarding issues such as mountain bike use, search and rescue 
operations, ski operations, and road and trailhead access.
    My colleagues and I have worked hard to address constructive issues 
and concerns that have been brought to us. I am grateful to everyone 
who reached out to us and worked with us, and I think you'll see that 
because we worked hard to address those concerns, this bill has 
garnered broad support.
    Mr. Chairman, I'd like to mention just a few of the benefits the 
Alpine Lakes Wilderness Additions and Pratt and Middle Fork Snoqualmie 
Rivers Protection Act will offer.
    First, this wilderness area will protect wildlife and promote clean 
water by preserving the landscapes that host many native plants and 
animals. The wilderness is home to abundant elk and deer populations as 
well as other animals and native fish populations.
    Second, this wilderness designation, along with the Wild and Scenic 
River designations will enhance and protect recreational opportunities 
for our growing region. More people and more families are turning to 
outdoor recreation on our public lands. This bill protects the area for 
users today and into the future, and will preserve existing road and 
trailhead access.
    That leads me to the third benefit of this bill: Wilderness and 
Wild and Scenic River designations will contribute to the local 
economy. Even during the tough economy of the last several years, 
outdoor industry retail sales have stayed strong. That means more 
people are going out more often into our wildlands and the gateway 
communities that serve them. The existing Alpine Lakes Wilderness is 
already a destination and these additional protections will add to the 
allure of this special place.
    Another driving purpose behind the bill is the inclusion of low 
elevation lands. The proposed additions we are discussing today provide 
an opportunity to protect rare low elevation old growth and mature 
forests. These low elevation lands were largely excluded from the 
Alpine Lakes Wilderness in 1976, and about half of the lands included 
in this proposal are below 3,000 feet in elevation.
    Mr. Chairman, I have a few letters from groups and individuals I 
would like to submit for the record and the Committee's consideration. 
I know that Senator Cantwell also has letters to submit to the record 
and I hope to supplement those.
    I appreciate that Deputy Chief Holtrop from the Forest Service is 
here today to testify. I understand that the Forest Service will 
provide some suggestions on the legislation, and I look forward to 
working with them.
    Mr. Chairman, I had the opportunity to visit the Alpine Lakes area 
this spring, and it truly is a special place. Conserving and preserving 
our natural resources reflects the values I grew up with here in 
Washington State and I want to leave the same kind of legacy for my 
grandson and for future generations to enjoy. And this legislation will 
ensure that we protect these special places. I appreciate your time 
today and I look forward to working with you and the Committee to move 
forward on this legislation.
                                 ______
                                 
    Prepared Statement of Hon. Dianne Feinstein, U.S. Senator From 
           California, on S. 1328, H.R. 129, S. 1442, S. 607
Introduction
    Chairman Wyden, and Members of the subcommittee, thank you for 
taking the time to hold this hearing and provide the opportunity for 
testimony on these important matters. I appreciate the opportunity to 
come tell you why I support four bills you are addressing today:

  <bullet> S. 1328--Shasta-Trinity National Forest Administration 
        Jurisdiction Transfer Act;
  <bullet> H.R. 129--Authorization of the conveyance of certain 
        National Forest System lands in the Los Padres National Forest 
        in California;
  <bullet> S. 1442--Public Lands Service Corps Act; and
  <bullet> S. 607--Ski Area Recreational Opportunity Enhancement Act

    Each of these bills will make it easier for people to enjoy and use 
federal lands.
Shasta-Trinity National Forest Administration Jurisdiction Transfer Act 
        (S. 1328)
    The Shasta-Trinity National Forest Administration Jurisdiction 
Transfer Act would improve the management of an Off-Highway Vehicle 
area and several parcels of wilderness. The Chappie-Shasta Off-Highway 
Vehicle area would be improved because it would be entirely under the 
management of the Bureau of Land Management. People wanting to recreate 
in the area would have greater certainty and less unnecessary 
bureaucracy, and be better able to enjoy federal lands. And the Forest 
Service would be able to manage wilderness areas contiguous to its 
current lands.
    This bill would fix the difficulties and additional expense for the 
public created by the current split management of the Off-Highway 
Vehicle area. Users would no longer need two permits, often at 
substantial and unnecessary cost. And the entire area would no longer 
have different opening dates, frustrating the local Off-Highway Vehicle 
community and the thousands of tourists who travel there every year.
    This exchange only would affect land already controlled by the 
federal government and would not change the designation of these lands. 
Furthermore, it would be beneficial to the local community, which has 
supported this jurisdictional change. The bill was developed in a 
collaborative manner, with input and agreement at the local level by 
the Forest Service and BLM, in conjunction with the local Off-Highway 
Vehicle community. The bill is also supported by the County Board of 
Supervisors.
Authorization of the conveyance of certain National Forest System lands 
        in the Los Padres National Forest in California (H.R. 129)
    This bill would authorize the Forest Service to sell a small parcel 
of land to the White Lotus Foundation, ensuring its continued access to 
its private property. White Lotus runs a private institution providing 
yoga teacher training, continuing education, and retreats, but there is 
only one entry road to the property, which zigzags through a small 
section--just 5 acres--of steeply sloped Forest Service land. White 
Lotus would pay for all the necessary environmental reviews and 
approvals needed for the conveyance. And the proceeds from the sale of 
the land would be used to purchase more useful lands for the Forest 
Service. This is a common-sense solution worked out by members of the 
local community.
Public Lands Service Corps Act (S. 1442)
    I support this amendment to the Public Lands Corps Act. It would 
substantially expand the program and create more opportunities for our 
nation's youth to participate in the management and care-taking of our 
natural resources. In particular, it would continue to provide funding 
and authorize participation in hazardous fuel reduction projects, which 
help protect communities and habitat, and restore our forest 
landscapes.
Ski Area Recreational Opportunity Enhancement Act (S. 607)
    This bill would amend the 1986 Ski Area Permit Act to allow summer, 
natural resource-based recreational activities at public land ski 
resorts. Currently, Forest Service policy on summer activities is 
unclear, and as a result, agency decision making on summer activities 
varies greatly by region. Eighteen ski resorts in California would be 
affected by this legislation: Heavenly, Kirkwood, Sierra, Mt. Rose, 
Alpine Meadows, Sugar Bowl, Bear Valley, and several in the Big Bear 
Lake area. The ski resorts need to have year-round use to keep jobs 
during the off-season. The language in S. 607 would provide for more 
clarity and consistent decision making. There would still be National 
Environmental Policy Act (NEPA) review and environmental assessment for 
any proposed off-season use, and any proposed use must be consistent 
with the Forest Plan.
Conclusion
    Again, I thank you for holding this hearing. Each of these four 
bills would ensure better utilization of public lands, resolve local 
conflicts, and continue good stewardship practices.
                                 ______
                                 
  Prepared Statement of Hon. Dave Reichert, U.S. Representative From 
                         Washington, on S. 721
    Chairman Wyden, Ranking Member Barrasso, and Members of the 
subcommittee--thank you for holding this hearing on the Alpine Lakes 
Wilderness Additions and Pratt and Middle Fork Snoqualmie Rivers 
Protection Act (S.721), and for allowing me to submit supporting 
testimony. Senator Patty Murray has been an outstanding partner in this 
bipartisan conservation effort, and I am pleased to have her leadership 
and the support of Senator Maria Cantwell on this bill.
    S.721, the companion to House legislation I first introduced in 
2007 and reintroduced this year (H.R. 1769), builds upon the proud 
Washington State tradition initiated by Senators Warren Magnuson (D-
WA), Scoop Jackson (D-WA), and Dan Evans (R-WA) of working together to 
protect our public lands and preserve recreational opportunities for 
outdoors enthusiasts. The people of Washington State understand how 
this bipartisanship works for their lasting benefit: look no further 
than Mt. Rainier, Olympic, and the North Cascades National Parks to see 
how these anchors of outdoor recreation are treasured by residents and 
visitors alike.
    The current 394,000-acre Alpine Lakes Wilderness reaches the crest 
of the Cascade Mountains just east of the Seattle-Bellevue metropolitan 
area. In 1976, the Alpine Lakes Wilderness was designated by Congress 
and has become one of the most popular wilderness areas in the country. 
Now, 30 years later, S.721/H.R.1769 provides an opportunity to 
permanently protect key additions to the Alpine Lakes Wilderness in my 
congressional district that will preserve important wildlife habitats, 
existing recreational opportunities, and local economies that rely on 
both. The legislation embraces important lower-elevation lands, 
completes watersheds, protects two rivers with Wild and Scenic 
designations (the Pratt and Middle Fork Snoqualmie Rivers), and 
provides clean water and flood control for the Middle Fork and South 
Fork valleys. Congressionally-designated Wilderness and Wild and Scenic 
River designations are the strongest and most durable means to ensure 
these special areas are preserved for our children and grandchildren to 
experience.
    The Middle Fork and South Fork valleys are the closest and most 
accessible mountain valleys to residents of the greater Seattle-
Bellevue metropolitan area. The proposed additions have been carefully 
crafted with consideration for existing recreational opportunities for 
hiking, camping, rafting, kayaking, horseback riding, mountain biking, 
and wildlife viewing. It also protects a large area of accessible 
lowland forests, preserving hunting and fishing opportunities in 
primitive settings.
    Our proposal also protects an important wildlife habitat that 
contains abundant elk and deer populations. And although salmon are not 
present in the Middle Fork, there are substantial populations of 
resident trout that rely on the streams of the Pratt and Middle Fork 
Snoqualmie Rivers. These watersheds are sources of clean water, 
important for downstream fisheries and commercial and residential water 
users. Preserving the forests as Wilderness would ensure maintenance of 
flow during the dry summer months, and aid in flood control. The 
Snoqualmie basin is subject to flood events on a regular basis; the 
low-elevation forest valleys are critical to controlling run-off rates 
here and the proposed additions would preserve intact forest 
ecosystems, protecting against increasing flood severity on downstream 
infrastructure and residents.
    The benefits of the legislation are clear, but the process we 
engaged in to reach this consensus measure is equally important for the 
subcommittee to consider. I am proud of the fact that this legislation 
is the result of extensive consultation and consensus-building with 
local stakeholders. Meetings began as early as May 2007, and frequent 
gatherings to collaborate with elected officials, conservation 
enthusiasts, recreation groups, and property-rights advocates 
constructed and modified this proposal to address concerns raised by 
stakeholders. That is one of many reasons why this and the original 
proposal enjoys the strong, broad-based local support of 104 elected 
officials; 113 businesses, ranging from recreational outfitters to 
restaurants and retailers; 15 hunting and angling groups; 14 
recreational groups, including paddlers, bikers, and hikers; 24 
conservation organizations; and 69 religious leaders.
    This collaborative approach is best exemplified by an agreement 
worked out between user groups for access to trails along the 
wilderness boundary. Through discussions with mountain bikers, hikers, 
and conservationists, a consensus plan was crafted to use the trail 
adjacent to the proposed wilderness addition on alternate days, so that 
those hikers seeking a trail 3 experience without encountering 
bicyclists could do so on specific days. Here is an innovative 
resolution to what might otherwise have been a festering controversy. 
This collaboration is a perfect example of the broad coalition of 
supporters for this proposal, and the unity of purpose among them in 
seeking federal designation for these wilderness additions.
    The additions made by S.721/H.R. 1769 to the Alpine Lakes 
Wilderness Area, combined with the designation of the Middle Fork 
Snoqualmie River, fit the Washington State tradition of collaborative, 
consensus-based, environmental stewardship. This wilderness will serve 
vast, untold numbers of Americans. It serves those who choose to 
adventure into its quiet valleys and up to its sentinel peaks. Some of 
those are hardy mountain climbers; for others the adventure is an 
afternoon walk, grandparents introducing their grandchildren to nature 
at its most wild and inviting along a quiet, easy wilderness trail. It 
serves the larger group of wilderness users who take pleasure from the 
wilderness they view from the Mountains-to-Sound Greenway, an 
extraordinary corridor of protected federal, State, and private lands 
offering all kinds of recreational opportunities to those who travel 
across our State on InterState 90, which crosses the Cascades just 
south of the Alpine Lakes Wilderness. Those who savor the wild scenery 
from more developed sites and roadways are no less users of wilderness 
than the adventurers who trek to the highest, farther peaks.
    Finally, this wilderness serves the future generations for whom we 
must act today. As a grandfather, I understand that we have a stake 
today in a future I will not live to see. That is the world in which 
our grandchildren's children will live their lives, amid whatever kind 
of landscape we have left them. Count mine as one solid voice on behalf 
of ensuring that the landscape we bequeath to future generations is one 
with an abundant, generous, diverse system of wilderness areas, not 
only in the most remote stretches of our beautiful country, but right 
here close to home--in a ``backyard wilderness'' such as the Alpine 
Lakes.
    I urge you to support this legislation and to approve it for floor 
consideration. Again, I appreciate your leadership and responsiveness 
in scheduling this hearing, and I would be pleased to respond to any 
questions.
                                 ______
                                 

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    The Chairman. Thank you for the courtesies. I didn't need 
to go next. But I'm glad to just make a couple of sentences of 
Statement here.
    This is an important hearing for several of these bills. I 
have particular interest in S. 1442, the Public Lands Service 
Corps Act of 2009. That's a bill that we have several co-
sponsors of. It would expand opportunities for young men and 
women to become involved in work projects on public lands.
    I think we have a great history in our country of young 
people doing good work on our public lands. We need to continue 
that and increase it. This is an opportunity to do that.
    We have a letter* from some 50 organizations supporting the 
legislation that I would ask you to include in the record.
---------------------------------------------------------------------------
    * Letter has been placed in Appendix II.
---------------------------------------------------------------------------
    Senator Wyden. Without objection it will be done.
    The Chairman. Another bill that you have on the agenda that 
I'm interested in is this Good Neighbor Forestry Act. I support 
the core goal of improving coordination and cooperation across 
the political boundaries. I do think there are some legitimate 
concerns have been raised about some of the specific provisions 
of the bill. Maybe in the question and answer we can get into 
consideration of those.
    Then S. 607, which is the National Forest Ski Area Permit 
Act, is another bill of interest. One I generally support the 
idea of trying to encourage additional recreational uses of our 
national forests. Again we need to look at the specifics of the 
legislation. Be sure that the taxpayer is properly compensated 
as part of this.
    So, thank you again for having the hearing.
    [The prepared statement of Senator Bingaman follows:]

 Prepared Statement of Hon. Jeff Bingaman, U.S. Senator From New Mexico
    Thank you Mr. Chairman for holding a hearing on Senate Bill 1442--
the Public Land Service Corps Act of 2009-which is a bill I introduced 
along with a number of other cosponsors.
    S. 1442 would expand the opportunities for young men and women to 
become involved in work projects on public lands. This bill would build 
on the long and impressive record of the conservation corps in helping 
to conserve, protect, and improve our natural, cultural, and historical 
resources on public lands, offer productive employment for young 
adults, and provide critical job skills.
    I have a letter from some 50 organizations supporting this 
legislation that I'd like to include in the record.
    I also would like to briefly address the Good Neighbor Forestry 
Act. I support the core goal of improving coordination and cooperation 
across political boundaries. This is especially important int he 
wildland-urban interface, where coordination in both directions across 
boundaries is critical to protecting communities and reducing fire 
suppression costs.
    A number of legitimate concerns have been raised about some of the 
specific provisions in this bill. I think these concerns can be 
addressed with some modifications, and I hope to work with Senator 
Barrasso and other Members, the Administration, and the other 
stakeholders to address these concerns so we have a proposal that can 
get through the Senate and the House, and across the President's desk.

    Senator Wyden. Thank you, Mr. Chairman.
    Senator Barrasso.

         STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR 
                          FROM WYOMING

    Senator Barrasso. Thank you, Mr. Chairman. I want to thank 
you and commend you for scheduling the hearing today.
    One of the bills on the agenda, S. 1122, the Good Neighbor 
Forestry Act, is legislation that I introduced some time ago. 
It's a bipartisan common sense bill. Original co-sponsors of 
the bill include Senators Tim Johnson, Mark Udall, Michael 
Bennett, Jim Risch and Bob Bennett. I want to thank Wyoming 
State Forester Bill Crapser for rearranging his schedule to be 
here with us today from Wyoming. Bill has been a big help from 
the start.
    S. 1122 authorizes the Secretaries of Agriculture and 
Interior to enter into cooperative agreements with State 
foresters. The bill authorizes State foresters to provide 
certain forest, range land and watershed restoration and 
protection services in collaboration with Federal agencies. I 
call it the Good Neighbor Forestry Act because it brings 
together State and Federal agencies to work cooperatively. We 
need to work together as neighbors to address land management 
challenges.
    Now Wyoming forests, like those of all the States across 
the West are facing unprecedented challenges. These challenges, 
such as preventing wildfires, removing invasive species, 
improving watersheds and conserving habitat, require big 
picture thinking. We have to address these threats at the 
landscape level.
    This bill is very simple. The Good Neighbor Forestry Act 
would allow the Forest Service or BLM to work with Western 
States to complete work that crosses ownership boundaries. The 
bill would provide on the ground management tools that our 
Federal, State and private lands desperately need.
    Good neighbor authority has been enjoyed by the States of 
Colorado and Utah for most of the last decade. Good neighbor 
projects have worked well in those States. They've met 
environmental goals and provided benefits to the local 
communities involved.
    I'll give you an example: Perhaps we have Canadian thistle 
that's over taking a drainage area. The State owns the land on 
one side of the creek. The Forest Service owns the land on the 
other side. We can't effectively manage this invasive weed, 
unless we treat the landscape as a whole.
    If the State clears out all the thistle on its side of the 
creek 1 year, but the Forest Service can't address the thistle 
problem that same year, the thistle seeds will continue to 
spread and the State's work will go to waste. By the next year, 
the thistle will have reclaimed the State land and many acres 
further down the mountain.
    If instead, we use good neighbor authority, the Forest 
Service can prepare a cooperative agreement with the State for 
invasive species control. The State can then send workers to 
clear the entire drainage of thistle. Good neighbor authority 
allows us to effectively address the problem, use management 
funds efficiently and meet both the State and the Federal land 
management goals.
    This is a win/win situation. Now I'm sure you're going to 
hear some concerns today that good neighbor authority could run 
amok. But these concerns, I believe, are overblown.
    Good neighbor authority simply provides the Federal 
agencies with the ability to enter into cooperative agreements. 
It does not cede decisionmaking authority to the States. S. 
1122 does nothing more or less than the authority already in 
place in Utah and Colorado. It would simply expand the use of 
that authority to other States west of the 100th meridian.
     Mr. Harris Sherman, the soon to be USDA Under Secretary 
for Natural Resources and Environment was very supportive of 
this authority in his testimony. In responding to questions for 
the record he wrote, ``I further believe national good neighbor 
authority is warranted to help address forest health issues 
that challenge Eastern forests across diverse land 
ownerships.'' He went on, ``in these times of limited resources 
it's important to leverage work force and technical capacities 
all within existing environmental laws and regulations.
    I'm pleased to see USDA's support. I've always appreciated 
Secretary of Interior, Ken Salazar's leadership in supporting 
Good Neighbor authority. The Administration has the right idea 
here. We are eager to work with them.
    Mr. Chairman, I am also the co-sponsor of Senator Udall's 
bill, S. 607, to amend the National Forest Ski Area Permit Act 
of 1986. This bill clarifies the authority of the Forest 
Service to permit recreational use of ski areas during the off 
season. I think it's an important bill for economic development 
and tourism in Wyoming communities and other locations. I'd 
like to welcome each of the witnesses here today and look 
forward to the questions.
    Thank you, Mr. Chairman.
    Senator Wyden. Thank you, Senator Barrasso.
    Senator Udall.

          STATEMENT OF HON. MARK UDALL, U.S. SENATOR 
                         FROM COLORADO

    Senator Udall. Thank you, Mr. Chairman. I'll be brief. I 
did want to add my thanks to the members that are here to you 
for bringing three bills that are very important to me in my 
State to the hearing today: my Sugar Loaf Fire Protection 
District Land Exchange Act, the Ski Area Recreational 
Opportunity Enhancement Act that Senator Barrasso just 
mentioned and has graciously co-sponsored and then Senator 
Barrasso's the Good Neighbor Forestry Act.
    I look forward to having a chance to question the 
witnesses. Thanks again for holding the hearing.
    Senator Wyden. Thank you, Senator Udall. Let's bring 
forward Robert Stanton, Deputy Assistant Secretary, Office of 
Policy Management and Budget, Department of Interior.
    Mr. Joel Holtrop, Deputy Chief, National Forest System, 
Forest Service, Department of Agriculture.
    We also have several Statements we want to put into the 
record. We've gotten Statements from Senator Murray and 
Congressman Reichert in support of S. 721, the Alpine Lakes 
Wilderness bill. Without objection they'll be included in the 
record.
    [The prepared Statement of Senator Udall follows:]

   Prepared statement of Hon. Mark Udall, U.S. Senator From Colorado
                                 s. 555
    Mr. Chairman, thank you for scheduling this bill-S. 555-for a 
hearing today. This bill would direct a land exchange between the 
Forest Service and a Fire District that currently has two fire stations 
occupying Forest Service land under a special use permit.
    These fire stations-operated by the Sugar Loaf Fire Protection 
District-serve an area west of the City of Boulder, Colorado. The Fire 
District covers a 17 square mile area and within this area are about 
500 homes.
    This area was the location of a major forest fire in 1989 called 
the Black Tiger Fire. That fire destroyed 44 homes and other 
structures, and many others were damaged. The fire was not completely 
extinguished until four days later, after burning almost 2,100 acres.
    The Sugar Loaf Fire District is interested in expanding these two 
facilities to provide for the equipment and other needed services they 
provide to address fire threats in this region. Under their existing 
special use permit with the Forest Service, the Fire District has 
encountered difficulties in their efforts to makes some minor 
expansions and improvements.
    The Fire District has provided the Committee with written testimony 
that outlines the history of this effort and the reasons why this 
legislation is needed to facilitate this exchange.
    I would note that the Fire District has worked long and hard-and in 
good faith-with the Forest Service to accommodate their needs and in 
exploring a land exchange. Given the limitations of the existing laws 
and administrative exchange process, I believe that this bill is needed 
to finally effectuate such an exchange.
    If we can pass this bill and implement this exchange, the Fire 
District will be able to provide the services to this community and not 
be limited by the constraints of the special use permit. The benefits 
to the Forest Service includes ownership of an inholding surrounded by 
Forest Service land in the area that the Fire District secured to offer 
in this exchange-at fair and equivalent value-as well as the avoidance 
of having to continually manage special use permits for these 
facilities.
    Mr. Chairman, I look forward to working with you and the Committee 
on seeing this important bill reported favorably.
                                 s. 607
    Mr. Chairman, thanks for scheduling this bipartisan bill-S. 607-for 
today's hearing. I look forward to the testimony of the witnesses we 
have before us.
    First, I would like to thank Senators Barrasso, Bennet, Bennett, 
Cantwell, Ensign, Enzi, Feinstein, Gregg, Leahy, Murray, Reid, Risch, 
Sanders, Shaheen, and Stabenow for cosponsoring this bill.
    Mr. Chairman, as you and my colleagues on the Committee know, ski 
areas are an important part of many mountain communities. Many of these 
areas operate their lifts, runs and warming lodges under permits on 
National Forest system lands. Many of these permits are authorized 
under a law that intended to capture the scope of winter activities-the 
National Forest Ski Area Permit Act of 1986. Under that Act, the Forest 
Service is authorized to issue permits for the establishment of nordic 
and alpine ski areas and facilities.
    But as many of my colleagues know, these areas present many more 
opportunities for outdoor recreation than just nordic and alpine 
skiing. Snowboarding is a good example. So are a number of summertime 
activities, like mountain biking, horseback riding and musical concerts 
and stage plays. These areas already possess the infrastructure and 
other facilities in place to provide these experiences.
    Recently, there have been issues raised about the permitting of 
these additional outdoor recreational activities at permitted ski 
areas. As these activities fit with the existing uses-and can help 
promote year-round recreational economies as well as promote outdoor 
recreation-I introduced this bill to make it clear that the Forest 
Service is authorized to permit additional and year-round activities at 
these ski areas.
    Since I first introduced this bill in the House last session, I 
have heard some issued raised that although we ought to allow things 
like snowboarding and other year-round activities, we also should not 
end up turning these areas into amusement parks with water slides, 
Ferris wheels, haunted houses, and the like.
    My bill addresses that by requiring that the Forest Service only 
consider permitting activities that are natural resource and outdoor 
based, appropriate for the area, and do not result in turning the ski 
area into something other than a ski area.
    I believe that these limitations are important and appropriate. 
However, some still believe that these limitations are not sufficiently 
clear. I am concerned about adding language to the bill that itemizes 
specific activities that are-or are not-permitted as we need to give 
the Forest Service flexibility to work with the public and the 
communities to determine what activity may fit at a specific area that 
also complies with the limitations in this bill. My concern also stems 
from the reality that recreational activities change and evolve over 
time. Thus, getting too specific about particular activities may 
require future Congresses to make revisions based on those new 
realities.
    Nevertheless, I am willing to work with my colleagues to consider 
including report language that would help provide further guidance to 
the Forest Service on what we mean in the bill by ``seasonal or year-
round natural resource-based, outdoor-developed recreational activities 
and associated facilities.'' I think that report language would be the 
more appropriate place to address these concerns.
    I would also note that many-if not all-permitted ski areas are 
currently allowing activities such as snowboarding. So, I would be 
willing to work with my colleagues on language that would essentially 
``grandfather'' these existing activities-activities that are currently 
provided and are consistent with the limitations in the bill.
    Thanks again, Mr. Chairman. I look forward to working with you, my 
colleagues and I look forward to the testimony from the panel.

    Senator Wyden. Also the subcommittee has received several 
other statements relating to the various bills on today's 
agenda. Those, without objection, will be included in the 
record as well.
    Senator Wyden. Gentlemen, thank you. You both have 
cooperated with the subcommittee on a number of occasions. We 
appreciate that. We'll put your prepared Statements into the 
record in their entirety.
    Why don't you start, Mr. Holtrop?

   STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, NATIONAL FOREST 
       SYSTEM, FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Holtrop. Chairman Wyden, Chairman Bingaman, Ranking 
Member Barrasso and members of the subcommittee, thank you for 
inviting me to testify on seven bills affecting the United 
States Forest Service. You already have my written testimony. 
I'll address each bill very briefly.
    S. 555 would provide for the exchange or sale of two 
parcels within the boundaries of the Arapaho National Forest in 
Colorado to the Sugar Loaf Fire Protection District. The 
Department supports the exchange but would like to work with 
the bill's sponsors and the committee on minor modifications. 
We suggest that a year is a more realistic timeframe than the 
120 days provided in the bill to complete all the statutory 
requirements to convey the Federal lands.
    Also, we do not support the provision that would allow the 
district to modify the fire stations without Departmental 
authorization before conveyance.
    S. 607 would amend the National Forest Ski Area Permit Act 
of 1986 to authorize the Secretary to permit seasonal and year 
round resource based developed recreational activities at ski 
areas in addition to the Nordic and alpine skiing and related 
facilities that are currently authorized. This amendment would 
assist the Forest Service to further its goal of encouraging 
people, especially youth, to experience the outdoors. We would 
develop directives that establish criteria for implementing the 
expanded authority based onsite specific review of proposals.
    The Department would like to work with the committee to 
identify activities that are clearly not appropriate for a 
natural resource setting such as amusement and water parks, 
golf course and tennis courts.
    S. 721 would designate about 22,000 acres as a component of 
the National Wilderness System and about 37 miles of river as 
components of the Wild and Scenic River System on the Mt. 
Baker-Snoqualmie National Forest in Washington. We have 
completed suitability studies for the wild and scenic rivers. 
We have not completed a wilderness evaluation although 
management of the area is aligned with wilderness values under 
the forest plan.
    The Department supports this legislation and would like to 
work with the committee to address some technical issues 
outlined in my testimony such as modifying the wilderness 
boundary to allow for trail reconstruction.
    The Department supports the Good Neighbor authority which 
would authorize the Secretaries of Agriculture and the Interior 
to enter into cooperative agreements with State foresters in 
States west of the 100th meridian to provide certain services 
such as fuels reduction. The Forest Service has gained valuable 
experience using the Good Neighbor authority pilot programs in 
Colorado and Utah over the last several years. Increased 
efficiency for both the Federal and State agencies, consistent 
project implementation and improved working relationships are 
among the benefits.
    We believe further analysis is needed to understand the 
interplay of needs, State and Federal contracting and labor law 
and regulation before the proposed expansion of the authority 
is authorized. We look forward to working with the committee to 
improve the bill.
    The Department supports S. 1328 which would transfer 
jurisdiction of about 12,000 acres of National Forest System 
land in the Shasta-Chappie Off Highway Vehicle Area in 
California to BLM jurisdiction and transfer about 5,000 acres 
of public land in the area to Forest Service management. The 
bill will provide seamless management of the Shasta-Chappie OHV 
Area and consolidate key land holdings for the Forest Service 
and better serve the public.
    The Department strongly supports S. 1442 which would 
strengthen the Public Lands Service Corps Act by making 
programmatic changes to encourage broader use of the program. 
Most projects implemented by the Forest Service's volunteer 
youth and hosted programs are designed to address maintenance 
and ecological restoration while providing service learning 
opportunities for enrolled youth. Moreover, the Forest Service 
is uniquely situated to play a key role in coordination in 
management of residential conservation presenters based on our 
agency's experience and over many years through our Job Corps 
program.
    H.R. 129 would convey for consideration up to five acres 
within the Los Padres National Forest in California to the 
White Lotus Foundation. The Department does not support the 
bill because it serves only a small set of citizens. Moreover 
the National Forest System has many encroachments.
    This bill would set a precedent for other landowners to 
resolve encroachments on National Forest System lands through 
case specific legislation.
    That concludes my prepared Statement. I'd be happy to 
answer any questions you may have.
    [The prepared Statement of Mr. Holtrop follows:]

Prepared Statement Joel Holtrop, Deputy Chief, National Forest System, 
               Forest Service, Department of Agriculture,
                                h.r. 129
    Mr. Chairman, Ranking Member Barrasso, and Members of the 
subcommittee, I appreciate the opportunity to appear before you today 
to provide the Department's views on H.R. 129, regarding conveyance 
with consideration of National Forest System lands located in the Los 
Padres National Forest.
    This legislation would authorize the Secretary to convey, subject 
to valid existing rights with consideration, all right, title, and 
interest in National Forest System land up to 5 acres within the Los 
Padres National Forest located in Santa Barbara County, California. The 
Department appreciates this Committee's efforts to resolve this issue; 
however, we do not support H.R. 129 because there would be limited 
benefit to the public from this conveyance. This legislation would 
serve only a small, select group of citizens, the White Lotus 
Foundation. In addition, the conveyance would legitimize the 
Foundation's long-standing encroachments on lands in the Los Padres 
National Forest by allowing the Foundation to acquire them through 
legislation for the Foundation's private use and enjoyment.
    Adjacent landowners with similar long-standing encroachments on 
National Forest System lands in the Los Padres National Forest would 
not receive a remedy. These landowners are following H.R. 129 with 
interest, as the model for resolving their encroachment cases. 
Resolving the White Lotus Foundation encroachments through H.R. 129 
would therefore set a precedent for resolution of other encroachment 
cases through case-specific legislation.
    Mr. Chairman and Members of the subcommittee, this concludes my 
prepared Statement. I am happy to answer any questions that you or 
Members of the Committee may have.
                                 s. 555
    Mr. Chairman, Ranking Member Barrasso, and Members of the 
subcommittee, I appreciate the opportunity to appear before you today 
to provide the Department's views on S. 555, regarding the exchange of 
certain lands in the Arapaho National Forest.
    S.555 would provide for the exchange or sale of two federal parcels 
within the boundaries of the Arapaho National Forest in Colorado to the 
Sugar Loaf Fire Protection District (SLFPD). A portion of one parcel is 
under special-use permit for a fire station. The other was under a 
similar permit that has expired. The bill allows the SLFPD to make 
modifications to the permitted area in the interim period between 
enactment and conveyance without further authorization by the Secretary 
of Agriculture.
    The Department supports S. 555, but would like to work with bill 
sponsors and the Committee on some minor modifications to the bill. The 
Department supports the work of the SLFPD and its efforts to improve 
facilities to more effectively deliver services. The federal lands 
proposed for conveyance have lost their national forest character due 
to past permitted activities and are better suited to private 
ownership. The lands proposed for conveyance to the United States have 
suitable national forest character and could contribute to increased 
management efficiency.
    However, we are concerned that the 120-day timeline is not adequate 
to ensure compliance with all statutory requirements, including 
National Environmental Policy Act, the Endangered Species Act, the 
Antiquities Act of 1906, and myriad other laws requiring compliance 
prior to conveyance of federal lands. We suggest that a year is a 
realistic timeframe to complete all requirements.
    The Department does not support the provisions of Sec. 4 (e), which 
allow the SLFPD to modify the fire stations located on federal lands 
during the period between enactment of the Act and completion of the 
land exchange without any additional authorization from the Department. 
We are confident that given a reasonable timeframe for completion of a 
conveyance, the Forest Service can work with the SLFPD to accommodate 
any confirmed construction plans, negating the need for this provision.
    Mr. Chairman and Members of the subcommittee, this concludes my 
prepared Statement. I am happy to answer any questions that you or 
Members of the Committee may have.
                                 s. 607
    Chairman Wyden and Members of the subcommittee, thank you for 
inviting the U.S. Department of Agriculture to appear before you today 
to present our views on S. 607, the ``Ski Area Recreational Opportunity 
Enhancement Act of 2009.'' The Administration supports this legislation 
with technical amendments. We would appreciate the opportunity to work 
with the Committee to refine the bill to provide the appropriate 
natural resource-based experience for visitors to the National Forests 
while ensuring the protection of the natural environment.
    The bill would amend the National Forest Ski Area Permit Act of 
1986 to authorize the Secretary to permit seasonal and year-round 
natural resource-based, outdoor-developed recreational activities and 
associated facilities at ski areas, in addition to those that support 
Nordic and alpine skiing and other snow sports that are currently 
authorized by the Act.
    The Act authorizes issuance of permits for Nordic and alpine ski 
operations and appropriate ancillary facilities (16 U.S.C. 497b(b)(3)). 
Congress intended the term ``appropriate ancillary facilities to 
include ``only those facilities directly necessary for the operation 
and support of a winter sports facility...'' ( S. Rep. No. 99-449, 99th 
Cong., 2d Sess. 5 (1986)).
    The additional seasonal and year-round recreational activities and 
associated facilities authorized by the bill would encourage outdoor 
recreation and have to harmonize with the natural environment. The bill 
would make clear that the primary purpose of the authorized use and 
occupancy would continue to be skiing and other snow sports.
Background and Need for Legislation
    Current law does not authorize activities other than Nordic and 
alpine skiing, snow sports, and their ancillary facilities at ski 
areas. Ski areas serve as portals to national forest recreation. There 
are 121 ski areas operating under permit on national forests. These ski 
areas occupy a fraction of 1 percent of the total National Forest 
System land base. Nevertheless, about one-fifth of all recreation on 
national forests occurs at these ski areas. For many Americans, ski 
areas are gateways to our national forests and a means to greater 
appreciation of the natural world. Further, these recreational 
opportunities provide a great avenue for visitors to reconnect to the 
land, a core tenant of Secretary Vilsack's vision for forests.
    We have become concerned about trends showing a decline in 
appreciation and understanding of the natural environment among our 
youth. However, we still see strong visitation by youth and families at 
ski areas. The Forest Service has developed strong partnerships with 
many ski area operators that enhance visitors' understanding and 
appreciation of the environment through interpretive signing, programs, 
and exhibits. Expanding opportunities for year-round use will encourage 
more of the public to experience and appreciate the national forests. 
Ski areas introduce the national forests to our increasingly urban 
population.
    Ski areas are some of the most developed sites on the national 
forests. Focusing more of the developed outdoor recreational activities 
in these areas could reduce negative impacts in other areas of the 
national forests. One example of a popular developed outdoor 
recreational activity is freestyle mountain biking. By focusing this 
activity at ski areas, ski area operators would be able to increase 
utilization of existing infrastructure, and the impacts on surrounding 
National Forest System lands caused by freestyle biking may be 
minimized.
    Across the country we have received numerous proposals by ski areas 
to add off-season recreational activities. Some we have approved, 
perhaps without fully understanding the current limitations of the 1986 
Ski Area Permit Act, while others we have denied, or not acted upon. 
We're aware that summer activities at a number of ski areas that 
operate summer facilities on non-National Forest Service land are very 
popular. Whistler-Blackcomb Ski Area in British Columbia has become a 
very popular destination for biking. In the Northeast, Bretton Woods 
Ski area offers an array of summer activities which reportedly ``sell 
out'' at times. We believe we'd see the most interest for summer uses 
at ski areas that are either located near large population centers or 
are near communities with large hotel capacities that tend to be 
underutilized in the summer.
    Because of longer summers and higher temperatures due to climate 
change, it is possible that ski areas in some locations may see 
somewhat shorter winter operating seasons. Increasing the scope of 
activities and facilities that may be authorized under a ski area 
permit, where appropriate and in conformance with environmental law, 
could help ski areas remain economically viable by more fully utilizing 
their significant investment in infrastructure, such as ski lifts, in 
the off-season or year-round.
Recommended Changes to S.607
    We would like to work with the committee to develop amendments in 
two areas:

  <bullet> While we support allowing additional activities and 
        infrastructure for year-round activities, activities should be 
        appropriate to the natural resource setting and should contrast 
        with an urban environment. Excluding facilities such as 
        amusement and water parks, golf courses, tennis courts, and 
        skateboard parks is consistent with Forest Service policy.
  <bullet> Ski area boundaries should continue to encompass only the 
        acreage the Secretary deems sufficient and appropriate to 
        accommodate the permit holder's needs for snow sports and 
        appropriate ancillary facilities for winter operations. Permit 
        boundaries should not be expanded to accommodate recreational 
        activities and facilities that are not related to skiing and 
        snow sports, which are the primary purpose of these resorts.

    In addition, consistent with the discretion afforded the Secretary 
in the bill, we would develop directives that would establish criteria 
for implementing the expanded authority, based on case-specific review 
of proposals from ski areas in accordance with applicable regulations 
and environmental law. The criteria would likely include (1) 
availability and suitability of private lands as alternative sites for 
the activities; (2) the proposed location within the permitted area, 
including proximity to existing areas of concentrated development; (3) 
consistency with the applicable land management plan and applicable 
federal, State, and local law; (4) impacts on soil, water, wildlife, 
aesthetics, and other national forest resources; (5) effects on the 
primary purpose of the resort for alpine and Nordic skiing; (6) tribal 
interests; and (7) visitor safety.
    If the bill is enacted, we would envision that more highly 
developed summer facilities would be focused in areas which already 
support extensive resort infrastructure, while lesser developed parts 
of ski areas would primarily be for hiking, mountain biking, and other 
activities that require more limited facilities.
    The legislation does not provide a blanket approval for any 
particular summer facility or use. Proposals would be subject to the 
Agency's requirements for site-specific environmental review and public 
involvement. In those environmental reviews we would look very 
carefully at the sometimes sensitive nature of high elevation ecologic 
conditions before approving a proposal. While we might approve an 
activity or facility at one location at a given ski area, we might not 
at a different location at another ski area or even at a different 
location within the same ski area.
    In summary, this legislation would concentrate highly developed 
recreation in those areas that are currently the most developed sites 
on the national forests and enhance the long term viability of these 
ski areas and the adjoining rural economies. For these reasons, the 
legislation is a positive step and one which the Administration 
supports, with the suggested clarifications.
                                 s. 721
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to provide the views of the Department of Agriculture on S. 
721.
    This legislation would designate approximately 22,100 acres as a 
component of the National Wilderness System and approximately 37 miles 
of river as components the National Wild and Scenic Rivers System on 
the Mt. Baker-Snoqualmie National Forest in the State of Washington. 
The Department supports this legislation in concept and we would like 
to work with the Committee to address some technical issues as outlined 
below. We would also like the committee to be aware however, while we 
have completed suitability studies for the wild and scenic rivers, we 
have not completed a wilderness evaluation of the area designated under 
this bill. For the area that would be designated wilderness, management 
direction under the Land and Resource Management Plan is aligned with 
wilderness values with the majority of the land being managed as Late 
Successional Reserve under the Northwest Forest Plan. We thank the 
delegation for its collaborative approach and local involvement that 
have contributed to this bill.
Alpine Lakes Wilderness
    The proposed additions to the Alpine Lakes Wilderness lie in the 
valleys of the Pratt River, the Middle and South Forks of the 
Snoqualmie River. The existing 394,000 acre Alpine Lakes Wilderness is 
one of the jewels of our wilderness system, encompassing rugged ice 
carved peaks, over 700 lakes, and tumbling rivers. The lower valleys 
include stands of old growth forest next to winding rivers with native 
fish populations. The area is located within minutes of the Seattle 
metro area. Trails accessing the area are among the most heavily used 
in the Northwest as they lead to some exceptionally accessible and 
beautiful destinations. The proposed additions to the Alpine Lakes 
Wilderness would expand this area to include the entire heavily 
forested Pratt River valley and trail approaches to lakes in the 
wilderness area in the InterState 90 corridor.
    We would like to work with the subcommittee to address some 
technical aspects of the bill. These include:

  <bullet> The Middle Fork Snoqualmie River Trail #1003 is popular 
        among mountain bicyclists. The Department's concern is that the 
        trail is immediately adjacent to the proposed wilderness, not 
        allowing sufficient room for reconstruction or relocation if 
        needed as a result of likely future events such as flooding or 
        landslides. We suggest a modification of the proposed 
        wilderness boundary to allow for reconstruction or for 
        relocation.
  <bullet> The entire Pratt River Trail #1035 is included within the 
        boundary of the proposed wilderness. The first mile of this 
        trail currently is used by large numbers of people and groups. 
        The trail, which would be a primary access corridor for the 
        newly designated wilderness, is scheduled for major 
        reconstruction work beginning this fiscal year. The Department 
        suggests that the wilderness boundary be drawn to exclude 
        approximately three miles of this trail to allow this continued 
        recreation opportunity and future reconstruction if needed. 
        This change would not alter the wilderness proposal 
        significantly, but would allow the current recreation 
        opportunity for high-use and large groups along this stretch of 
        the Middle Fork Snoqualmie. This adjustment would also reduce 
        operation and maintenance costs along this segment of the Pratt 
        River Trail as motorized equipment could be used in its 
        maintenance.
  <bullet> The northwestern boundary of the wilderness proposal 
        includes two segments of Washington State Department of Natural 
        Resources lands totaling about 300 acres. We recommend that the 
        boundary of the proposed wilderness be adjusted so that only 
        National Forest System lands are included.
Wild and Scenic Rivers
    This legislation would also designate two rivers as additions to 
the National Wild and Scenic Rivers System: approximately 9.5 miles of 
the Pratt River from its headwaters to its confluence with the Middle 
Fork Snoqualmie River; and approximately 27.4 miles of the Middle Fork 
Snoqualmie River from its headwaters to within + mile of the Mt. Baker-
Snoqualmie National Forest boundary. Each river was studied in the Mt. 
Baker-Snoqualmie National Forest Plan and determined to be a suitable 
addition to the National Wild and Scenic Rivers System. The Pratt River 
has outstandingly remarkable recreation, fisheries, wildlife and 
ecological values. The corridor provides important hiking and fishing 
opportunities in an undeveloped setting. The river supports resident 
cutthroat trout and its corridor contains extensive deer and mountain 
goat winter range and excellent riparian habitat. Its corridor retains 
a diverse riparian forest, including remnant stands of low-elevation 
old-growth.
    The Middle Fork Snoqualmie River also has outstandingly remarkable 
recreation, wildlife and fisheries values. The river is within an easy 
driving distance from Seattle and attracts many visitors. It provides 
important whitewater boating, fishing, hiking and dispersed recreation 
opportunities. The river corridor contains extensive deer winter range 
and excellent riparian habitat for numerous wildlife species. This is 
the premier recreational inland-fishing location on the National Forest 
due to it high-quality resident cutthroat and rainbow trout 
populations. Adding these rivers to the National Wild and Scenic Rivers 
System will protect their freeflowing condition, water quality and 
outstandingly remarkable values. Designation also promotes partnerships 
among landowners, river users, tribal nations and all levels of 
government to provide for their stewardship. We therefore support the 
designation of these rivers into the National Wild and Scenic River 
System.
    The Department has one concern with the wild and scenic river 
designations relating to the management of the Middle Fork Snoqualmie 
River Road. We are currently in the process of improving this road and 
feel that this work is needed to protect the wild and scenic values 
associated with this river while improving visitor safety and watershed 
health. Approximately 20 years ago, the U.S. Forest Service submitted 
the Middle Fork Road to the Federal Highway Administration for 
reconstruction via their enhancement program. The project has been 
approved, design work is approximately 15% complete, and construction 
is planned for 2011 or 2012. The Federal Highway Administration has 
already expended approximately $3 million to date on the project. We 
would like to work with the committee to ensure timely completion of 
the project. This concludes my prepared Statement and I would be 
pleased to answer any questions you may have.
                                s. 1122
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to provide the views of the Department of Agriculture on S. 
1122.
    S.1122 would authorize the Secretary of Agriculture and the 
Secretary of the Interior to enter into cooperative agreements or 
contracts with State foresters authorizing State foresters to provide 
certain forest, rangeland, and watershed restoration and protection 
services in States west of the 100th meridian. Activities that could be 
undertaken using this authority include: (1) activities to treat insect 
infected trees; (2) activities to reduce hazardous fuels; and (3) any 
other activities to restore or improve forest, rangeland, and watershed 
health, including fish and wildlife habitat. The bill authorizes the 
States to act as agents for the Secretary and provides that States may 
subcontract for activities accomplished using this authority. The bill 
ensures federal retention of responsibilities for compliance with the 
National Environmental Policy Act (NEPA) of 1969 (42 U.S.C. 4321 et 
seq.). The authority would expire on September 30, 2018.
    We support Good Neighbor Authority (GNA) and believe our Nation's 
forests face forest health challenges that must be addressed across 
diverse land ownerships. In these times of limited resources, it is 
important to leverage workforce and technical capacities and develop 
partnerships for forest restoration across all lands, while ensuring 
compliance with existing applicable laws and regulations. We believe 
further study and analysis is needed to better understand the interplay 
of needs, State and federal contracting and labor law and regulation 
before expansion of the authority is authorized. We look forward to 
working with the committee, States, and federal agencies to develop a 
better understanding of the issues and make suggestions to improve the 
bill in a manner that meets the needs of key stakeholders.
How we use the current Good Neighbor Authority
    The Forest Service has gained valuable experience using GNA in 
Colorado and Utah pilot programs over the past several years. We have 
completed 53 projects in Colorado and Utah at a cost to the federal 
government of about $1.4 million. Colorado Good Neighbor projects have 
focused on fuel reduction activities, such as tree thinning, mostly in 
the Colorado wildland-urban interface and have resulted in about 2,700 
acres of treatment. In Utah, Good Neighbor projects focused on the 
repair of fire-damaged trails and watershed protection and restoration. 
The GNA was the subject of a Government Accounting Office report in 
February of 2009 (GAO-09-277). The report summarizes our experiences 
and makes suggestions for improving use of the authority.
    Since its inception, the authority has been successfully used on 
over 35 projects in Colorado to treat approximately 2,700 acres, 
primarily on the Arapaho-Roosevelt and Pike-San Isabel National 
Forests. In Utah, the authority has been used on the Dixie National 
Forest to enhance watersheds, particularly during the rehabilitation 
and recovery of a burned area. Almost all of the projects in Colorado 
included some form of hazardous fuels reduction within the wildland-
urban interface, including the creation of defensible space around 
subdivisions and private residences, the creation of shaded fuelbreaks, 
treatment and salvage of insect-infested trees, creation of evacuation 
routes, and thinning.
    For example, Shadow Mountain EStates is a large subdivision 
(several hundred acres) that directly borders National Forest System 
(NFS) lands on the Arapaho National Forest in Colorado. In 2006, Shadow 
Mountain EStates contracted the Colorado State Forest Service (CSFS) to 
remove dead trees from within the neighborhood to reduce fire risk, and 
in 2007 they requested that the Forest Service treat the adjoining 
public lands to complement their fire prevention efforts. As a result 
of this request, the Forest Service entered into the Green Ridge Good 
Neighbor Agreement with the CSFS to remove hazardous fuels and create a 
defensible space on federal lands in this wildland urban interface.
    The contract to remove the trees from both private and federal 
lands was prepared, advertised and administered by the CSFS, and 
resulted in the treatment of 135 acres of NFS land. The project was 
completed in June of 2008. Shadow Mountain EStates is satisfied with 
the result as the treated area is aesthetically pleasing and 
contributes to reduced wildfire damage risk to the neighborhood.
Benefits to the land and relationships
    The GAO report found that the GNA has facilitated cross boundary 
watershed restoration and hazardous fuel removal activities. The 
authority has resulted in the accomplishment of more restoration and 
protection treatments than would have otherwise been accomplished, 
particularly within the wildland urban interface. On the ground 
experience from Colorado and Utah indicates there is increased 
efficiency for both State and federal agencies because all project work 
is done at one time, with one contract, making implementation more 
consistent. Further, the authority enhances our ability to work with 
private landowners through the State Forester to remove hazardous fuels 
on adjacent NFS lands and, perhaps most importantly, it builds greater 
cooperation among stakeholders.
What we've learned
    The GAO report on GNA found that the Forest Service and Colorado 
State Forest Service (CSFS) developed timber operating procedures in 
2007, in response to some confusion over the requirements governing 
timber sales. When GNA was first being used, general operating 
procedures were contained in the master agreements, but no specific 
operating procedures existed and some CSFS officials were unsure about 
certain requirements that needed to be followed as part of conducting a 
timber sale on federal land. The Forest Service and CSFS are drafting 
additional timber procedures that identify federal and State roles in 
GNA timber sales from the initial NEPA documentation through the sale 
and subsequent harvesting of national forest timber. Project task 
orders for timber sale contracts will clearly specify special Forest 
Service contract requirements that are the responsibility of the State, 
which in turn holds the contractor accountable for meeting those 
requirements.
    The GAO recommended the Secretaries of Agriculture and the Interior 
(1) require that the U.S. Forest Service in Utah, Bureau of Land 
Management in Colorado and any agencies that receive the authority in 
other States develop written procedures for Good Neighbor timber sales 
before conducting any future sales and (2) direct the agencies to 
better document their experiences using the authority. The Forest 
Service will continue its review of the findings and recommendations 
and continue to improve its use of the authority.
                                s. 1328
    Mr. Chairman, Ranking Member Barrasso, and Members of the 
subcommittee, I appreciate the opportunity to appear before you today 
to provide the Department of Agriculture's views on S. 1328, regarding 
the interchange of certain Federal lands between the Forest Service 
(FS) and the Bureau of Land Management (BLM). The Shasta-Trinity 
National Forest has worked closely with the Redding, California Field 
Office (BLM) to identify the appropriate lands for inclusion in the 
administrative jurisdiction transfer.
    The Department supports this bill, which provides a seamless 
recreation experience and improved management of the Shasta-Chappie Off 
Highway Vehicle (OHV) Area as well as enabling the Forest Service to 
consolidate key landholdings, including the BLM's portion of the 
Trinity Alps Wilderness. We note that many of the same goals of this 
act could be achieved administratively through Service First Authority 
(PL 106-291), an authority available to both Departments to more 
efficiently and effectively manage the Federal eState. We would 
appreciate the opportunity to work with the subcommittee and the BLM to 
address technical changes to the lands involved in the interchange.
    Just 10 miles northwest of Redding, the Chappie-Shasta Off-Highway 
area offers 200 miles of roads and trails over 52,000 acres for off-
road enthusiasts. The Chappie-Shasta area is conducive for mountain 
biking, camping, fishing, hiking, backpacking, and horseback riding, 
and hunting, in addition to the off-highway vehicle use.
    S. 1328 transfers to the BLM administrative jurisdiction for 
approximately 11,760 acres of National Forest System lands located 
within the Chappie-Shasta OHV Area. In return, the bill transfers to 
the FS administrative jurisdiction for approximately 5, 000 acres in 
three parcels of public land currently managed by the BLM in Trinity, 
Shasta, Humboldt, and Siskiyou Counties. The BLM lands include 
approximately 4,830 acres of the Tunnel Ridge portion of the Trinity 
Alps Wilderness of which the FS manages approximately 517,000 acres. 
The other two parcels are approximately 217 acres adjacent to Shasta 
Lake and approximately 44 acres along California Highway 89.
    The Shasta-Trinity National Forest currently issues four to six 
Special Use Permits per year for OHV race events within the Chappie-
Shasta OHV Area. The OHV staging area is currently on National Forest 
System lands within the Whiskeytown-Shasta-Trinity National Recreation 
Area. However, large portions of the trails are on private and other 
federal lands administered by the FS, BLM, the Bureau of Recreation and 
the National Park Service.
    The Shasta-Trinity National Forest and the Bureau of Land 
Management have a long history of working together in the development 
and management of the Chappie-Shasta Off-Highway Vehicle Area. However, 
the different permitting and administrative processes of the two 
agencies have caused difficulties for recreational users. In addition, 
each agency has been separately applying for grant funding for the OHV 
area, which is both inefficient and redundant.
                                s. 1442
    Good afternoon Mr. Chairman, Ranking Member Barrasso and members of 
the subcommittee, thank you for the opportunity to testify before you 
today on S. 1442, the Public Lands Service Corps Act of 2009.
Introduction
    On April 2, 2009, the Department testified in strong support of 
H.R. 1612 at a hearing on the House of Representative version of the 
current bill. The Department strongly supports S. 1442. This bill would 
strengthen and facilitate the use of the Public Lands Corps program, 
helping to fulfill the vision that Secretary Vilsack has for 
reconnecting people to the land by promoting ways to engage youth 
across America to serve their community and their country. We have much 
work to do in restoring our forests, some of which can be achieved 
through the robust partnerships that this bill creates.
Public Lands Service Corps Act of 2009
    S. 1442 would strengthen and improve the Public Land Corps Act by 
making several administrative and programmatic changes that would 
encourage broader agency use of the program, as well as foster 
opportunities that are more varied for young men and women. The 
amendment would also enhance participant support for Corps enrollees 
during and after their service. Appropriately, S. 1442 would change the 
program's name to Public Lands Service Corps, reflecting an emphasis on 
``service.''
    Most projects implemented by the Forest Service's Volunteer\1\, 
Youth\2\ and Hosted Programs\3\ in the national forests and grasslands 
are designed to address needs for maintenance and ecological 
restoration, while providing a service-learning opportunity for the 
enrolled youth. We fully expect those types of projects would continue 
to be completed under S. 1442. However, this amendment specifies a 
broader range of potential projects, making it likely that Corps 
members would become involved with the varied activities of the Forest 
Service mission including the Deputy Areas for Forestry Research and 
Development, National Forest Systems, State and Private Forestry and 
Business Operations.
---------------------------------------------------------------------------
    \1\ Youth aged 15 to 18 e.g. YCC
    \2\ Domestic and international
    \3\ Conservation partnerships with non-governmental organizations
---------------------------------------------------------------------------
Forest Service History and Involvement With Corps and Youth
    Beginning in 1933 with Camp Roosevelt, the first Civilian 
Conservation Corps (CCC) camp located on the George Washington National 
Forest, the Forest Service has had a long and robust association with 
youth and young adult conservation corps. Indeed, the Forest Service 
Job Corps Program, authorized by Congress in 1964, is modeled after the 
CCC of the 1930(s). The Forest Service operates this program pursuant 
to an agreement with the Secretary of Labor.\4\ Since enactment of the 
Youth Conservation Corps Act of 1970 (Public Law 91-378), the Forest 
Service has sponsored the Youth Conservation Corps for young men and 
women age 16 through 18, who complete service-learning projects on 
National Forest System lands. Many current agency employees, inspired 
by their service-learning and association with the Forest Service, 
initiated their career aspirations through involvement with the Youth 
Conservation Corps.
---------------------------------------------------------------------------
    \4\ Under the authority of the Title I-C of the Workforce 
Investment Act (WIA), which generally authorizes the Job Corps program, 
the Department of Labor transfers funds to the Forest Service to 
operate its Job Corps Centers.
---------------------------------------------------------------------------
    The Department regards the Public Land Corps program as an 
important and successful example of civic engagement and conservation 
service for the Nation's youth. National Forest System lands are a 
place for Public Lands Service Corps participants to learn and practice 
an array of conservation, preservation, interpretation and cultural 
resource skills. Indeed, in forty-two States and Puerto Rico the Forest 
Service has already benefited greatly over the years from the service 
and volunteer work on National Forest System lands.
    One example, the Rocky Mountain Youth Corps (RMYC), headquartered 
in Taos, NM, annually enrolls nearly 150 at-risk youth and has a long-
standing partnership with the Carson National Forest. Through the 
Collaborative Forest Restoration Program (CFRP), authorized by Public 
Law 106-393, and designed to involve citizens and youth in the 
management and care of national forests and grasslands, 30 RMYC Corps 
members recently completed a three-year thinning project on the Carson 
National Forest. The purpose of the project was to reduce the risk of 
catastrophic wildfire, thereby making the area safer for homes and 
people. Throughout the project, Corps members' received tangible 
training and experience. Many of the enrollees could go on to careers 
in forestry, wildlife and natural resource management.
    Our second example is from the summer of 2009. The Wyoming 
Conservation Corps (WCC), housed within the University of Wyoming's 
School of Environment and Natural Resources, engaged more than 40 young 
people to clear dead trees from trails and campgrounds on the Medicine 
Bow National Forest. The service work was performed to make trails and 
campgrounds safer for visitor use and enjoyment. Following their 
experience with WCC, many of these young people expressed an interest 
in pursuing careers in land and natural resource management.
    A third example is the Northwest Youth Corps. For over 20-years, 
the non-profit, community-based organization in Eugene, OR, has been a 
partner with the Forest Service, Bureau of Land Management, and other 
natural resource and land management agencies. This collaboration has 
provided service-learning opportunities for over 10,000 youth.
Implementation and Expertise
    S. 1442 would grant the Secretary the discretion to establish 
residential conservation centers to include housing, food service, 
medical care, transportation, and other services associated with 
residential living arrangements. The Forest Service is uniquely 
situated to play a key role in the coordination and management of the 
residential conservation centers for the Public Lands Service Corps 
through its Job Corps Program. The Forest Service Job Corps Program 
would likely be the coordinating office for Public Lands Service Corps 
residential conservation centers in the Forest Service.
    The Forest Service Job Corps Program has the institutional capacity 
to operate residential facilities successfully. However, there are a 
number of implementation issues that need to be considered in 
establishing new residential conservation centers. These include the 
costs of operating and maintaining the facilities, potential liability 
issues, and questions about the impact on contract and labor laws and 
the need for a structured behavior management program to ensure the 
health and safety of students and staff. In implementing the 
residential living centers authorized by the act, we intend to work 
closely with the Department of Labor to ensure that any new 
responsibilities and activities undertaken by the Forest Service Job 
Corps Program will neither divert Job Corps resources nor detract from 
carrying out the existing Job Corps program mission. In addition, we 
would appreciate the opportunity to work with the sponsors and the 
subcommittee to address these implementation issues in the bill.
Conclusion
    In conclusion, the Department of Agriculture welcomes S. 1442, 
which would increase the opportunity for Public Lands Service Corps 
members to leverage their education and work experience in obtaining 
permanent, full-time employment with Federal agencies. By completing 
service-learning projects in the Public Lands Corps, a skilled cadre of 
young and diverse natural resource professionals would be available to 
meet some of the staffing needs of agencies. Mr. Chairman and Members 
of the Committee this concludes my prepared Statement. I am happy to 
answer any questions that you or Members of the Committee may have.

    Senator Wyden. Thank you, Mr. Holtrop. We'll have a couple 
questions in a moment.
    Mr. Stanton, welcome.

STATEMENT OF ROBERT G. STANTON, DEPUTY ASSISTANT SECRETARY FOR 
   POLICY AND PROGRAM MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Mr. Stanton. Good afternoon. Chairman Wyden, Chairman 
Bingaman, Senator Udall and I believe you will be returning, 
Ranking Member Barrasso. Thank you for this opportunity to 
present testimony on behalf of three bills affecting programs 
and area within the Department of the Interior.
    I have for you a copy of my full Statement which I would 
like to make available for the record, but I will summarize my 
testimony.
    Senator Wyden. Without objection, so ordered.
    Mr. Stanton. Thank you very much, Mr. Chairman.
    First, S. 1328 and the companion bill H.R. 689, a bill to 
transfer the administrative jurisdiction of certain Federal 
lands in California between the Bureau of Land Management and 
the U.S. Forest Service. The Department of the Interior 
supports S. 1328 and H.R. 689 as passed by the House of 
Representatives. As my distinguished colleague from the U.S. 
Forest Service mentioned, that it transfers to BLM roughly 
12,000 acres and from the Forest Service 5,000 acres to BLM.
    Second, we support S. 1122, the Good Neighbor Forestry Act 
which authorizes the Secretary to enter into corporate 
agreements of contract with a State forester to provide forest, 
range management and watershed restoration and protected 
services on lands administered by the Bureau of Land 
Management. We support the Good Neighbor authority. But we have 
some concerns that requires further analysis that addresses the 
interplay of State and Federal contract and labor laws and 
regulations.
    Finally, Mr. Chairman, we support, we strongly support S. 
1442, the bill that would strengthen and facilitate the use of 
the public lands for program helping to fulfill the vision as 
quoted by numerous occasions by Secretary Salazar to increase 
the participation of young people throughout the breadth of the 
Department of the Interior through education, engagement and 
employment. Secretary Salazar, after being sworn in as 
Secretary of Interior appointed a study group to determine how 
best to proceed. As a result of that effort he established a 
youth office which I'm pleased to say is under my direct 
jurisdiction.
    This bill will facilitate the increased involvement of 
young people in experiencing first hand their natural and 
cultural environment. It will provide expanded employment 
opportunities for young people looking at possible careers in 
the Department of the Interior, Department of Agriculture and 
State Department as well.
    This bill will also give us an opportunity to increase our 
leverage, if you will, partnerships with many concerned civic 
and community and conservation organizations. The National Park 
Service, the Bureau of Land Management, Fish and Wildlife, U.S. 
Geologic Survey and other programs and offices with the 
Interior have enjoyed over the years partnerships with a wide 
range of organizations. This bill will give opportunity to 
strengthen those partnerships.
    In specific terms this bill would allow the Department of 
the Interior to reach out to organizations and to communities 
which heretofore have not been widely represented in 
conservation activities. I speak specifically of 
underrepresented groups, both ethnic, racial and economically 
disadvantaged young people. This bill will give us 
opportunities to bridge that gap, if you will, to make the 
resources and services available of the Department of the 
Interior available to all Americans.
    Last, and certainly not the least is to recognize that as 
with the Department of Agriculture and all the branches in the 
Federal Government we need to make sure that we are competitive 
with developing the future work force for our country. Through 
the engagement of young people through the Public Land Service 
Corps we will broaden the opportunities for young people to 
consider entering into the Federal Government. Hopefully many 
of them will enter into the field of conservation.
    Last, and certainly not the least the young people within 
their capabilities have the opportunity to contribute 
substantially to enhancing the preservation of the priceless 
resources entrusted to the care of not only the Department of 
the Interior, but the Department of Agriculture, Bureau--and 
the U.S. Department of Army Corps of Engineers and other 
Federal land management agencies. We are very fortunate, Mr. 
Chairman and members of the committee, to have had a long term 
experience in youth programs going back to the Civilian 
Conservation Corps and more recently with the Youth 
Conservation Corps authorized in 1970 and certainly with the 
Public Lands Corps authorized in 1993. With these amendments to 
that legislation we are very pleased that we'll have the 
opportunity to substantially increase the involvement of young 
people throughout the breadth of the program and lands of the 
Department of the Interior.
    This concludes my testimony. I'd be more than happy to 
respond to questions or comments that you may have, Mr. 
Chairman and members of the committee.
    [The prepared Statement of Mr. Stanton follows:]

 Statement of Robert G. Stanton, Deputy Assistant Secretary for Policy 
           and Program Management, Department of the Interior
                                s. 1122
    Thank you for inviting the Department of the Interior to testify on 
S. 1122, the Good Neighbor Forestry Act. The bill authorizes the 
Secretary of the Interior to enter into cooperative agreements or 
contracts with a State forester to provide forest, rangeland, and 
watershed restoration and protection services on lands managed by the 
Bureau of Land Management (BLM). The Administration supports Good 
Neighbor Authority, but we believe further study and analysis are 
needed to better understand the interplay of State and federal 
contracting and labor law and regulation before expansion of the 
authority is authorized. We look forward to working with the committee, 
States, and federal agencies to develop a better understanding of the 
issues and to improve the bill in a manner that meets the needs of key 
stakeholders. We welcome opportunities to enhance our capability to 
manage our natural resources through a landscape-scale approach that 
crosses a diverse spectrum of land ownerships.
Background
    The BLM is increasingly taking a landscape-scale approach to 
managing natural resources on the public lands. Recent drought cycles, 
catastrophic fires, large-scale insect and disease outbreaks, the 
impacts of global climate change, and invasions of harmful non-native 
species all threaten the health of the public lands. They also tax a 
land manager's ability to ensure ecological integrity, while 
accommodating increased demands for public land uses across the 
landscape. The BLM engages in land restoration and hazardous fuels 
reduction activities with interagency partners and affected landowners 
to expand and accelerate forest ecosystem restoration. The ``Good 
Neighbor'' concept provides a mechanism to facilitate treatments across 
the landscape, inclusive of all ownerships, and enhances relationships 
between Federal, State, and private land managers.
    In Fiscal Year (FY) 2001, Congress authorized the U.S. Forest 
Service to allow the Colorado State Forest Service (CSFS) to conduct 
activities such as hazardous fuels reduction on U.S. Forest Service 
lands when performing similar activities on adjacent State or private 
lands. The BLM received similar authority in Colorado in FY 2004, as 
did the U.S. Forest Service in Utah.
    The BLM used this ``Good Neighbor'' authority beginning in 2006 in 
the agency's Royal Gorge Field Office. Through an assistance agreement 
with the CSFS, the BLM accomplished a fuels reduction and mitigation 
project within and adjacent to the Gold Hill Subdivision of Boulder 
County. The Gold Hill Project treated a total of 372 acres of wildland 
urban interface consisting of 122 acres of BLM land, 27 acres of U.S. 
Forest Service land, and 223 acres of private land. All of these acres 
were identified as priorities within the Gold Hill Community Wildfire 
Protection Plan. Through the assistance agreement, the CSFS delineated 
the areas to be treated within the Gold Hill Project, managed the 
project, administered contracts, monitored firewood removal, and 
monitored forestry and fuels projects on BLM and U.S. Forest Service 
lands. No timber was harvested or sold from the BLM lands. The BLM and 
the U.S. Forest Service conducted the project planning and fulfilled 
NEPA requirements on their respective lands.
    The project area consisted of small parcels of Federal lands 
interspersed with State and private lands. Since all the landowners 
used the same State contract, treatments were accomplished concurrently 
and with consistency in treatment methods, thereby achieving hazardous 
fuels reductions across a larger area to reduce the risk of wildfire. 
Efficiencies were also realized by utilizing a single contractor to 
treat one large project area. The BLM also realized savings in 
personnel resources. Although the project area was located nearly 200 
miles from the BLM field office, CSFS personnel were in the immediate 
vicinity and were able to conduct the field work for the BLM. In 
addition, the CSFS regularly worked with private landowners in the area 
and easily gained access through the private lands to conduct work on 
the Federal lands, which allowed the work to begin quickly. Simplified 
State contracting procedures also expedited the project. The project 
was completed in 2008.
    A February 2009 GAO report examined State service contracting 
procedures regarding transparency, competitiveness, and oversight, and 
found that the State requirements generally addressed each of these 
areas. (GAO-09-277). The GAO issued two recommendations to the BLM: 1) 
To develop written procedures for Good Neighbor timber sales in 
collaboration with each State to better ensure accountability for 
federal timber; and 2) To document how prior experiences with Good 
Neighbor projects offer ways to enhance the use of the authority in the 
future and make such information available to current and prospective 
users of the authority. The BLM's Forest and Woodlands Division is 
working to complete a final corrective action plan incorporating these 
suggestions by the end of the 2009 calendar year. .
S. 1122
    S. 1122 provides for the Secretaries of Agriculture and Interior to 
enter into agreements and contracts with State foresters in any State 
west of the 100th meridian, to provide forest, rangeland, and watershed 
restoration and protection services on National Forest System land or 
BLM land. The success that the BLM experienced in using the Good 
Neighbor authority in Colorado as a cross-boundary management tool 
would be available under S. 1122 to all BLM-managed lands throughout 
the west. The authority provided by the bill is discretionary; each BLM 
office could determine on a case-by-case basis whether or not the Good 
Neighbor authority is a desirable option. All Good Neighbor projects 
would be undertaken in conformance with land use plans and comply with 
the National Environmental Policy Act, if applicable.
    Section 3a of the bill addresses cooperative agreements. The BLM 
suggests an amendment to the language to add ``notwithstanding the 
Federal Grants and Cooperative Agreements Act.'' Without this 
clarifying amendment, the BLM would be concerned about its ability to 
use agreements with the State rather than contracts.
    The provisions in section 3b authorize services to include 
activities that treat insect-infected trees; reduce hazardous fuels; 
and any other activities to restore or improve forest, rangeland, and 
watershed health, including fish and wildlife habitat. There is no 
requirement that the BLM-managed lands be adjacent to State or private 
lands to be eligible for services. This expansion of authority could be 
beneficial in watershed restoration projects where State and Federal 
lands might not be immediately adjacent to one another, but are within 
the same watershed. Accordingly, this expanded authority could enhance 
the effectiveness of landscape-scale treatment.
Conclusion
    Thank you for the opportunity to testify about Good Neighbor 
Authority and S. 1122. The Department of the Interior and the BLM 
welcome opportunities to engage in efforts that can advance cooperation 
of all landowners, improve the effectiveness of restoration and fuels 
treatments, and provide cost-effective tools for managing natural 
resources. I would be happy to answer any questions.
                          s. 1328 and h.r. 689
    Thank you for the opportunity to testify on S. 1328 and H.R. 689, 
companion bills to transfer the administrative jurisdiction of certain 
Federal lands in California between the Bureau of Land Management (BLM) 
and the U.S. Forest Service (FS). The BLM supports H.R. 689 as passed 
by the House of Representatives.
Background
    The Chappie-Shasta Off-Highway Vehicle (OHV) Area consists of 
approximately 56,000 acres located within Shasta County, California. 
The area has a complex pattern of land ownership with approximately 
25,000 acres administered by the BLM, 11,760 acres managed by the FS, 
and the rest in other Federal or private ownership. Each year, numerous 
special recreation events occur within this popular OHV area that 
require special recreation permits from both the BLM and the FS. In an 
effort to more consistently handle the recreational use, the BLM has 
taken the lead in managing the area and special events on both BLM and 
FS managed lands. Nonetheless, the mixed ownership and separate 
management and regulatory frameworks between the two agencies have, at 
times, caused frustrations for the public.
S. 1328 and H.R. 689
    The House of Representatives passed H.R. 689 on June 2, 2009; our 
testimony addresses the House-passed bill.
    H.R. 689 transfers to the BLM administrative jurisdiction of 11,760 
acres of Federal land located within the Chappie-Shasta OHV Area that 
are currently managed by the FS. Consolidation of land ownership within 
the Chappie-Shasta OHV Area will allow for a more streamlined 
administration of recreation use and an improved recreation experience 
for the area's users.
    In addition, the bill transfers to the FS administrative 
jurisdiction over three parcels totaling approximately 5,000 acres of 
public land currently managed by the BLM in Trinity, Shasta, Humboldt, 
and Siskiyou Counties. These lands are either adjacent to or within 
areas managed by the FS, and include the 4,830 acre-Tunnel Ridge 
portion of the Trinity Alps Wilderness (currently managed by the FS 
through a Memorandum of Understanding with the BLM) which is within the 
FS managed 517,000 acre Trinity Alps Wilderness. The other two parcels 
are a 217-acre parcel adjacent to Shasta Lake and a 44-acre parcel 
along California Highway 89. Both parcels are surrounded by FS lands 
and were identified for transfer to the FS in the 1993 BLM California 
Redding Resource Management Plan.
    This interchange of administrative jurisdiction between the two 
agencies will lead to efficiencies in agency management, consistent 
management of Federal resources involved and better service to the 
public. H.R. 689 is the result of years of local efforts by the 
agencies, the public, and the sponsor. The BLM believes enactment of 
the bill would make land management adjustments where they are 
appropriate and beneficial to the public.
    A number of technical amendments were made to H.R. 689 to address 
concerns raised by the BLM in testimony before the House Natural 
Resources subcommittee on National Parks, Forests, and Public lands on 
March 24, 2009. Since that time, additional minor mapping corrections 
have come to the BLM's attention. The Bureau would like to work with 
the Sponsor and Committee to prepare a new map. .
                                s. 1442
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
1442, a bill that would amend the Public Lands Corps Act of 1993 to 
expand the authorization of the Secretaries of the Interior, 
Agriculture and Commerce to provide service-learning opportunities on 
public lands, help restore the Nation's natural, cultural, historic, 
archaeological, recreational and scenic resources, train a new 
generation of public land managers and enthusiasts, and promote the 
value of public service.
    The Department strongly supports S. 1442. This bill would 
strengthen and facilitate the use of the Public Land Corps (PLC) 
program, helping to fulfill the vision that Secretary Salazar has for 
promoting ways to engage young people across America to serve their 
community and their country. On April 2, 2009, the Department testified 
in support of the House companion bill, H.R. 1612. While we are 
strongly supportive of S. 1442, there are a few areas where we would 
like to suggest some changes. We commit to working with the committee 
to address these recommendations.
Engaging America's Youth Through Service
    While there are other Federal programs that promote service, 
expanding the use of the Public Land Corps could be a particularly 
important part of our overall strategy for increasing opportunities and 
incentives for young people to become involved because this program 
serves other high-priority goals as well. Through it, we could 
reconnect young people with their natural environment and cultural 
heritage; make progress on energy conservation and the use of 
alternative sources of energy; and provide education, training, and 
career-building experiences--and a pathway to careers in Federal land 
management agencies, which are in serious need of new, younger 
employees.
    Secretary Salazar created the Youth in Natural Resources program 
during his tenure at the Colorado Department of Natural Resources as a 
way to educate thousands of young people about Colorado's natural 
resources, and he saw firsthand what a difference it made in their 
lives. From the day he was nominated as Secretary of the Interior, he 
has emphasized that it would be one of his top priorities to find more 
ways to introduce young Americans from all backgrounds to the beauty of 
our national parks, refuges, and public lands and to promote an ethic 
of volunteerism and conservation in the younger generation. Enactment 
of this legislation could pave the way to meeting one of the 
Secretary's top priority goals--to develop a 21st Century Youth 
Civilian Conservation Corps.
Background on Public Land Corps Program
    The Department regards the Public Land Corps program as an 
important and successful example of civic engagement and conservation. 
Authorized by the National and Community Service Trust Act on in 1993, 
the program uses non-profit organizations such as the Student 
Conservation Association (SCA) and other service and conservation corps 
organizations affiliated with the Corps Network as the primary partners 
in administering the Public Land Corps program. In addition, other non-
profit youth organizations such as the YMCA also participate, as do 
local high schools and job-training youth organizations. The youth 
organizations assist the National Park Service (NPS) in its efforts to 
attract diverse participants to the parks by recruiting youth 16-25 
years of age from all socioeconomic, cultural and ethnic backgrounds.
    The National Park Service makes extensive use of the PLC program. 
Projects are funded through recreational fee revenue, with the typical 
project receiving $25,000 from NPS plus a 25 percent match from a 
partner organization. NPS spent $4.1 million on the program in FY 2008, 
which funded about 1,500 young men and women working on 178 projects at 
99 park units. Most PLC projects at parks are designed to address 
maintenance and ecological restoration needs. The NPS also conducts 
other youth service and conservation projects at larger parks which are 
funded out of the parks' own budgets.
    NPS also spent more than $3 million on the Youth Conservation Corps 
program which is a summer employment program for 15-18 year old youth. 
NPS in fiscal year 2008 employed 833 youth to work on conservation 
projects across the country. The YCC program has been administered by 
the National Park Service since 1974.
    The Bureau of Land Management (BLM) and the U.S. Fish and Wildlife 
Service (FWS) have a long history of employing youth service and 
conservation corps participants from the SCA, Youth Conservation Corps 
and other organizations for a wide array of projects related to public 
lands resource enhancement and facility maintenance. Though most corps 
are affiliated with the nationwide Corps Network, they are often 
administered at the State, rather than national level. For example, the 
FWS and SCA have partnered for over 20 years to offer work and learning 
opportunities to students. In FY 2007, 122 Conservation Interns served 
at 45 FWS sites in 24 States, contributing more than 80,000 hours of 
work.
    The BLM has engaged the services of SCA interns for many years 
under a longstanding national assistance agreement, then under 
individual State agreements. In 2006, the last year of BLM's national 
agreement, a total of 116 SCA members served at 16 BLM sites in eight 
States. The interns participated in a variety of conservation service 
activities such as recreation and river management, historic building 
restoration and maintenance, seed collection, and invasive species 
control. BLM's Salem Oregon District, for example, hires a mixture of 
Northwest Youth Corps, Clackamas County, and Columbia River Youth Corps 
members each year to perform a variety of activities such as trail 
maintenance and construction.
    The FWS manages 587 units of the National Wildlife Refuge System 
that cover over 150 million acres, as well as 70 National Fish 
Hatcheries, which would directly benefit from programs authorized under 
S. 1442. National Wildlife Refuges and National Fish Hatcheries enjoy 
strong relationships with the local communities in which they are 
located, and are involved in many community-based projects that help 
maintain sustainable landscapes. The FWS's work is also supported by 
over 200 non-profit Friends organizations that assist in offering 
quality education programs, mentoring, and work experience for youth.
    In 2007, the FWS employed 496 Youth Conservation Corps enrollees 
and 177 individuals through the Student Conservation Association 
program. Last year, over 39,000 volunteers contributed their time and 
talents to a variety of programs including support for youth education 
projects. Over the past two years the FWS has provided funding for a 
YCC program involving the Mescalero Apache youth at the Mescalero 
Tribal Hatchery in New Mexico. The FWS has working relationships with 
numerous colleges and universities for students interested in pursuing 
careers in fish and wildlife management.
The Public Lands Service Corps Act of 2009
    S. 1442 would make several administrative and programmatic changes 
that, in our view, would strengthen and improve the Public Land Corps 
Act. These changes would encourage broader agency use of the program, 
make more varied opportunities available for young men and women, and 
provide more support for participants during and after their service. 
Appropriately, S. 1442 would change the program's name to Public Lands 
Service Corps, reflecting the emphasis on ``service'' that is the 
hallmark of the program. President Obama is committed to providing 
young people with greater opportunities and incentives to serve their 
community and country. Through an enhanced Public Lands Service Corps, 
we would be taking a critical first step that direction.
    Key changes that the legislation would make to existing law 
include:

  <bullet> Adding the National Oceanic and Atmospheric Administration, 
        which administers national marine sanctuaries, as an agency 
        authorized to use the program;
  <bullet> Establishing an Indian Youth Corps so Indian Youth can 
        benefit from Corps programs based on Indian lands, carrying out 
        projects that their tribes and communities determine to be 
        priorities;
  <bullet> Authorizing a departmental-level office at the Department of 
        the Interior to coordinate Corps activities within the three 
        land management bureaus;
  <bullet> Requiring each of the three relevant departments to 
        undertake or contract for a recruiting program for the Corps;
  <bullet> Requiring each of the three relevant departments to 
        establish a training program for Corps members, and identifying 
        specific components the training must include;
  <bullet> Identifying more specific types of projects that could be 
        conducted under this authority;
  <bullet> Allowing participants in other volunteer programs to 
        participate in PLC projects;
  <bullet> Allowing agencies to make arrangements with other Federal, 
        State, or local agencies, or private organizations, to provide 
        temporary housing for Corps members;
  <bullet> Providing explicit authority for the establishment of 
        residential conservation centers, and authorizing the Secretary 
        to seek the assistance of the Secretary of Energy in 
        identifying and using solar and other green building 
        technologies that may be adapted for these facilities;
  <bullet> Authorizing agencies to recruit experienced volunteers from 
        other programs to serve as mentors to Corps members;
  <bullet> Adding ``consulting intern'' as a new category of service 
        employment under the PLC program;
  <bullet> Allowing agencies to apply a cost-of-living differential in 
        the provision of living allowances and to reimburse travel 
        expenses;
  <bullet> Allowing agencies to provide noncompetitive hiring status 
        for Corps members for two years after completing service, 
        rather than only 120 days, if certain terms are met;
  <bullet> Allowing agencies to provide job and education counseling, 
        referrals, and other appropriate services to Corps members who 
        have completed their service; and
  <bullet> Eliminating the $12 million authorization ceiling for the 
        program.

    We believe that the Department's program would benefit from 
enactment of this legislation. As noted above, most PLC projects at 
national parks are designed to address maintenance and ecological 
restoration needs, and those types of projects would continue to be 
done under S. 1442. However, this legislation specifies a broader range 
of potential projects, making it likely that Corps members could become 
involved in such varied activities as historical and cultural research, 
museum curatorial work, oral history projects and programs, documentary 
photography, public information and orientation services that promote 
visitor safety, and activities that support the creation of public 
works of art. Participants might assist employees in the delivery of 
interpretive or educational programs and create interpretive products 
such as website content, Junior Ranger program books, printed handouts, 
and audiovisual programs.
    PLC participants would also be able to work for a park partner 
organization where the work might involve sales, office work, 
accounting, and management, so long as the work experience is directly 
related to the protection and management of public lands. The NPS and 
the FWS have a large number of partner organizations that would be 
potential sponsors of young people interested in the type of work they 
might offer.
    An important change for the Department is the addition of specific 
authority for agencies to pay transportation expenses for non-
residential Corps members. Transportation costs may be a limiting 
factor in program participation of economically disadvantaged young 
people.
    Another important change is the addition of ``consulting intern'' 
as a new category of service employment under the PLC program, 
expanding on the use of mostly college-student ``resource assistants,'' 
provided for under existing law. The consulting interns would be 
graduate students who would help agencies carry out management analysis 
activities. NPS has successfully used business and public management 
graduate student interns to write business plans for parks for several 
years, and this addition would bring these interns under the PLC 
umbrella.
    The Public Lands Service Corps would also offer agencies the 
ability to hire successful corps members non-competitively at the end 
of their appointment, which would provide the agency with an influx of 
knowledgeable employees as well as career opportunities for those 
interested in the agencies' mission. Refuges and hatcheries, for 
example, are uniquely qualified to connect with local communities since 
the Service has so many refuges across the country that are located 
near smaller communities and can directly engage urban, inner city, and 
rural youth. For example, partnering academic institutions could offer 
educational programs to enhance the students' work experience, thereby 
providing orientation and exposure to a broad range of career options.
    The legislation would also give the Department's other bureaus that 
would utilize this program the authority to expand the scope of 
existing corps programs to reflect modern day challenges, such as 
climate change and add incentives to attract new participants, 
especially from underrepresented populations.
    An expanded Public Lands Service Corps program would provide more 
opportunities for thousands of young Americans to participate in public 
service while we address the critical maintenance, restoration, repair 
and rehabilitation needs on our public lands and gain a better 
understanding of the impacts of climate change on these treasured 
landscapes.
Recommended Changes to S.1442
    While we are very supportive of S.1442, there are few areas we 
would like to suggest some changes. We would be happy to work with the 
committee to develop technical amendments and changes in the following 
areas:

  <bullet> Cost sharing for nonprofit organizations contributing to 
        expenses of resource assistants and consulting interns.--Under 
        current law in the case of resource assistants, and under S. 
        1442 in the case of consulting interns, sponsoring 
        organizations are required to cost-share the expenses of 
        providing and supporting these individuals from ``private 
        sources of funding''.25 percent for resource assistants and 10 
        percent for consulting interns. The administration recommends 
        leveling this cost-requirement to 25 percent for both 
        categories of participants with an additional provision to give 
        agencies the ability to reduce the non-Federal contribution to 
        no less than 10 percent, but only when the Secretary determines 
        it is necessary to enable a greater range of organizations, 
        such as smaller, community-based organizations that draw from 
        low-income and rural populations, to participate in the PLSC 
        program.
  <bullet> Benefits for consulting interns.--The Department recommends 
        clarifying amendments to include consulting interns as the 
        third type of corps member who are eligible for living 
        allowances; national service educational awards and forbearance 
        in the collection of Stafford loans. This change would allow 
        all three types of corps members--PLSC participants, resource 
        assistants, and consulting interns--to be treated equally for 
        purposes of eligibility for living allowances and education 
        benefits. We also suggest clarifying language to ensure that 
        members of qualifying conservation and youth corps are treated 
        as Corps participants. Existing law and the bill as introduced 
        differentiate between Corps participants, who are hired 
        directly by the agencies, and youth who are sponsored by other 
        organizations.
  <bullet> Hiring Preference.--It is unclear whether resource 
        assistance would qualify for the provision of credit for time 
        served with the Public Lands Service Corps for future federal 
        hiring. We recommend that this language be clarified to ensure 
        resource assistants are made eligible for these benefits.

    Second, S.1422 provides that former PLSC members would be eligible 
for noncompetitive hiring status for up to two years. The 
Administration opposes eligibility for up to two years because the 
service requirements for this program are minimal. Therefore, we 
recommend making eligibility status one year, which is consistent with 
other Government-wide, non-competitive appointment authorities based on 
service outside of the Federal government.
    The Department further suggests including language to ensure that 
time these former Corps members (both types) spent as full-time 
students does not accrue against the time period they have to use their 
noncompetitive hiring status. That way, college students who served in 
the Corps during the summer, for example, would be able to use their 
time period of noncompetitive status after they graduate from college.
    While we support the noncompetitive hiring authority for all the 
different types of PLSC participants, we recommend including language 
to ensure that the participants have documented work experience within 
a legitimate program in order to be eligible for this authority. In the 
case of youth serving on PLSC projects though outside organizations, 
this could be achieved by specifying that the participants need to 
achieve the requisite hours of work within qualified youth or 
conservation corps programs as defined in Section 203 of the Act.

  <bullet> Agreements with Partners on Training and Employing Corps 
        Members.--Finally, we recommend striking the provision in 
        S.1422 that would allow PLSC members to receive federally 
        funded stipends and other PLSC benefits while working directly 
        for non-Federal third parties. The need for this language is 
        unclear, since agencies already have flexibility in how they 
        coordinate work with cooperating associations, educational 
        institutes, friends groups, or similar non-profit partnership 
        organizations. Yet, the language could raise unanticipated 
        concerns over accountability, liability, and conflicts of 
        interest. For example, this language could allow an individual 
        to receive a federally funded stipend under a PLSC agreement, 
        and then perform work for a different non-federal group (such 
        as a cooperating association) that is subject to agency 
        oversight under different agreements. This language could blur 
        the lines of responsibility that have been established in 
        response to IG concerns over the management of cooperating 
        associations and friends groups.

    Mr. Chairman, that concludes my remarks. I would be happy to answer 
any questions you or the other members of the subcommittee have.

    Senator Wyden. Gentlemen, thank you both. That's very 
helpful. Let me start off this way.
    This subcommittee has been involved in four major statutes 
over the last few years. Certainly I've spent a lot of my time 
on it: the County Payments legislation, twice, the Public Lands 
Package, a historic package signed by the President this year 
and the Healthy Forest Restoration Act. Invariably on these 
major bills you are trying to bring together environmental 
folks and folks from various industries, the timber industry, 
State and local officials.
    The debates, very often, start at a fairly high decibel 
level. There are strong differences of opinion. Then we try to 
bring folks together. We're going to try to do that in a number 
of these bills that we're working on today.
    I am still trying to get my arms. Let me start with the 
question of the Good Neighbor bill. Trying to get my arms 
around what is at issue here.
    It seems to me some seem to be saying that the issues are 
largely technical questions. Others seem to be approaching this 
is a major philosophical change. I'm going to continue to try 
to bring all sides together.
    I think the Obama administration has made it clear that's 
what they want to do. So just one question I think, probably 
more technical than anything else on the Good Neighbor Bill. My 
understanding is under the Good Neighbor authority the State 
acts as the ``agent'' of the Forest Service or the BLM.
    So given that kind of standing how does the Department/
Departments delineate the potential liability between a State 
forester and the Federal Government under what amounts to the 
current situation, the pilot Good Neighbor authority?
    Mr. Holtrop, the question I guess is for you.
    Mr. Holtrop. Thank you.
    First of all let me just State that we have not had 
liability issues with any of the projects that we've completed 
in the States of Colorado and Utah. But it's--I think at our 
liability issues, I think there are some issues around wages, 
safety, fair labor standards. Those are the types of things 
that we just think need to require a little bit more analysis 
and consideration before we're ready to expand this authority 
as broadly as we want to.
    But we want to do this. The Good Neighbor authority, as 
Senator Barrasso adequately--or appropriately expressed in his 
opening comments, it's an authority that can be very valuable 
to us. We want to have this. We are willing to work 
expeditiously to resolve those issues.
    Senator Wyden. Very good. One question about the Ski Area 
issue, S. 607. As I understand it in your testimony the Forest 
Service explicitly has authorized a number of non-skiing 
activities that in effect the agency now recognizes as not 
proper under existing law, but the extent in character of these 
activities are not clear from the testimony that we've received 
at this point.
    Can you work with the ski areas to get the committee a list 
of what non-conforming activities have been authorized by the 
Forest Service? Whether you think they conform to the 7 
criteria that you've laid out in the testimony today?
    Mr. Holtrop. We would be happy to work with the ski 
industry to provide a list.
    Mr. Holtrop. I would say that the Ski Area Permit Act that 
we currently operate under doesn't explicitly exclude many 
activities. But it's not explicitly authorizing some of those 
activities.
    The activities that do occur under Ski Area Permits could 
be authorized under many other authorizing authorities as well. 
But I think we can get you a list of all of those activities 
that do occur outside of the winter season on ski areas.
    Senator Wyden. Very good. It seems to me that all sides are 
rooting in effect for a bit more clarity in this area. I think 
that's going to be helpful.
    So, Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman. We 
know that Good Neighbor authority is in place, as you 
mentioned, Utah, Colorado. So I'd like to ask a little bit 
about your experience in those States.
    You said there were no liability issues. It's something you 
want to move to expeditiously. So, how does it help you fulfill 
your agencies' missions in those States?
    Mr. Stanton. At this point, Senator Barrasso, is that the 
Bureau of Land Management has had only experience with the Good 
Neighbor policy in Colorado. It has worked extremely well. It 
has proven to be an effective tool that also resulted in 
management efficiencies. Therefore, cost savings as well. Plus 
it improves coordination with private landowners, with other 
State jurisdiction as well as with other Federal agencies.
    So the concept and the practice of the concept, I think, is 
very viable. I think it paves a way for improved efficiencies 
in the government. There is a responsibility, however, born by 
the Federal Government and the States to assure that there's 
clear understanding about the agreement requirements. I think 
all of those--any differences have been worked out on the 
ground.
    But as with any new effort, you continue to analyze and 
make sure that if there's anything need to be improved upon, 
you improve upon it. But the Good Neighbor policy is very well 
accepted in The Department of the Interior.
    Mr. Holtrop. Also agree with everything that Mr. Stanton 
just said. I would also say that it is efficiencies that this 
provides us. We have, again, as your Statement, Senator 
Barrasso, indicated, we have in the State of Wyoming, Colorado, 
Utah and across the West, a great deal of work to do on insect 
infestations. Every tool that we can have in our tool chest to 
help us accomplish that is something that would be important to 
us.
    There's an example that I would like to just mention in 
Colorado where we had a community that worked with the Colorado 
State Forest Service to do hazardous fuel reduction within the 
community on the private lands next to the National Forest 
system lands. We then worked with the Colorado State Forest 
Service to expand that work onto the National Forest system 
lands. The efficiency that came from that and the overall 
accomplishment of restoring some safety to that community was 
important.
    Senator Barrasso. Colorado and Wyoming are addressing 
forest health threat from bark beetles. Is that what you're 
making reference to?
    Mr. Holtrop. Yes.
    Senator Barrasso. It seems there's a lot you could do with 
that. That would be great. So anytime you try to work with good 
neighbor authority and implement one of these projects, the 
land management plan, still really dictates the parameters of 
the project.
    So it's not something that a State could all of sudden take 
over? Is that correct?
    Mr. Holtrop. That is correct. The forest land and resource 
management plan in the case of the Bureau of Land Management, 
their resource plans, dictate the Federal agency is responsible 
for the national environmental policy work in making the 
decisions.
    Senator Barrasso. So if a State tried to go beyond that 
authority, there are Federal restrictions?
    Mr. Holtrop. Yes.
    Senator Barrasso. There would be somebody who would step in 
and make sure that did not occur.
    Mr. Holtrop. Yes.
    Senator Barrasso. No further questions at this time, Mr. 
Chairman.
    Senator Wyden. Chairman Bingaman.
    The Chairman. Thank you very much. I thank both the 
witnesses.
    Mr. Stanton, thank you for the strong Statement of support 
for S. 1442. I know you've worked hard throughout your career 
to make the forest available for training and employment 
opportunities for young people. I think it is very important 
that we strengthen that legislation. So I appreciate your 
Statement.
    On the Good Neighbor issue I think one of the reasons that 
I think there's been a little concern. We had a hearing a 
couple years ago on the problem of alleged problems in 
connection with some of the forestry workers who were brought 
in to do work, forest restoration type work. Many of them were 
foreigners coming here under an H-2B visa, essentially. There 
were real questions as to whether the conditions that they were 
working in were appropriate.
    As I understood at that time there were some pretty strict 
rules put in place there to ensure that these folks were 
properly dealt with, that the working conditions were 
acceptable and all of that.
    First, let me just ask if I'm right in my recollection of 
that.
    Mr. Holtrop. You are correct in your recollection. That is 
one of the issues that causes us to have a desire to make sure 
that we have analyzed and studied all of the----
    The Chairman. But it would be your desire to be sure that 
if you're contracting with the State or you entered into an 
agreement with the State to go ahead and do other work that the 
Federal Government is supporting, financially, that--those same 
kinds of requirements would apply to any contractor doing that 
work that applied to any contractor working directly for the 
Federal Government.
    Mr. Holtrop. That's correct.
    The Chairman. Ok. I think that's one concern. I just wanted 
to be sure to get out for folks to think about.
    On the legislation that Senator Udall has introduced which 
I generally support trying to get more recreational 
opportunities on our forest lands. Some are recreational 
opportunities in ski areas. One suggestion I've heard is that 
there's been a proposal at at least one ski area to put in a 
what's called an alpine roller coaster.
    First, I'd be interested in knowing whether you know what 
that is.
    Second, is that an appropriate use of the National Forest 
lands?
    I guess to the extent that I've thought about this. I've 
thought that we clearly want to encourage more recreational use 
of the National Forest lands and in ski areas as well. We don't 
want to see the National Forest lands turned into Disneyland 
type parks. I don't know whether an alpine roller coaster, 
which category that winds us up in.
    Mr. Holtrop. Thank you for the question.
    We generally refer to the device as an alpine coaster. My 
understanding is generally what they would do, they are a 
device that sits on rails, but generally follows the contour of 
the land as they roll down. They are somewhat similar to an 
alpine slide, but the slide is more on the ground. The coaster 
is raised above the ground a little bit more and the different 
way in which they move down the hill.
    I think the key question is there clearly are some 
activities that would be outside the scope of what the 
subcommittee or the Forest Service would be interested in 
having occur on National Forest system lands. We want to make 
sure that the legislation addresses that appropriately. We 
believe the type of activities that could/should occur on ski 
areas outside of the winter season should be nature based, 
should be largely generated by the and dependent upon the 
resources such as the mountains and the scenery and the forests 
that are there.
    There are some facilities that we think definitely fall 
outside of that category. We would like to work with the 
subcommittee to have those explicitly identified in the 
legislation. There are some that we think should be considered 
on a site by site, case by case basis. We would put into place 
directives that would help us analyze those on a case by case, 
site by site basis.
    The Chairman. That's all I have, Mr. Chairman. Thank you.
    Senator Wyden. I thank my colleague.
    Senator Udall, I think was next in terms of arrival.
    Senator Udall. Thank you, Mr. Chairman.
    Mr. Holtrop, let me turn first to the Sugarloaf Fire 
Protection District Land Exchange Act. I want to thank you for 
your testimony. To start I would like to continue to work with 
you and the fire district to address the issues you raised in 
your testimony. I think we can resolve them fairly quickly.
    In fact, I understand the fire district has preliminarily 
let us know they're alright with making the changes that you 
recommend. I can't speak definitively for them. But I really 
want to make sure that we get a solution here.
    We've been working on this land exchange for more than 10 
years. We can't have another 10 years go by without action. So 
do I have your commitment that you'll work with the fire 
district and with my staff to move this legislation forward?
    Mr. Holtrop. Absolutely. You have that commitment. We also 
don't want it to take anywhere near another 10 years, months 
sounds better.
    Senator Udall. That sounds very appropriate to me. Let me 
turn to the ski area bill that Senator Wyden has discussed and 
Senator Bingaman as well. I want to thank the 15 co-sponsors 
that joined me in supporting this bipartisan legislation that 
includes several members of the committee: Senators Barrasso, 
Cantwell, Sanders, Shaheen and Stabenow.
    I have a longer Statement for the record, Mr. Chairman, 
that I would like to include in the record.
    Senator Wyden. Without objection that will be done.
    Senator Udall. It, in particular, focuses on the importance 
of the bill to our mountain economies. Let me turn to a 
specific set of comments. I agree with you and those who will 
testify in the next panel that we need to have side boards so 
that permitted activities are in keeping with outdoor, natural-
based, recreational opportunities.
    I do believe with a pride of authorship here we've struck 
the right balance in the bill given that, I think you even 
point out this is a fluid and evolving concept and specific 
activities need to fit individual areas. So that's why I do 
have some concerns about spelling out in detail what permitted 
activities can and cannot be in law. Nevertheless, would you 
and the Forest Service be willing to work with us in providing 
more guidance on this point through report language as the bill 
moves forward?
    Mr. Holtrop. Yes, we would. I think you point out a couple 
of things.
    One is that the--I don't think we can be definitive in 
establishing what are all of those activities that should be 
excluded at this point in time because there will be new 
inventions. They'll be new activities. They'll be new ideas 
that we also need to be able to respond to over time. So I 
think that's an important part of what we need to look at in 
this legislation.
    Although I do think that there are some that are so clearly 
outside the scope in my testimony list a few of those like 
tennis courts and golf courses and things like that that I 
think we can reach resolution on fairly quickly. But yes, you 
have my commitment to work with you to continue to either 
identify what are those, some of those specific side boards 
where after the legislation is passed as we work on the 
guidance necessary to make the correct decisions on a site by 
site, case by case basis.
    Senator Udall. I would note for the record that in part the 
genesis for this idea was a particular ski area in Colorado 
that wanted to operate within the law, wanted to be an 
outfitter guide that didn't include activities on the ski area 
lands in the summertime that weren't within the very unspecific 
guidelines. Included in this was an interest in having mountain 
biking in the ski area and use of those roads. They were 
operating in a very responsible, straight forward way.
    So that was one of the reasons that I brought this bill 
forward. So they had that clarity. As you know the ski area 
business model is based on an active winter season, a less 
active summer season. Although you see the revenues rising up 
to the point now where the summer sometimes equals or surpasses 
the winter season. But they also look as any good business 
people would, to level out those peaks and valleys in the 
spring and the fall seasons.
    One final question. In Mr. Bidwell's testimony in the panel 
that will follow yours, he makes the point that in current 
Forest Service, I want to quote his testimony here. In current 
Forest Service policies recreation ski areas should continue to 
be dependent on the natural setting and provide recreational 
opportunities that are generally not available on private lands 
or non forested settings such as urban areas.''
    Is there anything in my bill that would change this policy?
    Mr. Holtrop. No, not that I'm aware of. Again, it is 
something that's important to us as well. Generally the types 
of recreational activities that occur on National Forest system 
lands in ski areas ought to be activities that are unique to 
opportunities on National Forest not of an urban setting. 
That's the intent of the legislation. I appreciate the work 
that you've done on it.
    Senator Udall. Thank you. I think there's, Mr. Chairman, a 
lot of violent agreement on this point. I might use just a few 
additional seconds to welcome Mr. Stanton. He's one of my 
heroes. It's great to see you here.
    Mr. Stanton. Thank you.
    Senator Udall. Thank you for your continued service.
    Mr. Stanton. Thank you. Thank you very much.
    Senator Udall. The Stanton Family, the Udall Family have 
long ties. It's nice to see you here.
    Mr. Stanton. That's nice to hear.
    Senator Udall. Mr. Chairman, thank you.
    Senator Wyden. We are glad to have Senator McCain on this 
subcommittee and this Congress. I mentioned a number of those 
bills that people didn't think you could get significantly over 
60 votes over the years. One of the reasons we were able to is 
the participation of Senator McCain.
    So we recognize you and glad you're on the subcommittee.
    Senator McCain. Thank you, Mr. Chairman. I appreciate all 
your leadership and your commitment to these issues that are so 
important to the Nation that are under the obligations of this 
subcommittee. I thank you for your leadership.
    Mr. Stanton, I'm very, very glad to see you, sir. Mr. 
Holtrop, I've got a problem I need to discuss with you. I think 
you're aware of the issue is the Snow Bowl issue in Arizona.
    In 2005 the Forest Service approved a proposal to install 
snow making infrastructure and other facility improvements at 
the Arizona Snow Bowl which you know is a ski area permitee in 
the Coconino National Forest. It gets about 150,000 people 
every year. Immediately a coalition of Indian tribes surmounted 
a legal challenge arguing that artificial snow would desecrate 
the San Francisco Peaks.
    In 2008 the Ninth Circuit Court of Appeals ruled in favor 
of the Forest Service. In June 2009 the Supreme Court declined 
to hear the case. In order to make the 2010 ski season 
construction has to begin no later than next March.
    Can you tell me what's the status of when we can expect the 
Forest Service to issue a notice to proceed?
    Mr. Holtrop. Senator, I'm certainly aware of the concerns 
that you're expressing there. I'm looking forward to sharing 
your concerns with the other folks in the Department that have 
been working on this issue. I think we have a shared 
understanding of how important these issues are to the ski area 
and to the community around the ski area and to the tribal 
interest. We look forward to continuing to work with you and 
others on resolution.
    Senator McCain. Mr. Holtrop, we got a letter from the 
Deputy Secretary of Agriculture that said basically that they 
were considering the situation. I must say in the years that 
I've been here I've never heard of a decision that is upheld by 
the U.S. Supreme Court then an agency of government not 
implementing the results of that decision. I'm frankly 
dumfounded that having fought this all the way through the 
courts, a million dollars of the taxpayer's money and yet 
there's no action that has been taken. Do you have any?
    Now the information we have is that Secretary Merigan is 
attempting to facilitate negotiations for the sale of the ski 
area to the Navajo nation. Have you heard of that?
    Mr. Holtrop. I've heard there are some discussions going on 
such as that.
    Senator McCain. What authority does the Deputy Secretary of 
Agriculture have to engage in negotiations which have been 
requested by neither party?
    Mr. Holtrop. My understanding is that the parties have 
mutually agreed to have some discussions. Have actually asked 
the USDA to refrain from involvement at this time. But again, I 
understand what your concern is. I understand the sense of 
urgency.
    I assure you that as I continue to work on this and as I 
work on this with the folks in the Department I'll share your 
concerns with them. We'll continue to work forward.
    Senator McCain. I appreciate your nice words. I really do. 
How does anyone, much less an unelected bureaucrat, in all due 
respect, take it upon herself to say that here's the decision 
by the U.S. Supreme Court which through all the Constitution 
requirements were fulfilled and she's not going to act?
    In other words, her words were, ``We have it under 
consideration.'' What gives the Deputy Secretary of Agriculture 
that kind of authority not to move forward after the issue has 
been resolved?
    Now there's been another case brought, another suit brought 
by another organization which will be quickly dismissed because 
it's frivolous in nature. But I would like to know, again, when 
this Deputy Secretary or you intend to act to implement a case 
that's been settled all the way up to the U.S. Supreme Court. 
Very frankly, your answer, while we look forward to working 
with you, isn't quite good enough given what's happened so far 
since the decision was made.
    So I don't want to hold up bills. I don't want to hold up 
nominees to positions. But I have to exercise my rights in 
order to see that the people of Flagstaff, Arizona and my State 
can enjoy one of their really great recreational facilities, 
that they can have the right to move forward with a process 
that has already been decided in the courts.
    So I hope to get a rapid response from you. I do not 
threaten anything. But I do say that it is unacceptable for a 
Deputy Secretary of Agriculture to respond to a case that's 
been in the U.S. Supreme Court to say well, we're considering 
action.
    So I hope that you will help us out here. Move forward with 
this process. Now again, if the Deputy Secretary of Agriculture 
has a reason not to act, then I understand that. I'd like to 
know that reason.
    But to just say we're considering it, I think is not in the 
way our government is supposed to function.
    Mr. Holtrop. I assure you I will pass your concerns on. My 
understanding is members of the Department have met with 
members of your staff earlier this week. Follow up 
conversations, I'm sure, will happen. I'll make sure that I 
pass on your concern.
    Senator McCain. I thank you very much. I hope that we can 
get this done quickly. I appreciate it.
    Thank you, Mr. Chairman.
    Senator Wyden. Mr. Holtrop, why don't you keep me apprised 
of that as well in terms of the progress and the discussions 
with Senator McCain's folks?
    Mr. Holtrop. I'd be happy to do so.
    Senator Wyden. Ok. Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman. Thanks for 
holding this important hearing. I'd like to enter into the 
record a longer Statement, if I could on S. 721, the Alpine 
Lakes Wilderness Expansion bill.
    Senator Wyden. Without objection, so ordered.
    Senator Cantwell. Thank you. If I could also include I have 
many letters of support from businesses, conservation groups, 
religious groups, hunters, anglers, sportsmen. If we can 
include those in the record I'd appreciate it as well.
    Senator Wyden. Without objection, so ordered.
    Senator Cantwell. Thank you.
    Mr. Holtrop, I see from your testimony you support this 
expansion of the Alpine Wilderness Area. Obviously it's a very 
important and well visited area of our State, the designation 
that happened in 19, I think it was 76 has been a good 
investment for everyone. Obviously we'd like to see this 
expansion take place.
    You say you support it. I want to ask you about a couple of 
the concerns that you raised about the bill. One is about this 
DNR land. My understanding is DNR land can be part of a 
wilderness area. So I want you to help me understand that 
concern.
    Then some of the issues with the adjacency issue on the 
Middle Fork.
    Mr. Holtrop. Yes, thank you.
    The DNR land, it's--DNR land could be included within the 
wilderness boundary. The way the wilderness boundary is drawn, 
as I recall, reflecting on the maps, it appears to be drawn on 
a topographic feature in which just happens to include 330 
acres or something like in two different parcels of State land. 
The whole rest of the 22,000 acres or so, I believe is all 
National Forest system land or maybe a few private in holdings 
in one portion. We just thought that it would be less 
administratively difficult to make a very minor modification of 
the boundary to exclude the State lands from the wilderness 
boundary.
    Regarding the adjacency issue in the Middle Forks 
Snoqualmie, that's an issue of a mountain bike trail, a very 
popular mountain bike trail, which is outside the proposed 
wilderness. But the proposed wilderness goes right up to the 
mountain bike trail. The trail is located between what would 
then be the wilderness boundary in the Middle Forks Snoqualmie 
River.
    If there were any landslides, floods, anything that would 
require relocation of the mountain bike trail to allow it to 
continue as a mountain bike trail, we would like to have the 
opportunity to be able to move it further from the river by 
moving it upstream, by moving it above a little bit. So if we 
had the wilderness boundary offset from the existing trail 
boundary by a small margin it would allow us some more 
flexibility in the management of that mountain bike trail over 
time.
    Senator Cantwell. What are we talking about?
    Mr. Holtrop. A couple hundred feet.
    Senator Cantwell. So that seems to be a minor issue. What 
of DNR has no problem with inclusion of this? So if you're 
definitely talking about a boundary.
    Mr. Holtrop. Yes. We'd be happy to work with you and the 
DNR on that boundary issue.
    Senator Cantwell. Ok. So you're supportive of moving this 
bill?
    Mr. Holtrop. Yes we are.
    Senator Cantwell. Great. Thank you, Mr. Chairman.
    Senator Wyden. Thank you, Senator Cantwell.
    Senator Cantwell. I want to say my colleague, Senator 
Murray, has worked very hard on this legislation in a 
bipartisan fashion. She is the original sponsor of this. I'm 
happy to be a co-sponsor of it. But we're very proud of her 
work in this area.
    Senator Wyden. I know that Senator Murray has and kudos to 
her and you and all who put so much time into it.
    Any colleagues have any other questions they would like to 
ask of these witnesses? Senator Barrasso? Senator McCain? Other 
questions?
    Ok. Gentlemen, we'll excuse you at this time. Thank you.
    Mr. Stanton. Thank you.
    Senator Wyden. Let's go on to our next panel.
    Rusty Gregory, Chairman and CEO, Mammoth Mountain Ski 
Resort, Mammoth Lakes, California.
    Ryan Bidwell, Executive Director of Colorado Wild in 
Durango, Colorado.
    Bill Crapser, State Forestry, Wyoming State Forestry 
Division, Cheyenne, Wyoming.
    Cassandra Moseley, Ph.D., Director of the Ecosystem 
Workforce Program at the University of Oregon, Eugene, Oregon.
    While you're all getting seated, it's a pleasure to have a 
constituent and a friend, someone we admire greatly on this 
subcommittee here, Cassandra Moseley. Have been doing good work 
on sustainable approaches in natural resources for a lot of 
years. Dr. Moseley, we appreciate your coming.
    Let's start with Rusty Gregory, Chairman and CEO, Mammoth 
Mountain Ski Resort.
    Mr. Gregory.
    For all of you we'll make your prepared remarks part of the 
record and if you could take 5 minutes or so and summarize your 
big concerns that would be helpful.

 STATEMENT OF RUSTY GREGORY, CEO/PRESIDENT, MAMMOTH CHAIRMAN, 
       NATIONAL SKI AREAS ASSOCIATION, MAMMOTH LAKES, CA

    Mr. Gregory. My full comments have been submitted to the 
record. Thank you very much for the opportunity to testify 
today on behalf of the National Ski Areas Association. NSAA has 
121 member ski areas that operate on the National Forest System 
lands.
    These public land resorts are in the States of Arizona, 
California, where Mammoth Mountain is located, Colorado, Idaho, 
Montana, Nevada, New Hampshire, New Mexico, Oregon, Utah, 
Vermont, Washington, Wyoming. At the onset, NSAA would like to 
thank Senator Udall for his leadership on this bill and for 
being a champion of outdoor recreation. We'd also like to 
extend our regrets to Senator Murkowski regarding her ski 
mishap at Alyeska recently and her resulting knee surgery. 
She's a great skier. We know she won't hold that against us and 
our efforts in this bill.
    Public land ski areas work in partnership with the U.S. 
Forest Service to deliver an outdoor recreation experience 
unmatched in the world. Our partnership dating back to the 
1940s is a model public/private partnership that greatly 
benefits the American public. The recreation opportunities 
provided at public land resorts help benefit rural economies, 
improve the health and fitness of millions of Americans, get 
more kids out in the woods and promote appreciation for the 
national environment.
    Over the past 5 years we have averaged 57.8 million skiers 
and snowboarder visits annually and about 60 percent of those 
visits have occurred on ski resorts that are on public lands. 
Ski areas are the perfect place to accommodate large numbers of 
forest visitors. Make no mistake about it. Ski areas are 
developed sites.
    They inspire an appreciation for the natural environment. 
But they also represent a built environment. Ski areas already 
have parking lots, bathrooms, trails and other facilities to 
accommodate the significant numbers of summer visitors. 
Increasing use of developed ski areas will help Forest Service 
provide recreational opportunities in a controlled and already 
mitigated environment and alleviate the impacts elsewhere on 
forest lands.
    Some year round activities are not new to ski areas. 
Resorts across the country have offered summer activity for 
decades with scenic chair rides and gondola rides dating back 
as far as the early 1960s. These activities typically include 
mountain biking, scenic chair lift rides, as I said, hiking, 
zip lines, alpine slides, climbing walls, Frisbee golf and 
others. Many ski area permits reference year round or four 
seasoned resorts and Forest Service policy encourages the year 
round use of resort facilities. Even Congress recognized the 
four seasoned nature of resorts back in 1996 by including the 
term gross year round revenue in our fee system.
    So why are we here? The NSAA strongly supports Senate bill 
607, to create a national comprehensive approach to authorizing 
seasonal and year round recreational opportunities. In the 
110th Congress the Forest Service testified in support of the 
bill and Stated that further clarifications of the bill would 
be helpful.
    NSAA agrees that the Forest Service needs clarification on 
what summer activities should be deemed permissible at public 
land resorts and which should not. There does not seem to be 
much debate over some of the more traditional summer uses at 
ski areas. At issue here are the more modern recreation 
features and those that are likely to arise in the future.
    NSAA is in favor of providing the Forest Service more 
clarity in its decisionmaking and respectfully offers the 
following suggestions.
    First, existing, authorized summer and year round 
facilities or activities at public land resorts should be 
grandfathered in the bill. For example, authorization of alpine 
slides, zip lines, mountain bike parks, climbing walls and 
other amenities that have received previous Forest Service 
approval should not be changed or revoked as a result of this 
act.
    Second, the types of summer and year round facilities that 
should already have been authorized, that have already been 
authorized by the Forest Service on public lands should not be 
considered as prohibited. Authorization of summer or year round 
activities at resorts should be viewed as a two step process.
    The first step, determining of the class of activities or 
facilities should be prohibited outright or deemed permissible 
assuming that it is not prohibited.
    The second step is to determine the appropriateness of that 
activity or facility in a particular site specific location.
    To improve Forest Service decisionmaking the types of 
existing activities and facilities that have been approved by 
the agency should be deemed to pass this first hurdle. We would 
welcome a friendly amendment stating that existing activities 
and facilities are deemed to be in compliance with the 
provisions of Section Three, Paragraph (4)(c)(2) of the bill. 
Certainly these types of facilities need to undergo site 
specific approval, but resorts ought to have the opportunity to 
at least propose them to the Forest Service for site specific 
consideration and decisionmaking.
    Some good examples of these types of existing facilities 
are alpine slides and zip lines. Alpine slides exist in various 
parts of the country on public land. However with the exception 
of the Pacific Northwest, resorts in most ski States are not 
even allowed to submit a proposal for a new alpine slide.
    Although several zip lines exist at ski areas on public 
land that have been constructed in the last 2 years. Other 
locations across the country are not permitted to submit a 
proposal for one. More clarity for the agency should bring this 
inconsistency and arbitrariness to an end.
    To identify which summer or year round uses are existing as 
of the date of enactment, the Forest Service should conduct a 
brief survey, as there are only 121 resorts operating on Forest 
Service land. This task should not be difficult.
    Third, it would be helpful if the Forest Service--if the 
committee provided guidance on the attention of Paragraph 
(4)(c)(2) of the bill. While the development of the amusement 
parks on public lands should not be permitted under this bill, 
we feel strongly about that. At the same time a collection of 
recreation or amusement related features may be authorized, 
should be authorized. In many cases already have been under 
existing approval.
    For example amusement park features such as a Ferris wheel 
are not natural resource based and are clearly inappropriate. 
However a collection of features such as alpine slides, zip 
lines and climbing walls should not be considered an 
``amusement park'' for purposes of this bill. Moreover more 
alpine slides such as year round bobsleds or mountain alpine 
coasters that are substantially follow the contour of natural 
terrain may also be considered permissible. Photos of these 
activities have been provided to the committee.
    Again, my full remarks have been given to the record. I 
thank you very much for the time to speak today.
    [The prepared statement of Mr. Gregory follows:]

 Prepared Statement of Rusty Gregory, CEO/President, Mammoth Chairman, 
             Mammoth Mountain Ski Resort, Mammoth Lakes, CA
    Thank you for the opportunity to testify today on behalf of the 
National Ski Areas Association. NSAA has 121 member ski areas that 
operate on National Forest System lands. These public land resorts are 
in the States of Arizona, California (where Mammoth is located), 
Colorado, Idaho, Montana, Nevada, New Hampshire, New Mexico, Oregon, 
Utah, Vermont, Washington and Wyoming. Ten (10) members of the Senate 
Energy & Natural Resources Committee have public land ski areas in 
their State. At the outset, NSAA would like to thank Senator Udall for 
his leadership on this bill and for being a champion of outdoor 
recreation. NSAA supports S. 607 and is eager to work with all of you 
toward its passage.
Background
    Public land ski areas work in partnership with the US Forest 
Service to deliver an outdoor recreation experience unmatched in the 
world. Our longstanding partnership-dating back to the 1940s, is a 
model public-private partnership that greatly benefits the American 
public. The recreation opportunities provided at public land resorts 
help benefit rural economies, improve the health and fitness of 
millions of Americans, get more kids in the woods and promote 
appreciation for the natural environment. Over the past five years, we 
have averaged 57.8 million skier/snowboarder visits annually, and about 
60% of those visits occurred on public land.
    Ski areas are the perfect place to accommodate large numbers of 
forest visitors. Make no mistake about it--ski areas are developed 
sites. They inspire appreciation for the natural environment, but they 
also represent a built environment that is accessible and convenient 
for most people. Ski areas already have the parking lots, bathrooms, 
trails and other facilities to accommodate millions of summer visitors. 
Increasing use of developed ski areas will help the Forest Service 
provide recreation opportunities in a controlled and mitigated 
environment and alleviate the impacts elsewhere on the forests. This 
increased utilization will benefit the natural landscapes and assist 
the Forest Service in meeting its challenge of providing quality 
outdoor recreation.
Summer and Year-Round Activities
    Summer and year-round activities are not new to ski areas. Resorts 
across the country have offered summer activities for decades, with 
scenic chairlift rides dating back to the 1960s. These activities 
typically include mountain biking, scenic chairlift rides, hiking, 
ziplines, alpine slides, climbing walls, Frisbee golf and others. To 
date, the authorization of summer activities at public land resorts has 
occurred in a variety of ways. Many ski area special use permits 
reference ``year-round'' or ``four season'' resorts. Forest Service 
policy encourages the year-round use of resort facilities. Even 
Congress recognized the fourseason nature of resorts back in 1996 by 
including the term ``gross year-round revenue'' in our fee system (16 
USC 497c).
    So why are we here? NSAA strongly supports S. 607 to create a 
national comprehensive approach to growing seasonal and year-round 
recreational opportunities. Such an approach will provide for more 
consistent decision making and more accurately reflect what is now 
taking place at modern four season resorts. Specifically, S. 607 
clarifies the Forest Service's authority to permit appropriate seasonal 
or year-round recreational activities and facilities subject to ski 
area permits issued by the Secretary under Section 3 of the National 
Forest Ski Area Permit Act of 1986 (16 USC 497b). The bill is also an 
opportunity to update the language used to describe snowsports to 
better reflect the wide range of winter activities (including 
snowboarding, snow-biking, etc) taking place at modern ski areas. NSAA 
notes and appreciates the discretion and guidance the bill provides to 
the Secretary to make site-specific decisions on appropriate activities 
and facilities that are natural resource-based, outdoor, and harmonize 
with the natural environment at ski areas.
    In the 110th Congress, the Forest Service testified in support of 
the bill and Stated that further clarifications to the bill would 
assist the agency in its interpretation of the bill. NSAA agrees that 
the Forest Service needs clarification on what summer activities should 
be deemed permissible at public land resorts, and which should not. 
There does not seem to be much debate over some of the more traditional 
summer uses at ski areas. Hiking, chairlift rides, mountain biking, 
concerts and Frisbee golf have been approved at ski areas across the 
country without much fan fare. At issue here are the more modern 
recreation features and those that are likely to arise in the future. 
NSAA is in favor of providing the Forest Service more clarity in its 
decision making and respectfully offers the following suggestions.
    First, existing, authorized summer and year-round facilities or 
activities at public land resorts should be grandfathered in the bill. 
For example, authorization for alpine slides, zip lines, mountain bike 
parks, climbing walls and other amenities that have received Forest 
Service approval should not be changed or revoked as a result of this 
Act.
    Second, the types of summer and year-round facilities that have 
already been authorized by the Forest Service on public land should not 
be considered ``prohibited.'' Authorization of summer or year-round 
activities at resorts should be viewed as a two step process. The first 
step is determining if the class of activities or facilities should be 
prohibited outright or deemed permissible. Assuming that it is not 
prohibited, the second step is to determine the appropriateness of that 
activity or facility in a particular location. To improve future Forest 
Service decision making, the types of existing activities and 
facilities that have been approved by the agency should be deemed to 
pass this first hurdle. Another way of stating this is to say that 
existing activities and facilities are deemed to be in compliance with 
the provisions of Section 3, paragraph (4)(c)(2) of the bill. Certainly 
these types of facilities need to undergo site specific approval, but 
resorts ought to have the opportunity to at least propose them to the 
Forest Service for site-specific consideration. Some good examples of 
these types of existing facilities are alpine slides and ziplines. 
Alpine slides exist in various parts of the country on public land. 
However, with the exception of the Pacific Northwest, resorts in most 
ski States are not even allowed to submit a proposal for a new alpine 
slide. Although several ziplines exist at ski areas on public land and 
have been constructed in the past two years, other locations across the 
country are not permitted to submit a proposal for one. More clarity 
for the agency should bring this inconsistency and arbitrariness to an 
end. Again, these features need site specific review and analysis. 
However, as a class of facilities, they should not be considered 
prohibited in any part of the country.
    To identify which summer or year-round uses are existing as of the 
date of enactment, the Forest Service should conduct a brief survey. As 
there are only 121 resorts operating on Forest Service land, this task 
should not be difficult. The results of the survey should be submitted 
to the Senate Committee on Energy and Natural Resources and to the 
House Committee on Natural Resources within 180 days of enactment.
    Third, it would be helpful to the Forest Service if the Committee 
provided guidance on the intention of paragraph (4)(c)(2) of the bill. 
While the development of amusement parks on public lands should not be 
permitted under this bill, at the same time, a collection of recreation 
or amusement-related features may be authorized--and in many cases 
already have been under existing approvals. For example, amusement park 
features such as Ferris wheels are not natural resource-based and are 
not appropriate. However, a collection of features such as alpine 
slides, zip lines and climbing walls should not be considered an 
``amusement park'' for purposes of this bill. Moreover, more modern 
features such as year-round bob sled rides or mountain or alpine 
coasters that are gravity propelled and substantially follow the 
contour of the natural terrain may also be considered permissible. We 
have attached photos of these other summer and year-round activities 
for the Committee.
    Likewise, guidance to the Forest Service regarding water parks 
would be helpful. While the development of water parks on public lands 
should not be permissible, at the same time, a collection of recreation 
features or activities that may require or benefit from the use of 
water may be authorized under the bill--and in many cases already have 
been under existing approvals. A log flume may not be appropriate in 
the view of the Committee, but naturally appearing pools, water-related 
mountain bike features, or summer tubing operations that utilize water 
and substantially follow the contour of the natural terrain may be 
deemed permissible.
    Finally, we would welcome the removal of the ``primary purpose'' 
test from paragraph (4)(c)(3) of the bill. Removal of this provision 
will provide clarity to the agency, because there is already a revenue-
based test existing in the Code of Federal Regulations that is more 
objective than this proposed ``primary purpose'' test. Under existing 
Forest Service regulations (36 CFR Sec.  251.51), a ski area must 
derive the preponderance of its revenues from ``the sale of lift 
tickets and fees for ski rentals, for skiing instruction and trail 
passes for the use of permittee-maintained ski trails.'' This existing 
revenue-based test is more objective and is less likely to invite 
litigation over ski area summer proposals than the proposed ``primary 
purpose'' test.
    Thank you for considering our comments.

    Senator Wyden. Thank you.
    Let's go right to Mr. Crapser.

   STATEMENT OF BILL CRAPSER, STATE FORESTER, WYOMING STATE 
                FORESTRY DIVISION, CHEYENNE, WY

    Mr. Crapser. Thank you, Mr. Chairman, Senators. My name is 
Bill Crapser. I'm the State Forester from Wyoming. I'd like to 
speak with you today supporting S. 1122, the Good Neighbor 
Forestry Act.
    Given the nature of some of the concerns I've heard you ask 
the first panel, I'd like to start off by saying I'm a 
forester, pretty much practical minded, dirt forester. I'm not 
an employment lawyer or a labor specialist. So if I don't 
clearly answer some questions it's because I'd be outside of my 
range and my expertise.
    Wyoming has approximate--is like several other States in 
the West. We have approximately 11 and a half million acres of 
forest land. Nine million of those acres are owned by the 
Federal Government. Two and a half million are either State or 
private ownership.
    In the State with only 11 and a half million acres of 
forest we currently have 2 million of those acres that are 
directly impacted by either mountain pine beetles, spruce bark 
beetle or Douglas fir beetle. At the same time we've seen a 
huge increase in the number of people in homes in the wild land 
urban interface throughout the State. Currently Wyoming has 260 
communities at risk of wildfire. To deal with these and other 
issues that exist in these intermingled ownerships local, State 
and Federal managers need to develop ways to work in a cross 
boundary approach when carrying out fuels mitigation, forest 
health and restoration projects in our forests.
    I believe the passage of S. 1122 will provide an important 
tool for the Federal and State agencies to utilize in meeting 
these management needs. Let me use fuel mitigation in the 
interface as an example. Much of the land in the Western United 
States is intermingled ownership patterns with the development 
of community wildfire protection plans communities have been 
able to identify areas where fuels treatment is of high 
priority to them.
    Local and State efforts have focused in these areas as have 
Forest Service and BLM efforts on their side of the line. 
However, I believe that with Good Neighbor authority these 
efforts could be better coordinated and projects could be 
carried out much more efficiently. This would allow for 
leveraging of limited resources to complete the most and 
highest priority work. In simple terms it would allow us to 
receive the biggest bang for the taxpayers buck.
    The concept of Good Neighbor authority, cross boundary work 
is not new. Colorado and Utah have had the authority for 
several years under a pilot project. From conversations with my 
colleagues in those States, have seen good results in carrying 
out fuels, trail, burning, watershed and in Colorado even a 
timber sale project. I think that this success and cooperation 
should be expanded to States across the Western United States.
    From a State Forester's perspective let me take a few 
moments to talk about what Good Neighbor authority is and what 
it is not. To me, quite simply, it's a tool to be used when 
appropriate, to achieve the most important work on both sides 
of the property line in the most efficient and cost effective 
way possible. It's not a ploy by State Foresters to take over 
the management of the National Forest.
    The Federal agency is still responsible for all NEPA 
compliance with their plans and for paying for the project. 
Good Neighbor authority will provide a tool to perform work on 
Federal lands that is mutually beneficial to Federal land 
managers, communities and the State. In my mind, this would 
include watershed work, WUI or wild and urban interface work, 
right of ways and other types of projects.
    It's not a way to avoid Federal employment laws or 
regulations. From my conversations with Colorado projects 
carried out under their agreement, each project, has its own 
task order. Individual task order is very clear which Federal 
regulations apply to this type of project. The State complies 
with those regulations and the administration of the project. 
As with most grants and agreements between the Federal agencies 
and the States, the State is required to sign what's called a 
standard form 24B assurances. This document clearly sets out 
the expectations the State is required to meet.
    In closing let me reiterate. Most of my colleagues in the 
West and I support the implementation of Good Neighbor 
authority because we truly feel that it will increase the 
cooperation on the ground between local, State and Federal land 
management agencies. It will allow us to be better stewards of 
the natural resources that we are charged to protect and manage 
while at the same time put or most efficiently use the 
taxpayer's dollars on the ground where they can do the most 
good.
    Thank you.
    [The prepared Statement of Mr. Crapser follows:]

   Statement of Bill Crasper, State Forester, Wyoming State Forestry 
                   Division, Cheyenne, WY, on S. 1122
    Mr. Chairman, Senators good afternoon, my name is Bill Crapser, I 
am the State Forester of Wyoming, and would like to speak with you 
today supporting S.1122, ``The Good Neighbor Forestry Act''.
    Wyoming like many western States is a diverse and special place 
made up of prairies, foothills, mountains, and lakes. People from all 
over the world come to Wyoming to enjoy our treasures from Yellowstone, 
to Devils Tower, to The Flaming Gorge. Much of the western United 
States water supply originates in our mountains. As you know Wyoming is 
also a major producer of energy for the nation.
    Wyoming has approximately 11.5 million acres of forest land within 
it's' borders.

  <bullet> 9.0 million acres of federal lands

    --6 million acres US Forest Service
    --1.3 million acres BLM
    --1.7 million acres NPS

  <bullet> 2.0 million acres of Private lands
  <bullet> 0.50 million acres of State Lands

    In the State we currently have over 2 million acres of these 
forests lands that have been impacted by the Mountain Pine Beetle, the 
Spruce Beetle, or the Doug Fir Beetle.
    At the same time we have seen a huge increase in the number of 
people and homes in the Wildland interface throughout the State. 
Currently Wyoming has 260 communities at risk from wildfire.
    To deal with these and other issues that exist in the intermingled 
ownerships, local, State, and federal managers need to develop ways to 
work in a `cross-boundary' approach when carrying out fuels mitigation, 
forest health, and restoration projects in our forests.
    I believe that passage of S.1122 will provide an important tool for 
the Federal and State agencies to utilize in meeting these management 
needs.
    Let me use fuels mitigation in the interface as an example. Much of 
the land in the western United States is in intermingled ownership 
patterns. With the development of CWPPs, communities have been able to 
identify areas where fuels treatment work is of high priority them. 
Local and State efforts have focused in these areas, as have Forest 
Service and BLM efforts on their side of the line. However, I believe 
that with the GNA these efforts could be better coordinated and 
projects carried out much more efficiently. This would allow for the 
leveraging of limited resources, to complete the most and highest 
priority work. In simple terms, it would allow us to receive the 
biggest bang with the taxpayers buck.
    The concept of Good Neighbor, cross boundary work is not new. 
Colorado and Utah have had the authority for several years under a 
pilot project, and from conversations with my colleagues in those 
State, have seen good results in carrying out fuels, trail, burning, 
watershed, and in Colorado even timber sale projects. I think that this 
success and cooperation should be expanded to States across the western 
US.
    From a State Foresters perspective let me take a few moments to 
talk about what GNA is and what it is not.

  <bullet> To me quite simply it is a tool to be used when appropriate 
        to achieve important work on both sides of a property line in 
        the most efficient and cost-effective way possible.
  <bullet> It is not a ploy by State Foresters to take over the 
        management of the national forests. The federal agency is still 
        responsible for all NEPA, compliance with their plans, and for 
        paying for the project.
  <bullet> GNA will provide a tool to perform work on Federal lands 
        that is mutually beneficial to the federal land managers, the 
        communities, and the State. In my mind this would include 
        watershed, WUI, right-a-way, and other types of projects.
  <bullet> It is not a way to avoid federal employment laws or 
        regulations. From my conversations with Colorado, each project 
        carried out under the agreement, has its' own task order. The 
        individual Task Order is very clear which federal regulations 
        apply to the project, and the State complies with those 
        regulations in the administration of the project. As with most 
        grants and agreements between federal agencies and States, the 
        State is required to sign a Standard Form 424B ``Assurances''. 
        This document clearly sets out the expectations the State is 
        required to meet.

    In closing let me reiterate, Most my colleagues in the west and I 
support the implementation of Good neighbor authority, because we truly 
feel that it will increase the cooperation on the ground between local, 
State, and federal land management agencies, and will allow us to be 
better stewards of the natural resources we are charged to protect and 
manage, while at the time allow us to most effectively put the tax 
payers dollars on the ground where they can do the most good.

    Senator Wyden. Thank you very much.
    Mr. Bidwell.

  STATEMENT OF RYAN D. BIDWELL, EXECUTIVE DIRECTOR, COLORADO 
                       WILD, DURANGO, CO

    Mr. Bidwell. Thank you, Mr. Chairman and members of the 
subcommittee for the opportunity to testify today on the Ski 
Area Recreational Opportunity Enhancement Act, S. 607. My name 
is Ryan Bidwell. I'm the Executive Director of Colorado Wild. 
I'm presenting my testimony today on behalf of my own 
organization as well as the Wilderness Society, the Natural 
Resources Defense Council, Colorado Mountain Club, Wild Earth 
Guardians, Save Our Canyons, See our Nevada Alliance, Greater 
Yellowstone Coalition and Oregon Wild.
    National Forests play an invaluable role in providing 
healthy and engaging outdoor opportunities for the American 
public. We support amending the Ski Area Permit Act of 1986 to 
address its outdated elements as well as to authorize year 
round, appropriate types of recreation at ski areas. National 
Forest ski areas can and should continue to provide 
opportunities for the healthy, natural resource dependent 
recreation that is increasingly unavailable on private lands or 
non-forested settings such as urban areas.
    As introduced however, S. 607 could authorize virtually any 
type of recreational activity within ski area permit boundaries 
and could result in a dramatic shift away from the outdoor 
oriented, natural resource dependent recreation that National 
Forests currently provide. In other words it leaves the door 
open to inappropriate, urbanized recreation like water parks or 
amusement parks that are unrelated to and degrade the 
experience for users of a natural National Forest environment. 
Make no mistake this concern is not unfounded.
    Vail Mountain and Las Vegas ski and snowboard resort have 
each proposed large, permanently constructed downhill roller 
coasters. Were S. 607 to instead provide clear direction to the 
Forest Service on the nature of activities to be permitted we 
believe it would end the uncertainty and inconsistent land 
management that has, at least in part, contributed to the need 
for amending this law. In terms of strategy we believe amending 
S. 607 to clarify the characteristics of recreational 
activities and facilities that should be permitted is 
preferable to developing a list of prohibited activities as we 
believe, will better stand the test of time as new recreational 
pursuits emerge in the future.
    We also believe it is important to concentrate new 
facilities in already developed areas. Some ski areas, as you 
may know, have very large permit areas that extent well out 
beyond the existing lifts, trails and other infrastructure. 
These areas include vital habitat for threatened and endangered 
species, sources of clean drinking water, prime areas for 
hunting, fishing and other outdoor pursuits and some of our 
most beautiful scenic areas.
    For example, Vail Mountain's permit area includes nearly 
six square miles of undeveloped forest that's well out and 
beyond the existing trails and infrastructure. The situation is 
similar at many other resorts. S. 607 provides no guidance to 
the Forest Service as to where year round recreational 
facilities should occur potentially threatening large acreages 
of pristine National Forest with easily avoidable and 
unnecessary impacts. This issue can be remedied by 
concentrating new recreational facilities in the areas already 
modified by trails, lifts and other developments.
    We also believe that any amendments to the act should not 
create an uneven playing field for other recreational 
providers. S. 607 allows 40-year, non-competitive permits for 
ski companies to operate year round activities while special 
use permits for other outfitters are generally available only 
through a competitive process for 1, 5 or 10-year intervals. In 
the interest of fairness we believe non-skiing, recreational 
activities permitted for ski companies should be held to the 
same standards as other permitees.
    In closing we support amending S. 607 to clarify the 
characteristics of recreational activities and facilities that 
may be authorized to concentrate new facility construction in 
appropriate areas and to level the playing field for other 
recreational businesses. We are willing and interested in 
working with the committee to achieve a Ski Area Permit Act 
that ensures year round recreation at ski areas encourages 
healthy, natural, outdoor dependent exploration and discovery 
of the public's National Forests in a manner that's fair, 
sustainable and consistent nationwide. Thank you for the 
opportunity to address the subcommittee.
    [The prepared statement of Mr. Bidwell follows:]

Prepared Statement of Ryan Bidwell, Executive Director, Colorado Wild, 
                              Durango, CO
                                 s. 607
Introduction
    Thank you Mr. Chairman, and members of the subcommittee, for this 
opportunity to testify today. My name is Ryan Bidwell and I am the 
Executive Director of Colorado Wild, a membership-based conservation 
organization based in Durango, Colorado. I am also the chairperson of 
the Ski Area Citizens Coalition, a broad group of more than 25 local, 
regional and national organizations that annually research and publish 
the Ski Area Environmental Scorecard which evaluates more than 80 ski 
resorts across the West on their environmental stewardship practices. 
It is as an avid skier and conservationist that I make my remarks today 
on the Ski Area Recreational Opportunity Enhancement Act, S. 607.
    I am presenting my testimony today on behalf of Colorado Wild and 
it members, but also on behalf of The Wilderness Society, Natural 
Resources Defense Council, Colorado Mountain Club, WildEarth Guardians, 
Save Our Canyons, Sierra Nevada Alliance, Greater Yellowstone 
Coalition, and Oregon Wild. We appreciate the opportunity to share our 
perspectives on S.607 at this hearing. Our organizations, representing 
more than 1.8 million members and activists nationwide, are committed 
to the fair and sustainable management of our public lands. We have 
also been working with Senator Udall and other members of the Colorado 
delegation on various iterations of this bill for several years and 
have previously submitted suggestions for minor amendments to the bill 
that would permit our organizations to support this legislation.
    Our National Forests play an invaluable role in providing healthy 
and engaging outdoor opportunities for the American public. Whether 
it's just a family hike on a trail, or an activity taking place under 
the auspices of a special use permit issued to a third party, public 
lands can and should provide appropriate and well-managed recreational 
opportunities without degrading the resources upon which those 
activities depend.
    In light of this general principle, my testimony today aims to 
communicate five points:

          1. Our organizations support amending the Ski Area Permit Act 
        of 1986 to address its outdated elements, and to facilitate 
        appropriate year-round recreation at ski areas;
          2. As introduced, the proposed amendments could authorize 
        virtually any type of recreation activity or facility within 
        ski area permit boundaries, and result in a dramatic shift away 
        from the outdoors-oriented, natural resource-dependent 
        recreation that National Forests should provide;
          3. S. 607 could open large acreages of pristine, undisturbed 
        National Forest land with important natural values to 
        unnecessary and inappropriate impacts;
          4. S. 607 may provide an unfair competitive advantage to ski 
        area permit holders over other National Forest permittees and 
        local businesses;
          5. Overly broad amendments to the Ski Area Permit Act would 
        perpetuate the same uncertainty and inconsistent land 
        management policies that have led to the desire to amend the 
        current law.

    Accordingly, we support amending S.607 to clarify the types of 
recreational activities and facilities that may be authorized, 
concentrate new facility construction in appropriate areas, and to 
level the playing field for other recreational businesses. We believe 
only minor amendments would be required in order to permit our 
organizations to support this legislation.
Background
    Approximately 125 of America's privately-operated ski resorts are 
located on federal land, with all but one of those managed by the U.S. 
Forest Service (the other is on land managed by the Bureau of Land 
Management). These ski areas operate under special use permits issued 
by the agency for up to 40 years. Roughly half of the approximately 60 
million skier visits that occur in the U.S. each winter occur at ski 
areas located on National Forest lands. While many of these ski areas 
have a long history, the special use permits governing their operation 
on public land were inconsistent and somewhat haphazard until passage 
of the Ski Area Permit Act in 1986. National Forest Ski Areas are now 
subject to renewable 40-year special use permits, a consistent fee 
system, and a special set of regulations governing their management.
    Despite some standardization provided by the 1986 Act, ski area 
permits remain highly variable in certain respects, largely as a result 
of historical factors and the discretion of local Forest Service 
officials. Most notably, ski permit areas vary dramatically in size. 
Some ski areas have large acreages included in their permit that extend 
far beyond existing developed ski runs. For example, the largest ski 
area in the U.S. is Vail Mountain in Colorado with a permit area 
encompassing 12,590 acres, only 8,850 of which are within the existing 
ski area footprint (5,290 of which are developed for skiing). In other 
words, there are 3,740 acres-nearly 6 square miles-of undeveloped 
forest within Vail's permit area. The situation is similar at many ski 
resorts located on National Forest lands.
    While ski lifts and lodges extend into the backcountry, the nature 
and seasonal aspect of snowsports limit their impacts on natural values 
in some important respects. Lands within ski area permits often see 
very little human visitation or disturbance during spring, summer and 
autumn. Therefore, without appropriate guidelines, summer recreation 
facilities that import amusement park features into these settings 
could greatly aggravate the impacts on sensitive lands.
    Lands within ski area permits are not just meant for skiing. They 
are havens for wildlife and include vital habitat for threatened and 
endangered species. These lands are also the source of clean drinking 
water for many Americans, prime areas for hunting, fishing and other 
outdoor activities, and include some of our most beautiful scenic areas 
and opportunities for solitude. Some lands within ski area permits are 
so wild they are included in National Forest Roadless Areas and are 
protected by applicable rules and regulations. For all these reasons, 
unregulated expansion of year-round recreational impacts into the 
backcountry portions of ski area permit areas could greatly increase 
the environmental impact of ski resorts on public lands.
National Forests Provide a Unique, Healthy and Natural Recreation 
        Experience
    With this background in mind, let me describe the kind of unique, 
healthy, and natural recreation experience our National Forest ski 
areas currently provide-the experience we should strive to preserve. As 
communities adjacent to ski areas have become more and more intensely 
developed and urbanized, ski areas on public lands continue to provide 
a breath of fresh air and a natural respite. While in town there may be 
hotels and discos and traffic, National Forests where ski areas are 
located allow individuals to escape into the trees and play year-round 
in the kind of natural environment that is increasingly scarce in our 
modern world.
    Therefore, while we agree that it is reasonable and even desirable 
for ski areas to provide year-round recreational opportunities, we 
believe it is of fundamental importance that any amendments to the Ski 
Area Permit Act preserve our National Forests' uniquely natural 
recreation experience and sustain the mountain environments in which 
these activities occur. Because S. 607 lacks clear guidance to the 
Forest Service on how these values are to be preserved, we are 
concerned that S. 607 will create more uncertainty and problems than it 
aims to solve.
Permitted Activities and Facilities Should be Limited to Appropriate 
        Uses of Public Land
    National Forest ski areas should continue to contrast with 
urbanization and provide opportunities for the healthy, natural 
resource-dependent recreation that is increasingly unavailable in other 
settings.

  <bullet> We support skiing and other snowsports on public lands as 
        traditional natural resource dependent outdoor recreation, and 
        as important economic drivers for our States and mountain 
        communities;
  <bullet> We also support recreation other than snowsports on public 
        lands within ski area permit boundaries during spring, summer 
        and autumn, but it is essential that we preserve our public 
        lands' natural beauty while providing year-round recreational 
        opportunities at ski areas;
  <bullet> National Forests, including ski areas, should continue to 
        offer recreation opportunities not available elsewhere, 
        emphasizing non-urbanized, natural resource dependent 
        recreational experiences.

    As currently drafted, S.607 lacks clear guidelines for the types of 
summer and year-round recreational activities and facilities that could 
be permitted at National Forest ski areas. Because they are already 
developed and accessible, ski areas are unquestionably logical 
locations to concentrate year-round recreational activities that are 
customary on public lands, like mountain bike trails, hiking and 
picnicking areas, and wildlife viewing areas. However, as currently 
drafted, S.607 leaves the door open to inappropriate, urbanized 
recreation like roller coasters and water parks that are unrelated to 
and degrade the user experience of natural National Forest lands. As 
identified in current Forest Service policies, recreation at ski areas 
should continue to be dependent on the natural setting, and provide 
recreational opportunities that are generally not available on private 
lands or in non-forested settings such as urban areas.
    Make no mistake, this concern is not unfounded. Vail Mountain in my 
home State of Colorado has recently proposed a large, permanent, roller 
coaster that would descend the ski mountain. Las Vegas Ski and 
Snowboard Resort is proposing a suite of permanent developments 
including a concert amphitheater and its own roller coaster. These 
examples would clearly be just the tip of the iceberg if responsible 
guidelines on the construction of recreation facilities are not 
included in any legislation.
    We agree with the National Ski Areas Association that ski areas are 
great locations to get kids into the woods and exposed to public lands. 
In fact it was at Loon Mountain on the White Mountain National Forest 
in New Hampshire that I learned to ski and first visited National 
Forest lands. Yet the learning opportunity and the chance to promote 
healthy and active lifestyles for our nation's youth will be lost if 
visitors find the same types of recreational facilities in the 
mountains that they left behind at home in their city or suburb.
    We believe the best strategy for ensuring that inappropriate 
facilities are not constructed within ski area permits is to amend S. 
607 with additional language to clarify the characteristics of 
recreational activities and facilities that are to be permitted. We 
believe this strategy is preferable to developing a list of prohibited 
activities because it will better stand the test of time as new 
recreational pursuits emerge in the future.
Facilities Should be Concentrated in Already Developed Areas
    In addition to the acreage already developed with ski runs and 
lifts, many ski area permits go beyond these lands and cover large, 
entirely undeveloped National Forest areas that offer important 
wildlife habitat and wildlife migration corridors, backcountry 
recreation, and scenic viewsheds. As I mentioned, nearly 6 square miles 
of undeveloped land fall within Vail Mountain's ski area permit. 
Similarly 2,400 acres within Loveland Ski Area's permit in Colorado 
overlaps with undeveloped inventoried roadless National Forest land.
    S.607 provides no guidance to the Forest Service as to where year-
round recreational facilities should occur, potentially threatening 
large acreages of pristine, undisturbed National Forest land with 
inappropriate impacts. For those activities that are not readily 
provided on private lands, we recommend concentrating any new 
recreational facilities in the areas already modified by trail, lift, 
lodge, and other developments in order to reduce the adverse effects of 
these installations.
The Amendments Should Not Create an Uneven Playing Field
    Ski areas are not the only permit holders on National Forest land 
that provide recreational opportunities for the public. Yet, as 
introduced, S.607 could provide a significant competitive advantage to 
ski areas over other National Forest special use permit holders and 
local businesses in mountain communities.
    S.607 would allow 40-year non-competitive permits for ski companies 
to operate non-skiing activities within ski area permits. In contrast, 
special use permits for other outfitters and guides that provide 
outdoor recreation programs on public lands--often very small 
businesses completely dependent upon this source of income--are 
generally available through a competitive process for only 1, 5, or 10 
year time frames. While the significant costs of ski lifts, snowmaking 
and other infrastructure investments at ski areas justifies the longer 
permit time frame for winter ski facilities, those same financial 
circumstances do not apply to the year-round, non-skiing uses 
contemplated here. In the interest of fairness, non-skiing recreational 
activities permitted for ski companies should be held to the same 
standards as other permittees.
    S.607 could give also ski companies a competitive advantage 
compared to other existing recreational providers that are in town and 
lack access to public lands. Existing local business and communities 
that provide year-round facilities such as rock climbing walls and 
mountain bike skills courses could be undercut by ski companies that, 
if permitted for these same activities, have access to vast acreages of 
public land. Accordingly, we believe that it is important that the 
economic implications of S.607 to existing business owners be more 
thoroughly understood and considered.
The Amendments Must Foster Clear and Consistent National Forest 
        Management
    One of the reasons for this bill is the current unpredictable 
interpretation and inconsistent management regarding year-round 
recreational activities at National Forest ski areas. The current lack 
of guidance on what activities are permitted has resulted in 
significant problems for the Forest Service. Without proper guidance, 
determinations regarding allowable facilities and activities have been 
largely left to the discretion of Forest Service line officers. The 
result has been wildly inconsistent determinations that result in 
industry frustration and resentment when one ski area is permitted to 
undertake an activity that another was denied, or when there is 
inequity between a ski company and a small guiding company. For 
example, alpine slides have been constructed at Winter Park in Colorado 
and Mt. Hood Ski Bowl in Oregon, while other resorts' requests to 
install these temporary structures have been denied.
    As currently drafted, S.607 does not solve this problem. We believe 
the subcommittee should clarify the guidance language in the 
amendments, and we are ready to help with that process. With the proper 
drafting, we can achieve a Ski Area Permit Act that ensures year-round 
recreation at ski areas encourages healthy, natural, outdoor-dependent 
exploration and discovery of the public's National Forests in a manner 
that is fair, sustainable, and consistent nationwide.
    Thank you for considering these remarks and for the opportunity to 
address the subcommittee.

    Senator Wyden. Thank you, Mr. Bidwell. We'll have some 
questions for you and everybody in a moment. But we've got Dr. 
Moseley. This U of O grad is always glad to have you come from 
campus and have certainly won the respect of a lot of folks 
across the political spectrum on these issues.
    So Dr. Moseley, welcome. You go ahead with your testimony.

  STATEMENT OF CASSANDRA MOSELEY, PH.D., ECOSYSTEM WORKFORCE 
PROGRAM, INSTITUTE FOR A SUSTAINABLE ENVIRONMENT, UNIVERSITY OF 
                       OREGON, EUGENE, OR

    Mr. Moseley. Thank you, chairman and ranking members, 
members of the committee. Thank you for the opportunity to 
speak with you today about the proposed Good Neighbor Forestry 
Act.
    Restoring our Nation's forests and grasslands, we all know, 
is complicated and challenging and success requires evolving 
our laws, policies and practices. The Good Neighbor Act is a 
bill that would allow Western State Foresters to act as agents 
of the Forest Service and BLM in procuring services and selling 
timber on public lands. This bill allows State Foresters to use 
State contracting provisions to implement these projects.
    The bill is addressing one critical issue of restoration, 
working in cross multiple landscapes, multiple land ownerships. 
But I think we need to consider a number of different 
dimensions of restoration. So, I want to talk about two of 
those today.
    One is the need to create high quality green jobs and small 
business opportunities doing these restoration activities 
particularly in rural communities near where these lands are 
located.
    The second is that we need to ensure that the Federal 
Government can meet its obligations to perform inherently 
governmental functions and to adequately oversee its agreements 
and contracts.
    So let me provide a few examples of areas where we could 
make some improvements in this bill. The success of rural job 
creation really requires that rural firms have access to 
business opportunities and that workers have good quality jobs. 
By good quality jobs, I mean jobs that are free of exploitation 
and that could help support their families.
    One of the challenges of shifting to State led service 
contracts is that these contracts would no longer necessarily 
be satisfied for small businesses. Because not all States have 
small business set aside programs. This is particularly 
important in creating rural green jobs because rural businesses 
are almost always small businesses.
    In the area of job quality and worker production the 
Federal Government has numerous laws and policies to protect 
Federal contract workers. However, not all States have 
contracting specific laws and policies. Some States have weak 
enforcement.
    This, as Senator Bingaman suggested earlier, I think this 
shift away from Federal protection and oversight is problematic 
in the area of hazardous fuels reduction where workers often 
face exploitive conditions. This committee has held hearings 
and there's also been hearings in the House on this very issue. 
I think shifting this to State led procurement could undo some 
of the hard work that the Forest Service and the Department of 
Labor has done to undertake to increase oversight and 
enforcement in a number of labor laws on National Forest lands.
    But in addition to worker and small business protections it 
is also critical that this bill provide mechanisms to ensure 
that the Federal Government can protect Federal interest in 
contracting. For example, in this bill there's an exemption of 
the National Forest Management Act that allows contractors to 
choose trees for harvest based on agency prescription. This is 
a very important tool for doing high quality restoration work 
efficiently.
    This is, in the stewardship contracting contest we've been 
calling this designation by prescription. So there is this 
similar provision in stewardship contracting. But this 
provision comes with some risks because it allows for a 
contractor that has financial interest in the timber to choose 
the trees. So this provision needs to be coupled with a 
requirement for best value contracting as it is in stewardship 
contracting so that the government can choose contractors that 
it is confident has the skills and integrity to make these 
selections and to create consequences for contractors who do 
not perform appropriately.
    So how can we address some of these shortcomings? Let me 
suggest a few things.
    First of all the agencies could be using stewardship 
contracting authority to enter into agreements with States. 
Stewardship contracting allows for agreements with public 
entities. It allows for designation by description. It requires 
best value contracting. As it has been implemented the Forest 
Service has also required collaboration which serves as an 
additional check and has created agreement templates that 
include provisions for subcontracting timber sale and service 
activities.
    In going forward with this bill I would suggest that we may 
want to think about the key--that requiring States to follow 
key Federal contracting provisions for both timber sales and 
service contracts rather than simply using State procedures. 
The requirement of payment of service contract back wages, 
small business set asides and prohibition of the contracting of 
contract labor might be three of these kinds of authorities. As 
I've suggested I think this bill should include best 
requirement for best value contracting on both the timber sale 
side and the service side to ensure a focus on high quality 
restoration work. I think to create the efficiencies that we've 
heard about today this bill should require that the State 
Foresters contract for work on non Federal lands at the same 
time that it contracts for work on Federal lands.
    So in closing let me step back a bit and suggest that the 
Forest Service and the BLM have collaboration and partnerships 
have become increasingly important for these 2 agencies. That 
it is critical for the BLM and particularly for the National 
Forest system that it has a set of agreement authorities that 
allows them to work together with a broad array of governmental 
and nongovernmental organizations. These authorities need to 
attend to the multiple objectives we have in the restoration of 
public lands.
    Part of what makes restoration so challenging is that we 
are doing this work, this new work of restoration with old 
management tools. We've been making some progress. I'm 
confident that we can craft solutions that create multiple 
ecological, economic and social benefits for public lands, 
rural communities and the Nation. Thank you.
    [The prepared statement of Ms. Moseley follows:]

  Prepared Statement of Cassandra Moseley, Ph.D., Ecosystem Workforce 
Program, Institute for a Sustainable Environment University of Oregon, 
                               on S. 1122
    Mr. Chairman and Members of the Committee:
    Thank you for the opportunity to speak before you today about the 
proposed Good Neighbor Forestry Act. I would like to address my 
comments to issues of how the public land management agencies can 
increase coordination with States, landowners, and stakeholders to work 
across ownerships to restore forests, range, and watersheds, and create 
rural green jobs through such legislation.
    I direct the Ecosystem Workforce Program in the Institute for a 
Sustainable Environment at the University of Oregon. Founded in 1994, 
the Ecosystem Workforce Program seeks to build ecological health, 
economic vitality, and democratic governance in rural forest 
communities in the American West. The Ecosystem Workforce Program 
supports these interconnected issues with applied research and policy 
education related to rural forestry communities and federal forest 
management. I am an active participant in the Rural Voices for 
Conservation Coalition, where I chair its Contracting Working Group. 
Over the past eight years, I have undertaken a number of studies about 
the rural community benefits of Forest Service and Bureau of Land 
Management (BLM) restoration contracting, the working conditions of 
Federal contract forest workers, and the use of stewardship 
contracting.
Context and Goals
    We have significant work to do to restore the ecological function 
and resilience of our nation's forests and grasslands in the face of 
climate change, increasing wildfire, and land degradation. We depend on 
these lands to: sustain biodiversity; provide ecosystem services such 
as clean air, water, and carbon storage; as well as supply us with 
wood, bioenergy, and food. The restoration and maintenance of these 
lands can and do create jobs and economic opportunities in rural 
communities, and are an integral part of a healthy national economy.
    In the West, we face a complex mixture of federal, private 
industrial, family, and State landownership, each with their own set of 
priorities and legal obligations. Yet, restoring ecosystem function and 
reducing wildfire risk requires working across land ownerships because 
fire, water, insects, endangered species, and wildlife readily move 
across these boundaries. Federal and State agencies have multiple roles 
in these efforts because they provide land management, fire protection, 
and technical assistance. Some State foresters also regulate private 
forests. State foresters play a particularly important role in 
providing technical assistance and multi-landowner coordination for 
hazardous fuels reduction and other restoration activities on private 
lands.
    Over the past decade, we have made considerable progress in 
improving coordination and increasing collaboration among landowners 
and stakeholders. This increased coordination has occurred with 
congressional authority (such as the Wyden Amendment and stewardship 
contracting); Federal, State, and local government engagement (such as 
through the National Fire Plan and Community Wildfire Protection 
Plans); and the rise of local and regional collaborative groups. 
Increasing coordination has been, and will continue to be, an 
incremental process that requires numerous changes in authority, 
procedure, understanding, and habit.
    At the same time that we have been working to increase 
collaboration and coordination, there also has been a dramatic rise in 
Federal use of contracts and agreements to do the work of the Federal 
government. This rapid expansion had led to a growing concern that the 
Federal government may be contracting out inherently governmental 
functions and is not always providing adequate oversight for the 
protection of workers and the effective use of taxpayer dollars.\1\
---------------------------------------------------------------------------
    \1\ Barak Obama, Memorandum for the Heads of Executive Departments 
and Agencies, March 4, 2009; Hearing of the U.S. Senate Energy and 
Natural Resource Committee, subcommittee on Public Lands and Forests 
regarding forest workers on public lands, March 1, 2006; and Government 
Accountability Office, Better Planning Guidance, and Data Are Needed to 
Improve Management of the Competitive Sourcing Program, GAO-18-195, 
January 2008. In addition, the appropriations bills for Interior and 
Related Agencies over the past several years have prohibited Forest 
Service engagement in competitive sourcing.
---------------------------------------------------------------------------
    Given this complex ecological, economic, and administrative 
context, effective legislation would:

  <bullet> Focus on comprehensive forest, range, and watershed 
        restoration;
  <bullet> Increase coordination among a diversity of governmental and 
        nongovernmental stakeholders to maximize the effectiveness of 
        these activities;
  <bullet> Insure that the Federal government can meet its obligations 
        to perform inherently governmental functions in house and to 
        adequately oversee its agreements and contracts; and
  <bullet> Create high quality green jobs and small business 
        opportunities performing these restoration activities, 
        especially in rural areas where these lands are located.
Bill Analysis
    Senate Bill S. 1122 seeks to increase the ability of the Forest 
Service and BLM to coordinate forest, range, and watershed restoration 
efforts across land ownerships. It would do so by allowing the two 
agencies to enter into agreements with State foresters. Under these 
agreements, State foresters could use Federal funds to sell timber and 
enter into service contracts on national forests and BLM lands in the 
west of the 100th Meridian. S. 1122 would allow State law to govern the 
development, execution, and oversight of the contracts that the State 
foresters award. In doing so, S. 1122 would not require the application 
of Federal service contracting, timber sale, or worker protections laws 
or policies that typically apply on public lands. In addition, S. 1122 
explicitly allows State foresters and the timber sale purchasers to 
mark timber for harvest.
    Conceptually similar to the Good Neighbor Authority for 
Colorado,\2\ S. 1122 takes a broader approach. S. 1122 would expand the 
authority to include all States west of the 100th Meridian where there 
is BLM or national forest lands, whereas the original law only included 
Colorado and later was expanded to include Utah. The largest 
substantive change, however, is that S. 1122 would allow agreements 
with State foresters for treatments on any national forest system and 
BLM lands, and does not require that there be any corresponding non-
federal treatments. The Colorado-specific authority required treatments 
to occur on nearby non-Federal lands as well as on Federal lands.
---------------------------------------------------------------------------
    \2\ Public Law 106-291, sec. 331
---------------------------------------------------------------------------
    S. 1122 may help increase coordination across ownerships, although 
that objective seems less clear than was the case with the Colorado-
only authority. And, because the bill does not require the application 
of Federal service contracting, timber sale, or worker protections laws 
or policies, it does not help address the other objectives of effective 
restoration. Because, in many cases, State contracting and workers 
protection laws are weaker than Federal provisions, this could:

  <bullet> Worsen the working conditions of forest workers in a sector 
        that already has significant challenges in protecting workers;
  <bullet> Limit the use of best value contracting, thereby potentially 
        reducing the quality of the work on the ground and local 
        economic community benefit;
  <bullet> Introduce conflicts of interest into the sale and harvest of 
        Federal timber; and
  <bullet> Reduce access of small business to contracting 
        opportunities.

    Worker protections.--The Federal government has a robust set of 
laws and regulations to protect employees when working under Federal 
contract. However, not all States have such laws and policies, and some 
have weak enforcement of the laws and policies that they do have. In 
particular, the shifting of contracting authority to the State 
foresters appears to exempt these contracts from the Service Contract 
Act and Davis-Bacon Act. These laws and associated policies set wage 
rates, health and welfare payments, and overtime pay requirements for 
workers performing federal contracts.
    The working conditions of forest workers-particularly thinners and 
tree planters-have been the subject of considerable media attention, 
scholarly study, and hearings by this committee\3\ as well as in the 
House of Representatives over the past several years. The media 
attention, research, and hearings have all pointed to significant 
problems with the working conditions of these forest workers. For 
example, in the 2008 Hearing of the House subcommittee on Public Lands 
and Forests, the Department of Labor Testified that 12 of the 19 
federal forestry contractors that had been inspected over the previous 
two years were in violation of the Service Contract Act.\4\ Exempting 
contractors from the Service Contract Act and other Federal contracting 
and labor provisions would likely only worsen the conditions for 
workers. Shifting oversight to the States could serve to undo the hard 
work that the Forest Service and Department of Labor have undertaken to 
increase oversight and enforcement in this area.
---------------------------------------------------------------------------
    \3\ Including, for example, Hearing of the U.S. Senate, Committee 
on Energy and Natural Resources, subcommittee on Forests and Public 
Lands Management, to conduct oversight of the Administration's National 
Fire Plan, March 29, 2001; Hearing of the U.S. Senate Energy and 
Natural Resource Committee, subcommittee on Public Lands and Forests 
regarding forest workers on public lands, March 1, 2006.
    \4\ Statement of Alexander J. Passantino, Acting Administrator, 
Wage and Hour Division, Employment Standards Administration, Department 
of Labor before the Committee on Natural Resources, subcommittee on 
National Parks, Forests and Public Lands, U.S. House of 
Representatives, September 16, 2008.
---------------------------------------------------------------------------
    Moreover, according to the February 2009 GAO report about the Good 
Neighbor Authority,\5\ the State agencies only included provisions of 
the Migrant Seasonal Agricultural Worker Protection Act (MSPA) when 
requested by the Forest Service. In fact, MSPA applies to all migrant 
and seasonal work including thinning and reforestation regardless of 
landownership. These provisions should already be in all State manual-
thinning contracts. If these provisions were not already being 
routinely included in State contracts, this raises troubling questions 
about the extent to which States are prepared to enforce additional 
laws and policies to protect workers.
---------------------------------------------------------------------------
    \5\ Government Accountability Office, Additional Documentation of 
Agency Experiences with the Good Neighborhood Authority Could Enhance 
Its Future, GAO-09-277, February 2009.
---------------------------------------------------------------------------
    Best value contracting.--Since the reforms of the 1990s, the 
Federal Acquisition Regulations have provided the Federal government 
with a broad array of contracting authorities including the ability to 
consider the best value to the government when awarding contracts. By 
contrast, many States do not permit the use of best value contracting 
and, instead, require awards to the lowest bidder (or the highest 
bidder for timber sales). In States where this is case, the Forest 
Service and BLM would lose the ability to choose contractors that 
perform high quality work on public lands. It would also eliminate the 
opportunity to consider the extent to which contractors provide benefit 
to rural communities, an authority that the Forest Service and BLM have 
received as part of their annual appropriation since 2001.
    Timber sale accountability, designation by prescription, and best 
value.--By exempting these contracts from subsections (d) and (g) of 
section 14 of the National Forest Management Act (NFMA),\6\ S. 1122 
would allow State foresters or timber sale purchasers to mark timber 
for harvest. Subsection (g) of NFMA requires that USDA personnel mark 
timber for harvest and prohibits those with a financial interest in the 
timber in participating in marking. At first blush, this appears to be 
the same authority that allows for designation by prescription in 
stewardship contracting; stewardship contracting allows for exemption 
from same NFMA subsections. But, the goal in stewardship contracting 
with exemption is to enable the creation of end-results contracts. With 
these contracts, contractors are chosen and paid based on the quality 
of the work they perform, assessed at the end of the contract. The 
stewardship contracting authority does this by requiring best value 
contracting. Under best value, the agencies are to choose contractors 
that have a history of high quality work and provide the best value to 
the government, whereas traditional timber sale provisions require 
award to the highest bidder. Without the best value requirements, the 
NFMA exemption in S. 1122 simply allows for people with a financial 
stake in the timber to chose which trees to cut without a focus on the 
end result.
---------------------------------------------------------------------------
    \6\ 16 U.S.C. 462a
---------------------------------------------------------------------------
    Small business set aside.--Not all States have provisions that set 
aside contracts for small businesses, as is required under Federal law. 
Currently, virtually all Forest Service and BLM thinning and hazardous 
fuels reduction contracts are awarded to small businesses, as defined 
by the Small Business Administration. Devolving contracting authority 
to State agencies without requiring small business set asides could 
decrease access to contracting opportunities for small businesses. This 
is a particularly important authority for creating rural green jobs, as 
most rural businesses are small businesses. In addition, the provisions 
for set asides and preferences for minority, disadvantaged, and Indian 
businesses would presumably no longer apply.
Recommendations for Improvements
    How can we integrate the need to increase coordination among State 
agencies, Federal agencies, and other landowners with the need for high 
quality green jobs for rural communities and the need for adequate 
Federal oversight of the way in which taxpayer funds are spent and 
Federal timber is sold?

          1. Use existing authorities, such as stewardship contracting 
        and the Wyden Amendment.--Existing stewardship contracting 
        authority allows the Forest Service and the BLM to enter into 
        stewardship agreements, including with States, for work on 
        national forests and BLM lands. Stewardship contracting 
        authority allows for non-USDA marking of timber, as is proposed 
        here. But it does so in a context that requires best value 
        contracting, which allows the agencies to pick contractors with 
        a track record of high quality work. As the agencies have 
        developed stewardship agreements, however, they have maintained 
        more oversight of these agreements than is proposed in S. 1122. 
        The agencies have also required collaboration in project 
        development. Their agreement templates have provisions for the 
        subcontracting of timber sale and service portions of the work, 
        including requiring subcontractors to pay prevailing wages 
        under the Service Contract and Davis-Bacon acts.

    To address the goal of efficiently working across ownerships while 
maintaining federal contracting provisions, the Forest Service and BLM 
could also act as the lead contracting agencies for work on State, 
private lands and public lands, using other existing authorities. For 
example, the agencies could combine collection agreement authorities 
with the Wyden Amendment. Collection agreements allow the agencies to 
collect funds from other entities. With the Wyden Amendment, the 
agencies can contract for restoration work across ownerships. Used 
together, these authorities would allow these two agencies to collect 
funds from States, and solicit and award contracts for work across 
ownership boundaries.
    Since first National Fire Plan appropriation in 2001, the Forest 
Service and BLM have also had authority to enter into agreements not 
only with State foresters but also with a broad array of entities to 
undertake hazardous fuels reduction, watershed restoration, and other 
activities on national forest and BLM lands.

          2. Modify S. 1122

                  a. Require agreement holders to use Federal timber 
                sale and service contracting provisions.--This would 
                increase the likelihood that Federal, taxpayer, small 
                business and worker interests are protected. On the 
                service contracting side, these provisions would 
                include, but not be limited to: Service Contract and 
                Davis-Bacon acts; negotiated and best value 
                contracting; competitive contracting; small business 
                set asides; and other Federal provisions that protect 
                workers, small businesses access, the public interest. 
                It would also include clarity about liability and 
                bonding requirements. On the timber sale side, this 
                would include, but not be limited to, provisions 
                regarding: competitive bidding; penalties for cutting 
                the wrong trees; bonding; Federal disbarment; and other 
                provisions to protect the public interest.
                  b. Require best value contracting.--Because the 
                purpose of this bill is to foster restoration, this 
                authority should focus attention on the quality of the 
                work and require that the States consider the past 
                performance and other factors in addition to price when 
                awarding contracts. The use of best value would also 
                provide a check against abuse of the provision allowing 
                non-USDA timber marking, by making it difficult for 
                contractors who make inappropriate tree selections to 
                obtain future contracts.
                  c. Maintain Federal oversight over the execution of 
                the subcontracts, including the use of Federal timber 
                sale and service contracting officers, contracting 
                officer representatives and inspectors to help ensure 
                that agreements and subcontracts are appropriately 
                executed. This is particularly important in the area of 
                worker protection, where the Forest Service has 
                committed to have contracting officers visit all work 
                sites where work may involve migrant and seasonal 
                workers to ensure that contracting and labor provisions 
                are followed.
                  d. Require mutual benefit and adjacency.--The logic 
                of original Good Neighbor authority in Colorado was to 
                create efficiencies by allowing the State forester to 
                issue a single contract for work occurring on adjacent 
                parcels, rather than having two agencies create two 
                contracting processes for near-by, similar work. S. 
                1122 allows for the State to contract for federal lands 
                under any circumstances, not only when non-Federal 
                lands are involved. Adding some constraints about 
                multiple land ownerships and geographic proximity could 
                help focus the use of this authority to instances where 
                there would likely be efficiencies gained through 
                State-led contracting.
                  e. Require collaboration.--State foresters play a key 
                role in forest and rangeland management in the West, 
                but so do a number of other agencies, landowners, and 
                stakeholders. Requiring collaboration could ensure that 
                these projects and associated contracts are broadly 
                supported; it could also help engage private landowners 
                who need to treat their own lands. In addition, 
                collaboration could create informal oversight that 
                could increase the likelihood of early identification 
                of issues and problems in the development and execution 
                of projects and contracts.
                  f. Address fire protection separately.--This bill 
                appears to include suppression agreements and 
                contracting with the inclusion of ``and protection 
                services.'' Fire protection contracting and interagency 
                agreements are complicated and complex, involve 
                considerable risk, and are handled differently than 
                other types of land management. A change in laws 
                regarding fire protection contracting and agreements 
                should be given separate, focused attention in the 
                context of existing protection arrangements and ongoing 
                reform.
                  g. Require monitoring to evaluate the extent to which 
                the use of agreements with State subcontracting 
                increases coordination among landowners, improves the 
                quality and quantity of restoration activities, 
                provides high quality green jobs and business 
                opportunities for local workers and businesses, and 
                reflects the Federal interests in procurement and 
                timber sale execution.

    Senator Wyden. Dr. Moseley, thank you very much. I'll start 
with my questions for you.
    One of the comments you made with respect to Good Neighbor 
was especially striking to me because I already indicated that 
we're going to work with colleagues on both sides. Senator 
Barrasso has got a great interest in this, other colleagues. 
I'm always struck when I'm home having Town Hall meetings in 
rural areas. Go to every county, every year, about the support 
for the stewardship contracting program using that as a model.
    It seems to me running through your testimony is that some 
of the principles of the stewardship program ought to be 
applied to the Good Neighbor program. Is that generally true? 
If so, why don't you just kind of list the sort of principles 
of the stewardship, you know, program that you think could have 
some applicability here as we work with colleagues and try to 
get folks together.
    Ms. Moseley. Sure. I think that's right. I think that the 
stewardship--we've learned a lot with stewardship contracting 
over the years, how to make it effective both on the ground and 
make it comfortable for a lot of different kinds of 
stakeholders.
    As I suggested in my remarks now I think, you know, the 
best value contracting is the only required authority in 
stewardship contracting. I think that that is a critical 
component. I think that designation by prescription has an 
opportunity to help do restoration work that is sophisticated 
and efficient at the same time.
    I think the way that the Forest Service has implemented 
stewardship contracting to require the use of collaboration in 
the development and implementation of projects has been very 
effective. I think the agreements authority has been very 
helpful in allowing us to, for the Forest Service and BLM, to 
work with nongovernmental organizations. I don't know that 
they've done it with States, but they could in areas of mutual 
benefit to allow the partnerships to really implement the 
activities with mutual benefit. I think that that has a lot of 
potential.
    I think one of the interesting ways we've also seen 
stewardship contracting occur on the Siuslaw National Forest 
has been to combine stewardship contracting and the Wyden 
amendment to allow watershed restoration that is occurring both 
on public lands and private lands at the same time with the 
same goals. So I think you also see some opportunity for 
working together there.
    Senator Wyden. Thank you. I was joking with Mr. Holtrop 
earlier when we had a visit that I didn't even know I had my 
own amendment, the so called Wyden amendment for several years 
after it was actually enacted. But we're glad that folks are 
using it.
    We'll be talking to more of you about ideas as it relates 
to Good Neighbor. I just want to get one other question in, 
otherwise I'd probably be pummeling you on the same thing, Mr. 
Crapser. We're going to work closely with you and all the 
parties and Senator Barrasso on this.
    Let me make sure on this alpine coaster, you know, issue 
that I really get a sense of what it all entails. So perhaps a 
question for you, Mr. Gregory and for you Mr. Bidwell on it, 
both of you touched on the alpine coaster. Essentially the 
subcommittee has been brought around to the idea that this is 
basically a gravity propelled roller coaster going down a ski 
hill.
    Now you, as I understand it, Mr. Bidwell, said that you 
thought that was inappropriate on National Forest land. If I 
heard that right why don't you flush that out? Then I'd like to 
hear your thoughts, Mr. Gregory on the same question whether 
you think that kind of ride is or isn't appropriate on forest 
land. Because I think we'll have a big debate in this committee 
and certainly citizens in the country are going to feel 
strongly on this.
    So we'll start with you, Mr. Bidwell. I picked up when you 
said that you thought it was inappropriate. So why don't you 
flush out why you think that's the case. Then we'll go to you, 
Mr. Gregory.
    Mr. Bidwell.
    Mr. Bidwell. Thank you very much, Mr. Chairman.
    First I should say that I think most important to our 
organizations is that we provide greater clarity, where exactly 
we draw that line is a difficult decision. We recognize that. 
But part of the reason that we're here is because the existing 
law lacks explicit guidance for the Forest Service and the end 
result of that has been inconsistent land management around the 
country. So we feel it's important for the law to be clear.
    I feel personally that the issue of the alpine coaster 
crosses the line of what is natural resource dependent and 
natural resource based recreation. The reason that I feel that 
way is because it is a large permanent, constructed apparatus 
on the landscape that really changes the nature of the 
experience for a National Forest visitor. It's no longer about 
their relationship to a National Forest resource, you know, the 
forested setting or an alpine setting or anything of that 
nature. It's about driving a cart.
    So to me it's a very slippery slope if we allow something 
like an alpine coaster. I don't see how it's fundamentally 
different than driving a steam train down a mountain. You know, 
yes, there is an interaction between the person and the 
apparatus. But that interaction is not fundamentally, you know, 
related to the natural environment that National Forest lands 
provide.
    Senator Wyden. Ok.
    Mr. Gregory.
    Mr. Gregory. Respectfully, the assertion that's it's a 
steam train going down the mountain, it's a gravity device that 
people slide. Part of our obligation as ski area operators 
under permit is to provide access to public lands for 
experiences that people would not otherwise get, which is why 
it is important to make it different than urban activities. So 
that obligation I think extends to benefit non athletes, 
disabled people to have experiences similar to skiing without 
having to have the experience of the athletic ability to do 
that.
    So this is--and I appreciate the Chairman's reference to it 
as alpine coaster. The roller coaster notion smacks of, you 
know, Six Flags and upside down, heavily mechanized, very 
intrusive sites. Pictures have been provided as to what these 
look like. They are, we think, much less intrusive than lifts 
often.
    Again, there's 2 tests.
    One is can proposals be submitted. We strongly believe that 
they should be able to be submitted. They're appropriate in 
some areas, not in other areas. That site specific analysis and 
the rigorous requirements of NEPA will apply.
    So we think that it's very consistent with what we do in 
the develop recreations in ski area permits. It's best to do it 
there. Think it is very consistent with resource based 
recreation.
    Senator Wyden. Discussion to be continued. Senator 
Barrasso?
    Senator Barrasso. Thank you very much, Mr. Chairman. Mr. 
Crapser, again, thank you very much for being with us. You 
know, you're very active in the National Association of State 
Foresters. You were the immediate past Chairman of the Council 
of Western State Foresters. I know you're currently the Chair 
of the Committee on State Forest Science and Health.
    You know, if I could ask you, Mr. Crapser, what do you see 
in terms of other State Foresters across the West in terms of 
how they would view this bill?
    Mr. Crapser. Mr. Chairman, Senator Barrasso, I do have a 
letter with me. I believe several of you are in receipt of it 
from the Council of Western State Foresters and the Society of 
American Foresters supporting Good Neighbor authority. We've 
had some numerous letters from the Council over the last few 
years and from the Western Forest Leadership Coalition talking 
about the importance of cross boundary authorities and working 
together to get some of this work done.
    I think from a lot of my colleagues one of the words and I 
didn't use it in my testimony would be nimble, as far as been 
able to do things having a MOU agreement in place between the 
Forest Service and the State. Then be able to work on 
individual task orders to accomplish work. Not only is very 
efficient, but it also lets us to move in some instances fairly 
rapidly.
    An example that comes to mind, Senator Barrasso as you 
know, this summer we had a tornado in the Black Hills in our 
State, tore up quite a bit of National Forest land, a little 
bit of private and State land. We had within a couple days, we 
had our inmate crews up there doing some watershed restoration 
work, working along the streams doing some work. The Forest 
Service desperately wanted us to do some work on their side of 
the line.
    We didn't have an agreement in place that would allow us to 
do that with any type of speed. It wasn't an emergency, per se, 
like a fire. So we couldn't use our fire agreements.
    I think that's another benefit that we really haven't 
talked about of the whole concept of Good Neighbor authority is 
on those types of instances, we could move. I think most of my 
colleagues would agree with me that would help a lot in 
restorations and in post emergency type activities.
    Senator Barrasso. At your meetings with those from Colorado 
or Utah, are they--do you see an advantage to what they've been 
doing for the last 10 years?
    Mr. Crapser. Yes, Senator Barrasso. It's my colleague from 
Colorado, Jeff Jahnke is very pleased with what they've been 
able to do with Good Neighbor authority as is my colleague from 
Utah, Dick Beuler.
    Senator Barrasso. Could you explain how the interest of 
local communities fit into a State's decisionmaking process? I 
don't know if you've gotten calls on these things and how that 
helps.
    Mr. Crapser. Senator Barrasso, you know, if we're--we who 
have really worked hard on the Community Wildfire Protection 
Plans in Wyoming and in all of the Western States. Right now we 
have of the 23 counties in our States, we have 21 counties with 
completed plans. The 2 that aren't are Prairie Counties. 
Probably we'll never get them done because there's not that 
much of an interest.
    With those, those are very locally driven, locally 
developed plans. Any of our projects, fuels mitigation in 
particular, that we move forward with on private land we move 
forward with the local community, the local groups, priorities 
and try to support those projects. I see the same thing 
developing as we start doing cross boundary projects, trying to 
lean on the communities in those CWPPs to really drive fuel 
mitigation work. I think the same with watershed restoration or 
any of the other work under the authority.
    Senator Barrasso. So when the Wyoming Department of 
Forestry is soliciting bids for a project. Do you consider the 
interest of local communities, local businesses before awarding 
the contract?
    Mr. Crapser. Mr. Senator, yes, we do. We, as you know from 
your time in the State legislature, we do have our procurement 
policies. We do have an advantage for in State bidders. While 
we don't have a small business set aside, per se, most of the 
contractors that do the type of work that we're talking about 
are small businesses, father/son, three or four brothers, that 
sort of businesses are doing a lot of/most of the fuel 
mitigation work in our State.
    Senator Barrasso. Because we've heard some concerns about 
labor implications of this bill. It seems that some people are 
worried that the State would subjugate the Federal agency's 
labor policies. Has that happened at all in Colorado or in Utah 
to your knowledge?
    Mr. Crapser. Senator, not that I'm aware of. I know I've 
talked to the State Forester in Colorado extensively about 
this. We do, as I mentioned in my testimony, we have in our 
agreements with the Forest Service, we have numerous forms, 
assurances that we're held to. I believe in the individual task 
orders there could be any type of requirements that the Federal 
agencies wanted to put in those.
    Senator Barrasso. So there are requirements that apply to 
State agencies when subcontracting is part of a Good Neighbor 
agreement in the other States involved?
    Mr. Crapser. That's correct.
    Senator Barrasso. Do you know if those requirements apply 
to immigration records as well?
    Mr. Crapser. Yes, it does.
    Senator Barrasso. Alright. Thank you. Thank you, Mr. 
Chairman.
    Senator Wyden. Thank you, Senator Barrasso. Let me repeat 
on the Good Neighbor effort. We'll work very closely together 
with you.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman. Before I turn to my 
fellow Coloradan and ask Mr. Gregory to talk about the ski area 
bill, I want to thank Mr. Crapser for being here, for your work 
with our State Forester. Senator Barrasso and I have teamed up 
on a number of important policy matters that affect both of our 
States. The only place which we differ is when CSU comes up to 
Laramie or vice versa during the fall football season. But 
thank you for your leadership and for the pioneering work 
you've done in this important area.
    Let me turn to Mr. Bidwell. Welcome. It's great to have you 
here in Washington, DC. Thanks for making the trip from a 
beautiful and important part of Colorado, Southwestern 
Colorado.
    Mr. Bidwell. Thanks for having me.
    Senator Udall. I know that you testified that you feel the 
bill as proposed creates an unfair advantage for ski areas in 
terms of opportunities for other users of Federal lands. I've 
received letters of support for the bill from Outward Bound and 
from the International Mountain Biking Association. All 
organizations that use public lands for outdoor, natural 
resource based recreation.
    I want to give you a chance to respond to that support from 
those organizations.
    Mr. Bidwell. Absolutely. I think clearly there are a lot of 
organizations that do--that participate in getting the American 
public onto public lands. We're very supportive of that 
objective.
    Our concern here is that is really at a local level. There 
are, as you are well aware of many small, local businesses that 
depend upon permits to take the public onto National Forest 
land and other public land. We have questions. They have 
questions. I regret that they haven't weighed in with you. I 
will encourage them to do that immediately.
    For example, a woman named Anne Rapp runs a horseback 
riding/outfitting guide service just down the street from 
Durango Mountain Resort in Southwest Colorado where I live. You 
know, Anne's been in business for more than 20 years. She's 
managed to secure a permit with the Forest Service for up to 
5,000 user days both in the summertime and in the winter to do 
sleigh riding.
    She's very concerned that if Durango Mountain Resort on 
Federal land just up the street from her can suddenly offer a 
very similar service in the summertime to their guests of 
taking people out on horsebacks, you know, on horses for the 
day. They can do that without going through the same 
competitive process for a number of user days that she's gone 
through. They can do that on a 40 year permit. That 
essentially, you know, her business will be significantly 
disadvantaged.
    So I think her story is similar to probably the story that 
a lot of local outfitters could tell. We just feel that the 
Forest Service ought to consider the impacts to local, existing 
businesses, local existing outfitters and provide some equity 
between the two permitting processes provided. Given that, you 
know, for the activities that we are considering here there's 
not a huge long term investment as is the case with ski lifts 
and other infrastructure that justified the 40 year permit 
timeframe in the Ski Area Permit Act.
    Senator Udall. If I might, let me give Mr. Gregory a chance 
to respond to those concerns.
    Mr. Gregory. If I may, Mr. Bidwell makes an important 
point. But I think that point was most accurate with respect to 
the local nature of that issue. Clearly, you know, large 
companies that tend to be ski permit holders moving into the 
territory, guide outfitters would be problematic, if that in 
fact happened. It happens very, very rarely. The problem is at 
a local level and the solution is at a local level.
    When any permitee whether it be a long term permitee like a 
ski area holder or a guide outfitter applies for permit they 
look to, the service looks to No. 1 is their demand that's not 
yet met. No. 2, who's the best to satisfy that demand. That 
would get dealt with at a local level. It's not something that 
from the perspective of the bill that can be solved through the 
legislation.
    So I think it's getting dealt with quite aptly now, quite 
frankly.
    Senator Udall. I'd welcome further comments from both of 
you. I assume we're going to keep the record open as we 
continue to consider the legislation on this particular matter.
    Senator Udall. If I might, Mr. Gregory, let me----
    Senator Wyden. If I could, Senator Udall has made an 
important point. We're going to keep the record open for 2 
weeks. So we'll make sure colleagues can be heard.
    I know the Senator from Colorado wants additional time. I 
think is appropriate.
    Senator Udall. The Chairman is known as one of the most, if 
not the most fair member of the U.S. Senate. I thank you for 
your forbearance.
    Skiers are very important to mountain economies in general. 
In a time of tough economic prospects we've seen pretty strong 
numbers relative to the general economy. We had a hearing 
yesterday on the Great Smoky National Park, among other topics. 
It was nice to hear that in the communities around the park 
this summer their numbers have held up.
    People are staying a little closer to home, taking 
advantage of vacation opportunities in our parks on our public 
lands. What do you think the economic benefits of this bill 
would be if and when we move the bill through the Congress into 
the desk?
    Mr. Gregory. Economic benefits are dramatic. The ski area 
that I own and operate, Mammoth Mountain Ski Area in 
California, we have a town of approximately 7,000 people. 3,000 
in the winter work for the ski area. In the summertime, we have 
approximately 1,000 year round employees.
    With the current economic crisis that we're going through 
our standard 1,000 person, year round employees with benefits 
that go with that year round employment has been reduced by 
approximately 200. So these fragile communities are always 
fragile. During economic times like this they're even more so 
with unemployment ranging often close to 20 and above 20 
percent.
    So opportunities to work on the same resource in the 
summertime and the winter time, to be able to be employed on a 
year round basis, you know, makes a huge difference to these 
rural economies. Makes them, you know, a little less fragile 
than they already are.
    Senator Udall. Mr. Chairman, if you might indulge me for 
one last question and perhaps a comment?
    Mr. Bidwell, Mr. Gregory, I know in the package you 
provided to the committee that in the one photograph of the 
alpine slide you do have the built environment that Mr. Bidwell 
commented on with the alpine slide. But you also have another 
built environment which is the ski lift structures and the 
cables themselves. So I would note that although, Mr. Bidwell, 
your concerns are ones that you hold, that you have a built 
environment in place already.
    What I'd like to offer is to continue the conversation 
about how we structure this bill in its final form to respond 
to some of the concerns that you've expressed here today.
    Mr. Bidwell. Thank you very much, Senator Udall. We would 
very much welcome that opportunity. We've had very productive 
conversations with the ski industry throughout this process as 
well as with your staff. Those conversations have frankly 
gotten even more productive than just the last few weeks 
leading up to this hearing. So I'm optimistic that we can work 
together as a team and try to find the language that makes us 
all feel comfortable.
    I'm encouraged because, I think, there is agreement in 
principle between the conservation community and the ski 
industry and your office on this issue. We would all very much 
like to see ski areas continue to play an important role 
economically in their communities. We'd all frankly like to see 
them play a role in getting more children out into the woods. 
It's just a question of making sure that we do that in an 
appropriate way.
    So, thank you for that offer.
    Senator Udall. Thank you, Mr. Chairman for holding the 
hearing.
    Senator Wyden. Thank you.
    Senator Udall. For including these important witnesses.
    Senator Wyden. Thank you. I'm going to give them the last 
word. I just am struck by the fact I have been either the Chair 
or the Ranking Minority Member on this subcommittee for most of 
my time in the U.S. Senate. What it always comes back to when 
you're trying to deal with one of these major issues whether 
it's county payments, Healthy Forest Restoration Act, public 
lands package. It's about trying to bring people together.
    What is striking about natural resources policy is almost 
everybody wants a win/win. In other words they want to protect 
their treasures and at the same time they want to be sensitive 
to local economies. If you don't find a way to bring people 
together in effect you get, what I call a lose/lose. You don't 
protect your treasures nor do you do what is sensitive in terms 
of local economies.
    The point Dr. Moseley, my constituent makes in terms of 
getting good paying jobs, particularly in our State where we 
have consistently had close to a 12 percent unemployment rate 
for quite some time. So you've given us a lot of good ideas in 
the course of the afternoon for doing natural resources the 
right way which is to bring people together. With good people 
like Senator Barrasso and Senator Udall we're going to set to 
work to go on about doing it.
    Your testimony has been very good. We'll give you the last 
word. Any of you four want to add anything? You're not required 
to.
    Mr. Gregory. I would just like to strongly agree with your 
Statement. I think what we're looking for is really just 
general clarification in S. 607 that's provided to the local 
line officer so that in a local communities we can do exactly 
what's being talked about here, work cooperatively to develop 
local solutions to these local challenges. You know, if we 
don't agree, nothing gets done anyway. I think it's a very 
compelling case that you make for that, Mr. Chairman.
    Senator Wyden. Anything further?
    Mr. Crapser. Mr. Chairman while I've been sitting here I 
came to a thought on S. 1122 that I hadn't even thought about 
before as far as the whole Good Neighbor authority and cross 
boundary. We talked a lot today and the bill addresses 
utilizing State resources or State--working as an agent of the 
Federal Government on Federal land. All of a sudden it struck 
my mind, why haven't we talked about using Federal fuel crews 
on State or on private land?
    I guess----
    Senator Wyden. Getting a lot of nodding from Dr. Moseley on 
that.
    Mr. Crapser. I was thinking about my analogy I use with my 
inmate crews being in the same spot where the Forest Service 
needed some work done. I got thinking to myself well, what if 
they'd had a hot shot crew working on Federal land could I have 
used them on the State or the private land as well. So if I had 
a suggestion it would be to look at even expanding it a little 
bit farther where we could utilize Federal contractors or 
Federal crews on State and private as long as we were ready to 
go with the project also.
    Senator Wyden. You all aren't required to do this. But 
you're welcome to anything else you want to add, Mr. Bidwell, 
Dr. Moseley?
    Mr. Bidwell. No, thank you. Thank you very much.
    Senator Wyden. Dr. Moseley.
    Ms. Moseley. I think what the State Forester from Wyoming 
is suggesting makes a lot of sense. These are lines really with 
two sets of, you know, different owners and different laws on 
both sides of those lines. But how can we figure out what the 
mutual benefit is here.
    I think this is as much about wrinkles and thinking about 
this as comprehensive restoration as it is anything else. So I 
think there's a lot of opportunity to iron out the technical 
issues and make this a strategy that creates multiple benefits, 
not just one benefit. Thank you.
    Senator Wyden. We'll be back in touch with all 4 of you. 
With that the subcommittee is adjourned.
    [Whereupon, at 4:15 p.m. the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

    Responses of Ryan D. Bidwell to Questions From Senator Murkowski
                     proposed amendments to s. 607
    Thank you for the opportunity to provide this additional 
information to the Hearing Record. As an initial matter, we submit the 
following suggested amendment language for the Subcommittee's 
consideration. We believe that the following additions and 
clarifications (changes in bold/italics) to Sec. 3(c)(2) would address 
the primary concerns that we, and the U.S. Forest Service, identified 
in our respective testimony for the October 29, 2009 hearing.
          Sec.3 (c)(2) REQUIREMENT OF ACTIVITIES AND FACILITIES.--Each 
        activity and facility authorized by the Secretary under 
        paragraph (1) shall----
                  (A) encourage outdoor recreation that fosters an 
                understanding of and appreciation for natural resources 
                and values through a direct association with, 
                interaction with, or relation to National Forest 
                resources;
                  (B) to the extent practicable, harmonize with the 
                natural environment of the National Forest System land 
                on which the activity or facility is located;
                  (C) be located within the portions of the ski area 
                permit area that have already been developed or 
                otherwise significantly altered for the purpose of 
                supporting recreation;
                  (D) emphasize recreational opportunities that are 
                generally not available on private lands or in non-
                forested settings such as urban areas;
                  (E) support recreation activities which may be 
                facilitated by, but that are not solely dependent upon, 
                permanently constructed facilities.
                  (F) be subject to such terms and conditions as the 
                Secretary determines to be appropriate.

    In responding to Senator Murkowski's questions below, we have made 
an effort to explain how and why these amendments would provide clarity 
and guidance to the U.S. Forest Service in implementing the Act.
    Subsection (A) above has been expanded to clarify that the 
recreational experiences in question should have a clear nexus with the 
National Forest context in which it occurs.
    Subsection (B) remains unchanged.
    Subsection (C) has been added to provide guidance to the Forest 
Service as to where year-round recreational facilities should occur, 
reducing the impact of new year-round recreational facilities on the 
large acreages of undisturbed National Forest land, including some 
inventoried roadless areas, located within ski area permit boundaries.
    Subsection (D) has been added to clarify the characteristics of 
recreational activities and facilities that are to be permitted by 
preserving the current National Forest direction to prioritize 
activities and facilities that are unavailable on nearby private lands 
or in other settings. This would alleviate concerns to other existing 
business and communities that could potentially suffer from ski area 
competition, while also providing guidance on what types of activities 
are appropriate in a particular context.
    Subsection (E) has been added to provide guidance as to what types 
of recreation facilities are best suited to ski areas. Following the 
model established by ski lifts, we propose that facilities should 
continue to facilitate recreational activities, rather than constitute 
that activity itself. This distinction would provide clear guidance to 
the Forest Service about what types of uses are in fact ``natural 
resource-based,'' and would ensure that recreational activities 
continue to depend primarily upon the natural resource setting offered 
by National Forests, rather than depend entirely upon a an artificially 
constructed setting.
                       other issues and concepts
    We are aware of other general proposals to modify S. 607 to 
address, at least in part, concerns about the Bill as introduced. We 
address each of these briefly here.
    Grandfathering Existing Facilities--We are not aware of any 
organization that is actively pushing to have existing facilities at 
ski area removed, or current activities discontinued. Nonetheless, 
until either the ski industry or the Forest Service has prepared a 
comprehensive list of year-round facilities/activities that have been 
authorized to date, there is no way to know what the effect of allowing 
these same activities/facilities to be permitted elsewhere would be. 
Without access to this information, we believe it is inappropriate for 
S. 607 to explicitly grandfather all current uses at all National 
Forest ski areas. Instead, grandfathering specific activities/
facilities may be acceptable.
    Adding a List of Prohibitions--While still constituting an 
improvement over the Bill as introduced, we continue to believe that 
explicitly prohibiting a list of activities/facilities (e.g., water 
parks, amusement parks, etc.) is problematic. As a primary matter, 
defining these terms can be challenging if not impossible. Similarly, 
any list of prohibitions will inevitably become outdated quickly.
    ``Primary Purpose'' Language--We are understanding of the ski 
industry's concern that Sec.3 (c)(3) of S. 607 would create a new test 
(and hence new reporting requirements) for resorts in order to 
demonstrate that the majority of their revenue is derived from 
snowsports. While we believe it is imperative that the bill include 
language that guards against ski areas becoming predominantly summer 
facilities (as there are other National Forest special use permits 
better suited to that situation) we are not opposed to modifying Sec.3 
(c)(3) to avoid creating an altogether new administrative burden on ski 
areas and National Forest managers charged with administering ski area 
permits. It is our understanding that ski areas already account 
separately for revenue from non-skiing sources (e.g., food and 
beverage) and this current system might be easily adapted to 
accommodate any additional new sources of year-round revenue.

    Until now, some of the Forest Service's staff expressed concerns 
about a number of types of activities that they believe may not be 
acceptable on Forest Service land. Water parks and alpine coasters are 
most often mentioned, we are having difficulty getting a handle on what 
is allowed or has been allowed at ski areas that your agency 
administers.
    Question 1a. In your experience does the Forest Service allow any 
ski areas to transport mountain bikes up their lifts so that the 
recreationists can ride down the mountain? If so, do you know how many 
areas this activity is allowed in, how many is it restricted, and do 
you know why the agency restricted these activity at some but not all 
ski areas?
    Answer. In our experience the Forest Service does allow ski areas 
to transport mountain bikes up their lifts so that riders can descend 
the mountain. We are not aware of any ski areas where a request by the 
ski area permit holder to provide this activity has been denied. The 
Forest Service routinely requires that mountain bikes remain on 
designated roads and bicycle tails, rather than riding straight down 
ski runs themselves, which would result in significant erosion on these 
steeper slopes.
    Question 1b. Would you recommend restricting people traveling the 
ski mountains on other non-motorized wheels vehicles (say--roller 
blades, skate board with large tires, glide carts) and if so, why?
    Answer. Assuming that the Forest Service determined that these 
activities could be conducted without significant environmental 
degradation, we would not recommend restricting activities involving 
other non-motorized wheeled vehicles so long as they met the criteria 
in our amendments to Sec.3 (c)(2) of S. 607. We believe mountain biking 
is consistent with the criteria provided because it is directly related 
to National Forest resources, generally unavailable on private lands or 
in urban settings, and is not itself dependent upon permanently 
constructed facilities (even though lifts may facilitate access).
    Question 2. Do you know if the Forest Service currently allows any 
ski area to have a pool (on Forest Service lands) as part of their 
permit? If so, do you know where and if not, why not they restrict 
them?
    Answer. We are not aware of any ski area that has constructed a 
pool on National Forest land. We believe that a pool would be 
inappropriate at a National Forest ski area because swimming in a pool 
is not a recreational experience that is directly related to or 
associated with National Forest resources. This activity is also easily 
provided on private lands (where many pools are located in close 
proximity to ski resorts) or in urban settings. Finally, swimming in a 
pool is entirely dependent upon a permanently constructed facility, and 
therefore is not a natural resource-based recreation activity.
    Question 3. Do you know if the Forest Service currently allows any 
ski areas to have a water slide park (on Forest Service lands) as part 
of their permit? If so, where and if not, do you know why not?
    Answer. We are not aware of any ski area that has constructed a 
water slide park on National Forest land. Silver Mountain in Idaho has 
constructed a water park at their resort, but it is our understanding 
that this facility is located entirely on private land. As with #2 
above, we believe that a water park would be inappropriate at a 
National Forest ski area because water parks do not provide 
recreational experiences that are directly related to or associated 
with National Forest resources. These activities are also easily 
provided on private lands (e.g., Silver Mountain's facility) or in 
urban settings. Finally, water parks are entirely dependent upon 
permanently constructed facilities, and therefore are not a natural 
resource-based recreation activity.
    Question 4. Do you know if the Forest Service currently allows any 
ski area to permit swimming or soaking in a hot spring within the ski 
area permit area? If so, where and if not, do you know why not?
    Answer. It is highly likely that the public does in fact swim in 
rivers and streams as well as natural and human-built lakes and ponds 
within ski area permits, but we are unaware of any ski area that 
provides this activity commercially as a part of its permit with the 
Forest Service. Swimming in a natural water body is clearly a natural 
resource-based activity that would be appropriate based upon on 
proposed modifications to S. 607.
    Question 5. Do you know if the Forest Service currently allows zip-
lines in any of the Forest Service ski area permits? If so, do you know 
where and if not, do you know why not?
    Answer. It is our understanding that zip lines have been approved 
and built on National Forest lands at Heavenly Ski Resort in California 
and Mt. Hood Ski Bowl in Oregon. A zip line has also been approved at 
Hodoo Ski Area in Oregon, and proposed at Las Vegas Ski and Snowboard 
Resort in Nevada. We are unaware of whether other resorts have sought 
permission to construct these facilities. Based upon the criteria we 
have proposed, zip lines would be inappropriate at a National Forest 
ski area because they are entirely dependent upon a permanently 
constructed facility, and therefore is not a natural resource-based 
recreation activity. Given that several of these facilities already 
exist, this may be an instance where grandfathering makes sense.
    Question 6. Do you know if the Forest Service currently allows 
Alpine scooters on Forest Service lands? If so, where and if not, do 
you why not?
    Answer. We are unsure of what an alpine scooter is. We are aware of 
several proposals by ski areas to build alpine coasters on public land, 
which we assume to be similar. There are currently no alpine coasters 
on public lands that we are aware of. Vail Mountain and Las Vegas Ski 
and Snowboard Resort have proposed alpine coasters on public lands. 
Several alpine coasters have been constructed on private land, but only 
one of which that we are aware of is in proximity to a ski resort (Park 
City, UT). We believe that an alpine coaster is inappropriate at a 
National Forest ski area because piloting a cart on a metal scaffolding 
structure is not a recreational experience that is directly related to 
or associated with National Forest Resources. This activity is also 
easily provided on private lands or in urban settings. Finally, alpine 
coasters are entirely dependent upon a permanently constructed 
facility, and therefore are not a natural resource based recreation 
activity.
    Question 7. Do you know if the Forest Service currently allows 
Alpine Slides? If so, where and if not, do you know why not?
    Answer. We are aware of at least four alpine slides that have been 
constructed on public land at ski areas: Durango Mountain Resort, CO; 
Winter Park, CO; Mt. Hood Ski Bowl, OR; and Snow King Resort, WY. Other 
alpine slides exist nationwide on private lands. We understand that the 
Forest Service is not currently accepting applications from ski areas 
to construct these facilities. Similar to #6 above, we believe that an 
alpine slide is inappropriate at a National Forest ski area because 
piloting a cart down a concrete track is not a recreational experience 
that is directly related to or associated with National Forest 
Resources. This activity is also easily provided on private lands or in 
urban settings. Technically, alpine slides are designed to be temporary 
facilities, but in practice most ski areas have left them in place 
permanently, and therefore this activity entirely dependent upon a 
permanently constructed facility. Given that several of these 
facilities already exist, this may be an instance where grandfathering 
makes sense.
    Question 7a. Can you explain what the fundamental difference 
between the visual and esthetics of a ski chair lift vs. an Alpine 
Coaster, vs. an Alpine scooter, vs. a zip line from your point of view? 
And can you describe why one or more of these might unacceptable to the 
Forest Service?
    Answer. We do not believe that there is a fundamental difference 
from a visual or esthetic perspective between ski lifts, alpine 
coasters, alpine slides and zip lines, although the significance of the 
visual/esthetic impact resulting from these facilities does decline in 
that order. Where we feel there is a fundamental difference between 
these facilities is related to the nature of the recreational 
experience in question, and its relationship (or lack thereof) to 
National Forest Resources.
    Ski lifts are not themselves designed as recreational activities. 
Instead, ski lifts facilitate a natural resource-based activity such as 
skiing or snowboarding which itself does not depend on a permanently 
constructed facility to occur. In contrast, alpine coasters, alpine 
slides, and zip lines are all recreational activities that themselves 
are dependent upon a permanent facility to be in place. Thus the 
facility is the basis for the recreation in question, not the natural 
resource context. Again, given that zip lines and alpine slides have 
historically been approved and constructed, grandfathering these uses 
may be acceptable, but in general, we believe that these activities are 
not examples of natural resource-based recreation, and therefore not 
appropriate for National Forest Ski areas.
    Question 8. Do you think the Forest Service should allow ATV or OHV 
use of forest lands within a ski area? If so, with what limitations?
    Answer. We believe ATV/ORV use on public lands is best addressed in 
a transparent and comprehensive planning process through the Travel 
Management process. We are not aware of any ski area which provides 
commercial ATV/ORV recreation on public lands, although all ski areas 
we are aware of use ATVs and ORVs for maintenance and operations 
purposes. We believe that well managed ATV/ORV use is an appropriate 
natural resource-based recreation activity that is consistent with the 
criteria we have proposed for amending S. 607. As with other areas on 
public land, we believe it is important that ATV/ORV use is restricted 
to designated routes that are appropriately located, designed, and 
maintained so as to not result in significant adverse environmental 
effects.
    Question 9. Do you think the Forest Service should allow a 
motorcycle hill climb within a ski permit on Forest Service lands? If 
not, why not?
    Answer. As with #8 above, we believe this activity would be best 
managed in a consistent manner across a National Forest as determined 
through the Travel Management process. In general though, motorcycle 
hill climbs are not dependent upon National Forest settings and 
resources, and could (and in fact are) generally available on private 
lands and in non-forested settings. Therefore, motorcycle hill climbs 
would likely not be an appropriate use of public lands at ski areas.
    Question 10. Do you know if the Forest Service currently allows the 
summer use of hang-gliders, or para-sails in ski areas? If so, do you 
know where and if not, do you know why not?
    Answer. We are not familiar with Forest Service policy on summer 
use of hang-gliders and para-sails at ski areas. Based on our proposed 
criteria above, we believe these activities could be appropriate year-
round recreation activities at ski areas.
    Question 11. In your mind, how does winter paragliding or hang-
gliding differ from summer para-gliding or hang-gliding?
    Answer. We do not see a fundamental difference between these 
activities based on the season of their occurrence.
    Question 12. Do you know if the Forest Service allows back country 
horse back riding in ski areas on Forest Service lands? If so, do you 
know where and if not, do you know why they don't allow it?
    Answer. We are aware of a number of locations where other horseback 
riding outfitters travel through ski area permit areas on designated 
roads and trails, but no instances where ski areas themselves offer 
year-round or summer only horseback riding activities. Backcountry 
horseback riding is clearly an example of natural resource-based 
recreation that would be appropriate on public lands at ski areas. As 
we have expressed before, we believe that ski areas could gain a 
competitive advantage compared to other outfitters and guides offering 
similar services to the public if care is not taken by the Forest 
Service to avoid this situation.
    Question 13. Do you know if the Forest Service allows horseback 
endurance rides or events like the Omak Suicide Race in permitted ski 
areas on Forest Service lands?
    Answer. We are not aware of the Forest Service allowing a horseback 
endurance ride or race on public lands at ski areas. We believe this 
activity would be best considered through applicable Forest Service 
special use permit regulations, and not addressed separately for ski 
areas.
    Question 14. Do you know if the Forest Service currently allows 
paintball parks within ski areas on federal lands?If so, do you know 
where and if not, do you know why not?
    Answer. We are not aware of any ski area that has been allowed to 
construct a paintball park on National Forest land. While playing 
paintball in a forested setting itself may be argued to be a natural 
resource-based activity, we believe that the construction of a ``ball 
field'' for this activity would be inappropriate at a National Forest 
ski area because playing paintball in a regulation paintball park is 
not a recreational experience that is directly related to or associated 
with National Forest resources. This would be akin to providing a 
basketball or tennis court. This activity is also easily provided on 
private lands or in urban settings. Finally, playing paintball in a 
paintball park is a recreational activity entirely dependent upon a 
permanently constructed facility, and therefore is not a natural 
resource-based recreation activity.
    Question 15. Please help us understand why any of the above listed 
summer recreation activities are that much different than snowboard 
terrain parks (especially the metal rails and jumps that are 
permanently or semi-permanently placed in the snow board terrain 
parks)?
    Answer. We believe that there is a clear distinction that can be 
drawn between facilities that facilitate or enhance a natural resource-
based recreation experience from those that are themselves an 
artificial constructed recreation experience. Terrain park features are 
not themselves designed as recreational activities. Instead, jumps and 
other terrain park features mimic natural features (logs, cliffs, etc.) 
to facilitate a certain style of skiing or snowboarding. In contrast, 
alpine coasters and water parks are recreational activities that are 
dependent upon a permanent facility to be in place. Thus the facility 
is the basis for the recreation in question, not the natural resource 
context.
                                 ______
                                 
      Responses of Bill Crapser to Questions From Senator Barrasso
    You have wanted to utilize the good neighbor authority in Wyoming 
for some time now.
    Question 1. Could you explain why this authority will be an 
important tool for our State?
    Answer. Having Good neighbor authority would allow the federal 
agencies and the State to be much more nimble and efficient in our 
approach to accomplishing work, especially in intermingled ownerships. 
This is especially important in Wyoming given the forest condition 
problems that we face.
    Question 2. Could you share a few examples of projects that would 
benefit under a collaborative approach to land management?
    Answer. GNA would be very useful for fuels mitigations projects in 
the WUI, for hazard mitigation along powerlines, roads, and trails, and 
for forest restorations projects that cross property lines.
    Question 3. Don't you agree that the collaboration and cooperation 
established under a good neighbor policy is much more efficient and 
cost-effective than the ``go-it-alone'' situation land managers 
currently face?
    Answer. I believe that collaboration is the only way that we can 
effectively move forward with many projects where the need crosses 
property lines.
    Question 4. Your testimony includes discussion of cost savings 
provided by the good neighbor authority. Please explain.
    Answer. First the very fact that different agencies would have to 
communicate and work together would make projects more efficient. 
Contractor utilization and mobilization costs would be greatly reduced 
by combining projects under single contracts. If utilized the GNA would 
allow States to not only reduce management costs on federal lands 
projects, but this bundling of services would reduce costs to private 
landowners as well.
    I saw an article in the Denver Post on October 16th about the 
Forest Service undertaking a project to remove hazard trees on the 
White River, Arapaho-Roosevelt, and Medicine Bow-Routt National Forests 
(see attached article).
    The Forest Service plans to remove dead trees along 250 miles of 
roads through forests, 380 miles of trails and on 1,000 acres of 
campgrounds at a cost of $15 million.
    Question 5. Would you care to guess how many miles of roads, miles 
of trails, and acres of campgrounds could be cleared by your State or 
Colorado State Forest Service if Congress granted you the Good Neighbor 
Forestry Authority and the $15 million in funding?
    Answer. I don't have a way to scientifically answer this question, 
but with my logging and equipment movement experience, I would hazard a 
guess that by bundling projects across ownership lines, would allow the 
agencies to increase the amount of work completed per dollar by a 
factor of between 1.3 and 1.5.
                                 ______
                                 
     Responses of Rusty Gregory to Questions From Senator Barrasso
    Given that the National Ski Association played an integral part in 
helping develop S. 607 we are confused by several of the requests made 
in your testimony. Could you answer these questions?
    Question 1. Your testimony said: ``it would be helpful to the 
Forest Service if the Committee provided guidance on the intention of 
paragraph (4)(c)(2) of the bill. While the development of amusement 
parks on public lands should not be permitted under this bill, at the 
same time, a collection of recreation or amusement-related features may 
be authorized--and in many cases already have been under existing 
approvals.''
    Would you provide the Committee a list of summer recreation 
activities that you think should be allowed, as well as a list of those 
activities that you think are inappropriate?
    Answer. While we are happy to list examples of the types of 
activities that should be deemed appropriate or not, we caution the 
Committee that any such lists are not exhaustive, and that any listing 
exercise completed today runs the risk of being out of date as 
recreation activities continue to evolve over time.
    As Stated in our testimony, the development of amusement parks on 
public lands should not be permitted under this bill, yet at the same 
time, a collection of recreation or amusement-related features may be 
authorized--and in many cases already have been under existing 
approvals. For example, a collection of features such as alpine slides, 
alpine scooters, bungee, canopy tours, climbing walls, Frisbee golf, 
hang-gliding and para-gliding, horseback riding facilities, mazes, 
mountain bike parks, paintball, ropes courses, summer tubing, ``turf'' 
terrain parks and ziplines should not be considered an ``amusement 
park'' for purposes of this bill. More modern features such as year-
round bob sled rides or mountain or alpine coasters that are gravity 
propelled and substantially follow the contour of the natural terrain 
should also be considered permissible.
    Question 2.Your testimony said: ``Likewise, guidance to the Forest 
Service regarding water parks would be helpful. While the development 
of water parks on public lands should not be permissible, at the same 
time, a collection of recreation features or activities that may 
require or benefit from the use of water may be authorized under the 
bill--and in many cases already have been under existing approvals.''
    Would you provide the Committee a list of summer water based 
recreation activities that you think should be allowed, as well as a 
list of those activities that you think are inappropriate?
    Answer. As Stated in our testimony, a water park should not 
permitted under the bill. However, a collection of recreation features 
or activities that may require or benefit from the use of water should 
be authorized under the bill--and in many cases already have been under 
existing approvals. A log flume may not be appropriate in the view of 
the Committee, but naturally appearing pools or hot springs, water-
related mountain bike features, pond skims, or summer tubing operations 
that utilize water and substantially follow the contour of the natural 
terrain may be deemed permissible. Again, these examples of water-
related features should not be considered an exhaustive list, as 
activities may evolve over time.
    Question 3a. Your testimony said: ``Finally, we would welcome the 
removal of the ``primary purpose'' test from paragraph (4)(c)(3) of the 
bill. Removal of this provision will provide clarity to the agency, 
because there is already a revenue-based test existing in the Code of 
Federal Regulations that is more objective than this proposed ``primary 
purpose'' test. Under existing Forest Service regulations (36 CFR Sec.  
251.51), a ski area must derive the preponderance of its revenues from 
``the sale of lift tickets and fees for ski rentals, for skiing 
instruction and trail passes for the use of permittee-maintained ski 
trails.'' This existing revenue-based test is more objective and is 
less likely to invite litigation over ski area summer proposals than 
the proposed ``primary purpose'' test.''
    Do you agree that a provision of law is stronger and more permanent 
than a Federal Regulation?
    Answer. Yes. As drafted, however, the proposed law would conflict 
with existing regulations that provide better clarity to the agency and 
the permittee. The bill should be amended to match the revenue-based 
test that is currently in regulation.
    Question 3b. Would you provide the Committee with a specific list 
of those parts of 36 CFR 251.51 that you think should be incorporated 
in section 4(c) (3) of S. 607 as currently drafted?
    Answer. We would propose striking section 4(c)(3) as currently 
drafted and replacing it with the following language:

          LIMITATION.--The Secretary may not authorize any activity or 
        facility under paragraph (1) if the Secretary determines that 
        the authorization of the activity or facility would cause the 
        site to no longer meet the definition of ski area. A ski area 
        is a winter, seasonal or year-round site and ancillary 
        facilities developed to accommodate snowsports, summer or year-
        round recreation activities from which the preponderance of 
        revenue is generated by the sale of snowsports lift tickets, 
        fees for snowsports rentals, fees from winter ancillary 
        facilities, fees for snowsports instruction and fees for winter 
        trail passes for the use of permittee-maintained ski trails.
     Responses of Rusty Gregory to Questions From Senator Murkowski
    Until now, some of the Forest Service's staff expressed concerns 
about a number of types of activities that they believe may not be 
acceptable on Forest Service land. Water parks and alpine coasters are 
most often mentioned, we are having difficulty getting a handle on what 
is allowed or has been allowed at ski areas that your agency 
administers.
    Question 1. In your experience does the Forest Service allow any 
ski areas to transport mountain bikes up their lifts so that the 
recreationists can ride down the mountain?
    Answer. Yes.
    Question 1a. If so, do you know how many areas this activity is 
allowed in, how many is it restricted, and do you know why the agency 
restricted these activity at some but not all ski areas?
    Answer. Out of the 121 resorts operating on National Forest System 
lands, forty-one (41) have mountain biking. Some resorts have been 
restricted from commercial mountain biking. For example, Mt. Hood 
Meadows in OR requested commercial mountain biking in the past and was 
denied. Also, the Forest Service restricts mountain biking events at 
some resorts. For example, the Boise National Forest has not allowed 
Bogus Basin in ID to have a ``Downhill'' event on the permitted area.
    Question 1b. Would you recommend restricting people traveling the 
ski mountains on other non-motorized wheels vehicles (say--roller 
blades, skate board with large tires, glide carts) and if so, why?
    Answer. No.
    Question 2. Do you know if the Forest Service currently allows any 
ski area to have a pool (on Forest Service lands) as part of their 
permit? If so, do you know where and if not, why not they restrict 
them?
    Answer. NSAA is not aware of any pools on NFS lands at ski areas 
operating under a 1986 Act permit. There is one pool at Timberline 
Resort in OR under a Granger Thye Permit. Naturally appearing pools 
should not be restricted. Water-related recreation is a major 
attraction for children. In keeping with the Forest Service's ``More 
Kids in the Woods'' goal, recreating in water in a naturally appearing 
setting should not only be permitted, it should be encouraged.
    Question 3. Do you know if the Forest Service currently allows any 
ski areas to have a water slide park (on Forest Service lands) as part 
of their permit? If so, where and if not, do you know why not?
    Answer. NSAA is not aware of any water slides on NFS lands.
    Question 4. Do you know if the Forest Service currently allows any 
ski area to permit swimming or soaking in a hot spring within the ski 
area permit area? If so, where and if not, do you know why not?
    Answer. NSAA is not aware of any such activity.
    Question 5. Do you know if the Forest Service currently allows zip-
lines in any of the Forest Service ski area permits?
    Answer. Yes.
    Question 6. If so, do you know where and if not, do you know why 
not?
    Answer. According to a recent survey, Heavenly in CA/NV has a 
zipline, as do Mammoth in CA, Wildcat NH and Sugarbush VT. There are 
dozens of resorts in other States that would like to submit a proposal 
for a zipline at this time.
    Question 7. Do you know if the Forest Service currently allows 
Alpine scooters on Forest Service lands? If so, where and if not, do 
you why not?
    Answer. Yes. Steamboat Resort in CO offers alpine scooters, and 
potentially other resorts as well.
    Question 8. Do you know if the Forest Service currently allows 
Alpine Slides? If so, where and if not, do you know why not?
    Answer. Yes. There are currently 5 public land ski areas with 
alpine slides. These resorts include Attitash in NH, Breckenridge in 
CO, Durango Mountain Resort in CO, Mt. Hood Ski Bowl in OR and Winter 
Park in Colorado.
    Question 8a. Can you explain what the fundamental difference 
between the visual and esthetics of a ski chair lift vs. an Alpine 
Coaster, vs. an Alpine scooter, vs. a zip line from your point of view? 
And can you describe why one or more of these might unacceptable to the 
Forest Service?
    Answer. Ski areas are considered ``developed recreation.'' The 
environment at a ski area is a built environment. Ski areas have trams, 
gondolas, chairlifts and surface lifts that dominate the visual 
landscape. In addition, they have an array of snowmaking hydrants and 
buildings such as maintenance facilities, patrol facilities and 
restaurants. These are all permanent structures. In NSAA's view, since 
all of the features listed above (alpine slide, alpine scooter, 
zipline) already exist on NFS lands at ski areas, none of these should 
be considered ``unacceptable'' to the Forest Service. From a visual 
standpoint, all of these activities blend within the existing developed 
or built environment context.
    Question 9. Do you think the Forest Service should allow ATV or OHV 
use of forest lands within a ski area? If so, with what limitations?
    Answer. Motorized vehicles are necessary at resorts for operations, 
grooming, safety and patrol, construction, access to private 
inholdings, and other related activities. In NSAA's view, recreational 
use of ATVs should be permitted on a site-by-site basis in accordance 
with travel management plans for each individual forest.
    Question 10. Do you think the Forest Service should allow a motor 
cycle hill climb within a ski permit on Forest Service lands? If not, 
why not?
    Answer. The event would need to be evaluated on a site-specific 
basis. NSAA would defer to the local travel management plan for that 
forest.
    Question 11. Do you know if the Forest Service currently allows the 
summer use of hang-gliders, or para-sails in ski areas? If so, do you 
know where and if not, do you know why not?
    Answer. Yes. NSAA is aware of 7 resorts with para-gliding or hang-
gliding. These resorts include Jackson Hole Mountain Resort in WY, 
Copper in CO, Beaver Creek in CO, Telluride in CO, Snowbird in UT, Mt. 
Bachelor in OR and Steamboat in CO. There are likely additional resorts 
with para-gliding and hang-gliding.
    Question 12. In your mind, how does winter paragliding or hang-
gliding differ from summer paragliding or hang-gliding?
    Answer. It does not.
    Question 13. Do you know if the Forest Service allows back country 
horse back riding in ski areas on Forest Service lands? If so, do you 
know where and if not, do you know why they don't allow it?
    Answer. Yes. NSAA is aware of 9 ski areas with horseback riding. 
Those resorts include Mountain High in CA, Loon in NH, Jackson Hole 
Mountain Resort in WY, Durango Mountain Resort in CO, Vail in CO, 
Kirkwood in CA, Bridger Bowl in MT, Grand Targhee in ID, and Beaver 
Creek in CO. There are likely other resorts that offer horseback 
riding.
    Question 14. Do you know if the Forest Service allows horseback 
endurance rides or events like the Omak Suicide Race in permitted ski 
areas on Forest Service lands?
    Answer. NSAA is not aware of any horseback endurance rides or races 
at resorts. NSAA is not familiar with the Omak Suicide Race noted 
above.
    Question 15. Do you know if the Forest Service currently allows 
paint-ball parks within ski areas on federal lands? If so, do you know 
where and if not, do you know why not?
    Answer. NSAA is not aware of any paint-ball parks within ski areas.
    Question 16. Please help us understand why any of the above listed 
summer recreation activities are that much different than snowboard 
terrain parks (especially the metal rails and jumps that are 
permanently or semi-permanently placed in the snow board terrain 
parks)?
    Answer. The summer and year round recreational facilities that 
resorts desire on NFS lands are no different than the array of 
recreational facilities that resorts provide in winter. They would be 
permanent structures that allow million of recreationists to enjoy the 
national forests in a developed setting.
                                 ______
                                 
       Responses of Joel Holtrop to Questions From Senator McCain
    Question 1. In 2005, the Forest Service approved a proposal to 
install snowmaking infrastructure and other facility improvements at 
Arizona Snowbowl, a ski area permittee in the Coconino National Forest 
which receives about 160,000 visitors annually. Immediately, a 
coalition of American Indian tribes mounted a legal challenge arguing 
that the Forest Service decision violated NEPA, the National Historic 
Preservation Act, and the Religious Freedom Restoration Act. In 2008, 
the Ninth Circuit Court of Appeals ruled in favor of the Forest 
Service, and then in June 2009, the Supreme Court declined to hear the 
case effectively affirming the decision of the lower court.

          a) In order to make the 2010 ski season, construction must 
        begin no later than March 2010. In the meantime, Arizona 
        Snowbowl needs to make equipment purchases and complete 
        engineering plans immediately. What is the status of the 
        Arizona Snowbowl improvement project and when can we expect the 
        Forest Service to issue a ``Notice to Proceed?''
          b) As you know, there is a pending lawsuit in District Court 
        (completely unrelated to Tribal concerns) that alleges the 
        Forest Service didn't properly consider the human health risks 
        associated with the use of reclaimed wastewater in snowmaking. 
        If this case is dismissed or decided in favor of the Forest 
        Service, will the Administration then move forward with the 
        Snowbowl project and if so under what timeline?
          c) That aforementioned lawsuit was filed two months after the 
        Supreme Court action upholding the Forest Service Record of 
        Decision. Why didn't USDA move forward with the ROD during 
        those two months?
          d) Under what statutory authority does the Deputy Secretary 
        have to indefinitely delay a Record of Decision which was 
        approved by the Forest Service in 2005 and upheld by the 
        Supreme Court?
          e) The Forest Service conducted extensive tribal consultation 
        in developing its Record of Decision (41 public meetings, 500 
        phone calls and letters, and local radio and television 
        broadcasts). The R.O.D. provides for a Memorandum of Agreement 
        for tribal notification and consultation as the construction 
        process proceeds. Is it this Administration's position that the 
        laws and procedures established to develop and implement the 
        R.O.D. are inadequate?

    Answer. The Supreme Court's decision to deny the petition to hear 
the case brought against the US Forest Service (FS) brought an end to 
the legal challenge against the FS based on alleged violations of the 
Religious Freedom Restoration Act (RFRA). Neither that decision nor the 
split Ninth Circuit en banc decision required the FS to issue a Notice 
to Proceed
    The Deputy Secretary's authority to review the Forest Service's 
decision flows from the Secretary's authority to supervise and control 
the activities of the Department of Agriculture pursuant to 7 U.S.C. 
2202. Pursuant to 7 C.F.R. 2.15, the Secretary has generally delegated 
his authority to the Deputy Secretary. As general officers of the 
Department, the Secretary and the Deputy Secretary retain authority 
over all delegated functions through 7 C.F.R. 2.12. The Deputy 
Secretary therefore retains the authority to review the actions of 
subordinate officials of the Department.
    Deputy Secretary Merrigan notified Snowbowl in a telephone 
conversation that the FS was moving forward on a part of the ROD on 
November 6, 2009. The FS notified the Tribal Governments concerned 
about the San Francisco Peaks in the Coconino National Forest through 
correspondence on November 19, 2009. In this notice, the FS 
communicated its intent to permit the Arizona Snowbowl ski area 
operator to proceed with the construction of the ``magic carpet 
conveyors'' as requested and approved in the Record of Decision. 
Subsequent to the Deputy's call, local FS personnel have been in 
contact with the ski operator to keep him informed on the consultation 
procedures.
    Other activities in the improvement request are under review due to 
remaining concerns raised by Tribal Government with regards to 
snowmaking. At the request of the tribes, the USDA has spent time 
exploring with the tribes and the operator the possibility of resolving 
the matter. The agency has not set a timeline for going further and has 
respected the request of the parties for time to negotiate. Arizona 
Snowbowl agreed there would be no physical construction this calendar 
year, and indicated that it will not move forward with any ground 
disturbing activity to install a snow making system until at least the 
spring of 2010. Based on these representations by Arizona Snowbowl, 
Plaintiffs agreed to not re-file their motion for a temporary 
restraining order after the case was transferred to another division.
    Question 2. Deputy Secretary Merrigan is or was attempting to 
facilitate discussions for the sale of the ski area by the Navajo 
Nation. My understanding is that this approach was not initiated at the 
request of either party.

          a. Under what authority and by whose direction is the Deputy 
        Secretary promoting these negotiations? Is the Deputy Secretary 
        obligated to delay a ROD at the request of one or more 
        interested parties?
          b. How did the Deputy Secretary determine that the United 
        States is fulfilling its trust obligation by encouraging the 
        Navajo Nation to purchase a ski area that won't be economically 
        viable without artificial snowmaking? Please provide a copy of 
        records or correspondence indicating that the two parties 
        requested a delay in implementing the ROD
          c. Please provide a copy of records or correspondence 
        indicating that the two parties requested Deputy Secretary's 
        involvement.
          d. How will the Deputy Secretary determine when these 
        discussions are no longer fruitful? What guidelines are 
        governing the Deputy Secretary's actions?

    Answer. As noted in the previous answer, the Deputy Secretary 
retains the authority to review the actions of subordinate Department 
officials. In determining alternatives to using reclaimed water for 
snowmaking, the proprietor provided background on efforts made in the 
past. The conservations between the parties over a potential sale pre-
date this Administration. When this history was shared with the Deputy, 
she inquired as to whether there was continued interest by involved 
parties in such a sale and suggested that the parties explore this 
possibility once again. The Department offered mediation but the 
parties did not wish to participate in mediation at that time. The 
Department has a new request from attorneys for the tribes for 
mediation.
    If there were to be a sale, under the Forest Service's special use 
regulations, an operator may transfer ownership of the improvements to 
a successor. The successor is not entitled to a permit and must submit 
an application for a new special use permit pursuant to 36 C.F.R. 
251.59. Part of the requirements of such an application for a new 
special use permit is a demonstration of sufficient evidence that the 
proponent has, or will have, the technical and financial capability to 
operate and maintain the project pursuant to 36 C.F.R. 251.54(d)(3). A 
determination of the ability of any new owner to operate the facility 
would be made at that time.
    Question 3. According to the Justice Department, taxpayers spent 
nearly $1 million defending the Forest Service in court. Arizona 
Snowbowl says it spent about $5 million working through the project 
approval process. How much does the Forest Service estimate it spent to 
complete its Environmental Impact Statement and R.O.D?
    Answer. The operator of the Arizona Snowbowl paid the Environmental 
Impact Statement (EIS) expenses and Forest Service obligation was for 
review of the EIS. The estimated amount of FS money spent on the review 
of the EIS is $754,000.
    Question 4. I'm pleased to see that the Administration supports the 
goals of S. 607, which is to enhance public access to recreational 
opportunities within Forest Service ski areas. However, I'm not 
convinced this legislation does enough to guarantee its objectives if-
like in Snowbowl-this Administration believes a political appointee can 
indefinitely delay government-approved projects upheld by the Supreme 
Court. What assurances do ski area operators have that if S. 607 is 
enacted the Department will actually implement the projects approved by 
the Forest Service?
    Answer. The agency fully supports enhancement of public access to 
recreational opportunities. All proposed expansion and enhancement of 
development projects are done with public input in accordance with the 
process outlined in statute, regulation, the agency manual and 
handbook. Decisions are reached with full compliance of the National 
Environmental Policy Act. This process allows for a thorough analysis 
of environmental impacts and consideration of input by those affected 
by a project. If S. 607 is enacted, the agency will follow all 
applicable rules within it discretion.
    Question 5. The mere presence of Snowbowl on the San Francisco 
Peaks has been opposed by Tribal traditionalists for many years. In 
1979, tribes litigated a Forest Service decision to expand its ski 
lodge on similar religious grounds. There, the Supreme Court ruled in 
favor of the Forest Service.

          a. Does the Administration recognize Snowbowl's right to 
        operate on the San Francisco Peaks?
          b. Does the Administration believe that Records of Decision 
        approving trails, recreational activities, the placement of gas 
        lines, water lines, or utility corridors on the San Francisco 
        Peaks can be delayed or revoked at the request of an interested 
        party or at the discretion of the Deputy Secretary after 
        they've been upheld by the Supreme Court?

    Answer. Currently, the operator of Arizona Snowbowl has a valid 
special use permit to operate the facility in accordance with the terms 
of the permit and applicable law. The litigation resulted in an en banc 
decision by the Ninth Circuit Court of Appeals that principally found 
that the proposed use of reclaimed water for snow making at Arizona 
Snowbowl did not violate the Religious Freedom Restoration Act (RFRA). 
The Supreme Court denied the plaintiffs' petition to review that 
holding. There has been some mischaracterization that these decisions 
mandate the FS to Issue a Notice to Proceed. As noted above, the Deputy 
Secretary retains general supervisory responsibilities over subordinate 
Department employees.
    Question 6. Section 2703.2 ``Denial of Use'' of the Forest Service 
Manual provides guidelines for denying a proposed project.

          a. Does this Administration believe the 2005 Record of 
        Decision is inconsistent with Forest land and resource 
        management plans?
          b. Does this Administration believe the 2005 Record of 
        Decision conflicts with other forest management objectives; or 
        applicable federal statutes and regulations?

    Answer. We do not believe that the 2005 ROD is inconsistent with 
the Coconino Forest plan. However, we note that the Coconino Forest 
plan was originally signed in 1987. Since that time, FS land management 
objectives have changed to reflect a greater degree of consideration of 
sacred sites and relations with tribal governments. Therefore, we 
believe a closer look at the decision as it relates to sacred sites and 
USDA relations with tribal governments was warranted. Moreover, given 
the difficult and challenging position that the Forest Service faces in 
managing its multiple use mandate, it is not atypical for a Record of 
Decision, including the one at issue here, to balance and trade off 
some management objectives against others. Thus, we believe that a 
closer look at the 2005 ROD was warranted in order to insure that the 
decision reflected an appropriate balance of FS management objectives.
    Question 7. I, along with my colleagues Senator Jon Kyl and 
Congresswoman Ann Kirkpatrick, have written Secretary Vilsack to 
request a meeting on this matter. What is the status of that request?
    Answer. In answer to this request for a meeting, Under Secretary 
Jay Jensen, Senior Advisor Doug O'Brien, Acting General Counsel Steve 
Silverman and Congressional Relation staffer Tina 6 May met with Nick 
Matiella of your staff and Lucy Murfitt of Senator Kyl's staff on 
October 26th, 2009. This same group of USDA officials met with 
Congresswoman Kirkpatrick and her staff on November 18th, 2009. Deputy 
Secretary Merrigan met with you in your office on November 30, 2009.
                                 ______
                                 
    Response of Robert G. Stanton to Questions From Senator Barrasso
                  s. 1122--good neighbor forestry act
    Please provide information on all projects completed under the good 
neighbor authority in Utah and Colorado. Please include the location, 
purpose of the project, land ownership, time for completion, and 
federal investment.
    The BLM has one ongoing Good Neighbor Authority project, located in 
and adjacent to the Gold Hill subdivision in Boulder County, Colorado. 
Its purpose is fuels reduction and mitigation. Land ownership consists 
of 122 acres of BLM-managed lands, 27 acres of National Forest System 
lands, and 223 acres of private land. Work on the project is 
continuing, and completion is expected by the end of Fiscal Year 2010. 
Total BLM investment to date is $94,000.
    Some are concerned that collaboration through good neighbor 
authority could short-circuit federal contract rules or processes. 
However, it's my understanding that the good neighbor authority does 
not affect the federal agencies' responsibilities to comply with their 
own regulations on environmental or labor compliance.

    Question 1. ``Isn't it true that in Colorado and Utah, your 
agencies have required states to comply with federal regulations when 
executing subcontracts?
    Answer. Yes, the standards that contractors must meet are set out 
in regulations (43 CFR Part 12.94012.948), which require recipients of 
Federal contracts to comply with all ``applicable Federal statutes and 
executive orders''. The BLM's agreement with the Colorado State Forest 
Service (CSFS) for the Gold Hill project cites these Federal 
regulations: ``The services to be performed by the CSFS may be 
conducted with subcontracts utilizing State of Colorado contract 
procedures or the requirements as outlined in 43 CFR Part 12.940-
12.948.'' The Colorado contract procedures align closely with the 
Federal requirements with respect to codes of conduct, competition, 
procurement procedures, cost and price analysis, procurement records, 
contract administration, and contract provisions. The BLM did not 
impose additional standards.
    Question 2. ``Isn't this part of the Task Order, as explained in 
your testimony?''
    Answer. The BLM's testimony did not discuss the use of task orders, 
since the BLM project was executed under an assistance agreement.
            s. 1442--public lands service corps act of 2009
    Earlier this year the Serve America Act was amended by Public Law 
111-13. It includes extensive authorizations related to national 
service including allowing service groups and groups similar to the 
Public Land Corps to ``rehabilitate national and state parks and 
forests, city parks, county parks and other public lands, and trails 
owned or maintained by the Federal Government, or a State, including 
forest health restoration measures, carrying out erosion control 
measures, fire hazard reduction measures, and rehabilitation of 
historic sites and providing trail enhancements, rehabilitation, and 
repairs:''

    Question 1. Don't you already have the authorization that you need 
in Public Law 111-13 to do everything that is authorized in S. 1442?
    Answer. The Serve America Act (Public Law 111-13) reauthorized and 
expanded programs administered by the Corporation for National and 
Community Service. These programs include Senior Corps, Americorps, and 
Learn and Serve America. The Corporation provides grants and training 
and technical assistance to develop and expand volunteer organizations. 
Public Law 111-13 does not provide the Secretary of the Interior with 
any direct authorities.
    Question 2. If not, please provide the Committee with a specific 
list of provisions within S. 1442 that you feel are lacking in P.L. 
111-13 which was passed on April 21, 2009.
    Answer. S.1442, the Public Lands Service Corps Act of 2009, would 
complement the Serve America Act by strengthening and facilitating the 
use of the Public Land Corps program. This bill would improve federal 
efforts to identify, recruit, hire, and retain, the next generation of 
public land managers and promote the value of public service by 
providing service-learning opportunities on public lands. While we are 
strongly supportive of S. 1442, there are a few areas where we would 
like to suggest some changes and those changes are reflected in our 
October 29, 2009 testimony. Specifically, S. 1442 would:

    --Establish an Indian Youth Corps so Indian Youth can benefit from 
            Corps programs based on Indian lands by carrying out 
            projects that their tribes and communities determine to be 
            priorities;
    --Authorize a departmental-level office at the Department of the 
            Interior to coordinate Corps activities within the three 
            land management bureaus;
    --Require each of the three relevant departments to undertake or 
            contract for a recruiting program for the Corps;
    --Require each of the three relevant departments to establish a 
            training program for Corps members, and identifying 
            specific components the training must include;
    --Identify more specific types of projects that could be conducted 
            under this authority;
    --Allow participants in other volunteer programs to participate in 
            PLC projects;
    --Allow agencies to make arrangements with other Federal, state, or 
            local agencies, or private organizations, to provide 
            temporary housing for Corps members;
    --Provide explicit authority for the establishment of residential 
            conservation centers, and authorize the Secretary to seek 
            the assistance of the Secretary of Energy in identifying 
            and using solar and other green building technologies that 
            may be adapted for these facilities;
    --Authorize agencies to recruit experienced volunteers from other 
            programs to serve as mentors to Corps members;
    --Add ``consulting intern'' as a new category of service employment 
            under the PLC program;
    --Allow agencies to apply a cost-of-living differential in the 
            provision of living allowances and to reimburse travel 
            expenses;
    --Allow agencies to provide job and education counseling, 
            referrals, and other appropriate services to Corps members 
            who have completed their service; and oEliminate the $12 
            million authorization ceiling for the program.
    Responses of Robert G. Stanton to Question From Senator Bingaman
                  s. 1122--good neighbor forestry act
    Question 1. How did the Bureau of Land Management delineate 
potential liability between the State Forester and the Federal 
Government in the master agreements, task orders, and contracts issued 
under the pilot Good Neighbor authority? Were contractors required to 
meet Federal requirements for bonding and insurance?
    Answer. In the Gold Hill assistance agreement, the BLM and the CSFS 
agreed to be responsible for their own acts. All liability (except with 
respect to claims under the Federal Tort Claims Act) is assumed by 
CSFS, per the assistance agreement. The CSFS subcontract includes 
requirements for insurance, to include workers' compensation, employer 
liability, and general commercial liability insurance, in accordance 
with minimum limits set forth in the contract. This neither supplements 
nor contradicts any requirements for insurance or bonding set forth in 
43 CFR Part 12.940-12.948.
   Responses of Robert G. Stanton to Questions From Senator Murkowski
                  s. 1122--good neighbor forestry act
    During the hearing you mentioned the Wyden Authority that allows 
the Forest Service and BLM to expend funds on state and private lands 
to enhance or restore watersheds. You also suggested that you had some 
concerns related to S. 1122 about enforcing the federal government 
requirements on liability and employment law and regulations.
    Question 1a. Do the agencies have the same concerns about the 
implementation of the Wyden Authority as you have with S. 1122? If not, 
why not?
    Answer. No, the BLM does not have such concerns. However, we 
support Good Neighbor Authority, but we believe further study and 
analysis are needed to better understand the interplay of state and 
federal contracting and labor law and regulation before expansion of 
the authority is authorized. The BLM's successful implementation of the 
Wyden authority is based on policy and guidance requiring that all 
projects completed under this authority comply with all applicable 
Federal, state, and local laws and regulations, policies, and permit 
requirements, including the National Environmental Policy Act, Clean 
Water Act, and Endangered Species Act. The BLM's guidance also provides 
for review by the DOI solicitor. In addition, ``hold harmless'' clauses 
to mitigate potential liabilities are generally included.
    Question 1b. What enforcement monitory do the agencies undertake to 
ensure contractors, and sub contractors adhere to federal liability and 
labor standards on work accomplished through the Wyden Authority? 
Please provide written documentation that shows such monitoring has 
occurred on at least ten such contracts per agency?
    Answer. Under the Wyden authority, the BLM is using Cooperative 
Agreements with entities such as states, counties, other Federal 
agencies, and non-governmental organizations, to fund projects 
implemented on non-BLM lands. The BLM does not formally document their 
compliance with applicable Federal employment laws or regulations other 
than specifying in the Cooperative Agreement that the entities must 
comply with all applicable Federal, state, and local laws and 
regulations, policies, and permit requirements.
    Question 2a. The Secure Rural Schools and Community Self-
determination Act of 2000 as amended in 2008 includes provisions in 
Title II that result in funds being utilized to undertake work on 
federal lands using outside contractors. Do the agencies have the same 
concerns about the implementation of the Title II Secure Rural Schools 
and Community Self-determination Act as you have with S. 1122?
    Answer. No, the BLM does not share these concerns. The BLM uses 
both Cooperative Agreements and contracts to implement projects under 
Title II of the Secure Rural Schools and Community Self-Determination 
Act. When using Cooperative Agreements, the BLM's policy and guidance 
require that all projects done under the Title II authority comply with 
all applicable Federal, state, and local laws and regulations, 
policies, and permit requirements, including the National Environmental 
Policy Act, Clean Water Act, and Endangered Species Act. The BLM's 
guidance also provides for review by the DOI solicitor. In addition, 
``hold harmless'' clauses to mitigate potential liabilities are 
generally included. When using contracts, the BLM advertises, awards, 
implements, and administers the contracts using standard BLM 
contracting procedures (43 CFR Part 12.940-12.948).
    Please provide written documentation that shows such monitoring and 
enforcement that has occurred on at least ten such contracts per 
agency?''.Quoting from the previous question, ``monitoring and 
enforcing the federal government requirements on liability and 
employment law and regulations.)
    When the BLM uses Cooperative Agreements for projects done under 
the Title II Secure Rural Schools and Community Self-Determination Act, 
the monitoring and enforcement procedures are the same as described in 
the answer to question lb.
    The BLM's Oregon State Office (ORSO) review of all current/active 
Secure Rural Schools contract files identified six construction 
projects. Each contract file contains certified payrolls and the 
Contracting Officer Representative's (COR's) daily diaries.
    Review of the certified payrolls showed that the contractors 
provided documentation for every pay period in question, for all 
employees working on the six projects. The COR validates names, 
addresses, social security numbers, and wage rates for all employees.
    Review of the COR's daily diaries, which record contract 
compliance, found that none of the daily diaries contain any written 
notes that relate to monitoring and enforcing the federal government 
requirements on liability and employment law and regulations.
    If the COR suspects any questionable or suspicious practices, they 
will notify the Contracting Officer who will in turn notify the 
appropriate regulatory agency (i.e. OSHA, INS, DOL, etc.). For the six 
contract files reviewed, no such concerns were documented.
    Question 2b. The GAO report on Good Neighbor found little to 
complain about. Do you have examples of projects undertaken by the Good 
Neighbor Authority in Colorado that have violated federal labor or 
safety laws or any federal labor contracting requirements?
    Answer. The BLM is not aware of any such examples.
    Question 2c. If you have any project that had these deficiencies 
will you describe the steps the Forest Service or BLM undertook to 
rectify the deficiencies?
    Answer. The BLM is not aware of any such deficiencies in the Gold 
Hills project.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                              America Outdoors Association,
                                   Knoxville, TN, October 27, 2009.
Geraldine Link,
Director of Public Policy, National Ski Areas Association, Lakewood, 
        CO.
    Dear Geraldine: America Outdoors Association is the national 
association of outfitters and guides with members operating in 43 
States. We have a number of State organizations among our affiliates 
and work closely with the Colorado River Outfitters Association.
    You have advised me that an environmental group expected to testify 
on S. 607 in the Senate this week has indicated to you that outfitters 
are opposed to this bill. I believe any general Statement made by any 
such group to suggest that ``outfitters'' are opposed to this bill is 
false. S. 607 provides the statutory authority to enable the Forest 
Service to permit summer uses at ski areas. We understand that ski 
areas have hosted summer activities for decades-some dating back to the 
1960s. I have reviewed the bill briefly and did not find any issues 
with the bill that should create objections among our outfitter 
members. Given the short notice, our executive committee has not had 
the opportunity to approve our support for it. However, we support its 
intent as described above. I have contacted the largest group of 
outfitters in Colorado and I have not heard of any outfitter group of 
significance that is opposed to this legislation. When I have had the 
opportunity to brief our executive committee, we will consider 
providing support for S. 607.
    In the meantime, anyone who States that ``outfitters'' are opposed 
to this bill is not accurately representing the view point of a 
majority of the outfitting industry.
    Thank you for giving us the opportunity to set the record straight.
            Sincerely,
                                            David L. Brown,
                                                Executive Director.
                                 ______
                                 
                Council of Western State Foresters,
                             Society of American Foresters,
                                                  October 27, 2009.
Hon. Jeff Bingaman,
Chairman, Senate Energy & Natural Resources Committee, Washington DC.
Hon. Lisa Murkowski,
Rnk. Member, Senate Energy & Natural Resources, Washington, DC.
    Dear Senator Bingaman and Senator Murkowski: The Council of Western 
State Foresters (CWSF) and the Society of American Foresters (SAF) 
would like to thank you for scheduling a Senate Energy & Natural 
Resources hearing on Senate Bill 1122, the Good Neighbor Forestry Act. 
The intent of Senate Bill 1122 is to expand the use of the `Good 
Neighbor Authority' throughout the western United States. Our 
organizations are supportive of the Good Neighbor Authority (GNA) and 
hope to see its continued and expanded use in the western United 
States.
    The GNA allows State forestry agencies to act as an agent for the 
federal agencies to complete similar or complementary treatments across 
State, federal and private boundaries. This authority was successfully 
piloted in Colorado and Utah where this critical authority leverages 
limited resources for the betterment of healthy forests. Work done 
through this authority has included forest, rangeland and watershed 
restoration and protection services activities such as insect 
treatment, hazardous fuels activities and watershed restoration 
including fish and wildlife habitats. The GNA can also be used to build 
upon other cross boundary opportunities where local interest and 
support exists.
    The GNA is especially important in the western United States due to 
the significant amount of public lands and near-by communities that are 
dependant on our forested landscapes. Working across boundaries, in an 
`all-lands' approach, will become even more important as forestland 
becomes more fragmented, land development in the Wildland-Urban 
Interface increases and climate change continues to impact our 
environment. Collaboration across land ownerships, government agencies 
and communities is the key to success on the ground.
    The intent of the GNA is to allow for complementary forest 
management projects and activities across land ownerships in the West, 
not to bypass federal or State requirements currently in place. It is 
our understanding that concerns of this nature have arisen with the 
current legislative language in S. 1122. Both the SAF and the CWSF 
pledge to work with the Bill sponsors and the Senate Energy & Natural 
Resources Committee to address any concerns with S. 1122.
            Sincerely,
                                     Arthur `Butch' Blazer,
  New Mexico State Forester and Chairman, Council of Western State 
                                                         Foresters.
                                        Michael T. Goergen,
   Executive Vice President and CEO, Society of American Foresters.
                                 ______
                                 
              International Mountain Bicycling Association,
                                       Boulder, CO, March 18, 2009.
Hon. Mark Udall,
Chairman, National Parks subcommittee, U.S. Senate, Washington, DC.
Hon. Richard Burr,
Ranking Member, National Parks subcommittee, U.S. Senate, Washington, 
        DC.
    Dear Mr. Chairman and Ranking Member: The International Mountain 
Bicycling Association (IMBA) supports S. 607, a bill to clarify the 
authority of the Secretary of Agriculture regarding additional 
recreational uses of National Forest System (NFS) lands subject to ski 
area permits. Ski areas and their diverse trail offerings are 
especially important destinations for mountain bicyclists and this bill 
would help further opportunities for our quiet, human-powered activity.
    IMBA is a non-profit educational association, whose mission is to 
create, enhance, and preserve great trail experiences for mountain 
bikers worldwide. IMBA's network includes 35,000 individual members, 
750 bicycle clubs, 150 corporate partners, and 400 bicycle retailers.
    Mountain bikers are passionate about the outdoors. We believe in 
managing public lands as a public trust and as priceless national 
treasures. We seek both serene backcountry experiences and those at 
more developed sites like ski areas. Ski resorts offer a way to 
introduce new cyclists to the sport and start to instill a lifelong 
appreciation for nature and the outdoors. Ski resorts can act as a 
gateway to many other outdoor activities and also offer opportunities 
for competition and the extreme side of the sport.
    According to the National Ski Areas Association, 162 ski resorts 
offer trails open to mountain biking in the summer, including 84 with 
gravity fed, lift-operated trail systems. More and more ski resorts are 
seeing the power of summer mountain bike tourism and turning to IMBA 
and our partner clubs to build and promote trails.
    IMBA has partnered with numerous ski areas around the country to 
improve natural resource conditions and summer visitor experiences. 
IMBA and the USDA Forest Service have had a partnership agreement since 
1994. The memorandum of understanding says, ``When operators of ski 
areas on NFS lands allow summer mountain bicycling on their trails, 
work with those ski areas to implement IMBA's Rules of the Trail, 
trailbuilding and signage guidelines, and management principles.''
    IMBA has led the charge in retrofitting singletrack to reduce 
sedimentation, protect watersheds and vegetation, and encourage 
positive user interactions. Our professional expertise has enabled 
resorts to construct sustainable, environmentally sound trails and 
rehabilitate other routes that are badly eroded. Several ski areas now 
exhibit model trail systems, but many resort trails were originally 
developed without much thought about proven trailbuilding principles to 
protect positive environmental and social qualities.
    Mountain biking has flourished at many ski areas. The multitude of 
cross-country style trails offered at most resorts provide a 
traditional singletrack experience with parking and amenities nearby. 
Ski areas' controlled and mitigated settings are also ideal for 
freeriding, downhill and other extreme mountain biking niches. Further, 
the exercise provided by all forms of mountain biking is especially 
valuable given the current national health crisis.
    Clarifying the appropriateness of summer trail use at ski areas 
will also benefit local economies. Many summer visitors rely on hotels, 
sports retailers, restaurants, and gas stations to provide essential 
tourism and recreation services. Mountain bikers and other trail users 
can help resorts and the local communities sustain a year-round economy 
by improving visitation in traditionally slow summer months. Research 
supports this assertion. A recent study in British Columbia found the 
Whistler Ski Resort Bike Park contributes $18.8 million Canadian 
dollars to the local economy (Western Canada Mountain Bike Tourism 
Association, 2007) each summer season. Throughout the larger Vancouver 
area, the study concludes, ``mountain bike trail systems of the Sea to 
Sky region attract significant numbers of visiting riders to the host 
communities and cumulatively generate a significant economic impact in 
the region.'' The authors believe ``the level of economic impact is 
dependant on whether or not trails are authorized and offer some long 
term certainty for both public and commercial use.'' Ski areas offer 
this sanctioned riding experience that can drive local economies.
    Thank you for introducing S. 607 to clarify the important and 
beneficial role of summer recreation at ski areas. IMBA hopes the 
committee will move the bill and work towards final passage.
            Sincerely,
                                                 Jenn Dice,
                                       Government Affairs Director.
                                 ______
                                 
    Statement of Craig Obey, Senior Vice President, National Parks 
                  Conservation Association, on S. 1442
    Mr. Chairman, and members of the subcommittee, I am Craig Obey, 
senior vice president for Government Affairs of the National Parks 
Conservation Association (NPCA). The nonprofit National Parks 
Conservation Association, founded in 1919, serves as the leading 
citizen voice of the American people on behalf of our national parks. 
It is a privilege to express, on behalf of our 320,000 members, our 
strong support for S. 1442, the Public Lands Service Corps Act of 2009.
    I want to begin by first thanking Chairman Bingaman for introducing 
this important bipartisan legislation. S. 1442 seeks to benefit our 
national parks and other public lands by unleashing the spirit and 
energy of committed Americans who, working with their government and 
non-profit organizations, can help our nation capitalize on the 
potential for our national parks to produce significant civic benefits, 
stimulate local economies, educate Americans about our shared heritage, 
and protect our national treasures for the use and enjoyment of our 
children and grandchildren.
    The Act builds upon the Public Land Corps Act of 1993 by 
facilitating valuable new service-learning opportunities, enhancing 
mechanisms to help restore the nation's natural, cultural, 
archaeological, recreational, and scenic resources, providing for the 
training of a new generation of public land managers and enthusiasts, 
and by promoting the value of community and national service. S. 1442 
complements the GIVE Act and Serve America Act, passed earlier this 
year by Congress and signed into law by President Obama, which includes 
a Clean Energy Corps that will work in partnership with the Public 
Lands Service Corps.
    NPCA has called for the creation of a new National Parks Service 
Corps in order to foster additional national and community service in 
our national parks and help ready the national parks for another 
century of service to our nation and the world. S. 1442 responds to and 
expands this vision to include all Interior and National Forest-managed 
lands, and areas under the jurisdiction of the National Oceanic 
Atmospheric Administration. The legislation rounds out the expansion of 
national and community service under the GIVE and Serve America Acts 
with a robust commitment to service that would help the National Park 
Service to address the needs of our national treasures and would foster 
stronger connections between national parks, visitors, and our national 
community.
   enhanced service opportunities help address critical economic and 
                              social needs
    These are challenging times for our National Park System and our 
country. This subcommittee is well aware that an annual operating 
shortfall, estimated at nearly $700 million, and a maintenance backlog 
of approximately $9 billion, continue to undermine the ability of 
national park managers to protect the natural and cultural resources in 
their charge. We have begun to make some progress in the last couple 
years, but there remains much more to do. Furthermore, as our troubled 
economy staggers, unemployment rates are continuing to rise.
    In September, nationwide unemployment reached 9.8 percent, with 
youth unemployment at 21%. Unemployment rates for African-American 
youth hover around 39%, with rates for Hispanic and Latino youth at 
about 25%--both up 7 points from February 2008. Unemployment rates for 
college graduates are increasing significantly, as they are with 
Americans over age 55. National service cannot cure these problems. 
However, the tight job market, coupled with the president's call for 
people to serve, is already creating tremendous demand for meaningful 
service opportunities, and S. 1442 can provide such opportunities in a 
manner that helps address continuing, significant needs on our public 
lands. Such levels of unemployment remind us of the days of the Great 
Depression, when Franklin Roosevelt created the Civilian Conservation 
Corps to marry two destabilized resources--young men out of work and 
school and diminished natural resources on our public lands and in 
agriculture.
    S. 1442 would also create a grant program to support an Indian 
Youth Service Corps that would work on projects deemed to be a priority 
by Tribal leaders in majority Indian communities. American Indian youth 
have a higher predisposition to drop out of AmeriCorps style programs 
thus failing to gain the full training, experiences, and benefits that 
graduates receive. An Indian Youth Service Corps would provide American 
Indian youth with the same chance to serve, learn, and succeed, but do 
so within a more familiar and supportive cultural context.
    In tough economic times, our nation has mobilized millions of 
people to conserve and protect its most vital resources, producing 
lasting benefits for society and providing individuals with 
opportunities and new skills. The Public Lands Service Corps can do 
this and more, by employing people from the most vulnerable sectors of 
our economy in jobs that would enhance their future employability, 
invigorating them with an enhanced sense of civic pride, and supporting 
President Obama's call for people to serve.
  american public supports service in our national parks, public lands
    The American people are ready for this kind of commitment. 
Americans strongly support our national parks, and want to play an 
active role in their protection. In fact, an extensive poll by Peter D. 
Hart Research Associates and McLaughlin & Associates, which NPCA 
commissioned in 2008 and re-confirmed after the economic downturn, 
found that more than four in five voters believe that it is important 
for the federal government to protect and support national parks and 
national historic places. That poll also found significant concern 
about the failure of funding of our national parks to keep up with 
what's needed, the shortage of needed staff at parks and historic 
sites, and the need to be sure parks could serve school groups. 
Finally, it showed that more than 1 out of every 3 Americans are 
motivated to roll up their sleeves and get involved-a tremendous 
finding for a poll of this type, and one that shows the continuing 
affection of our society for our national treasures.
    NPCA has called for the addition of at least 10,000 new, full-time 
equivalent service positions to be devoted to work in our national 
parks within the next few years, through an expansion of the Public 
Land Service Corps and through a cooperative agreement between the 
Department of the Interior and the Corporation for National and 
Community Service. S. 1442 broadens this vision to also include other 
public lands, and we support that breadth so as to provide a broader 
geographic distribution of service opportunities and to help address 
needs and opportunities on all public lands.
    service in public lands improves individual lives, communities, 
                           national heritage
    NPCA believes that service legislation relating to our national 
parks should focus on five basic principles: (1) addressing resource 
protection and fiscal needs in the parks; (2) enhancing multi-
generational service opportunities; (3) building strong community 
partnerships; (4) developing the next generation of National Park 
Service and Federal land management agency leadership; and (5) a strong 
emphasis on cultural, historic, and civic impacts. S. 1442 takes 
important steps to address each of these priorities, and we have 
several modest suggestions to make it even stronger.
    With the addition of significantly more service employment 
opportunities in national parks, along with supervisory capacity for 
the National Park Service, we can make genuine headway on a variety of 
maintenance and conservation-related projects. For example, service and 
volunteerism are ideally suited to projects designed to eradicate many 
invasive species, replant native vegetation, and control erosion. The 
human power brought to bear under the Civilian Conservation Corps in 
the 1930s, when CCC participants planted over 3 billion trees and built 
over 97,000 miles of roads in national parks and on public lands 
throughout the nation, provides a compelling example. Service Corps 
members can rehabilitate campgrounds and deteriorating structures 
throughout the National Park System, renovate and help maintain 
historic sites, and help conduct natural and cultural resource 
management, science and research projects. In addition, the Act 
provides an important focus on marine resources and climate change.
    S. 1442 expands the potential duration of service corps 
participation to up to two years. By lengthening the term of service 
the Public Lands Service Corps maximizes the ability of the National 
Park Service, and other Federal land management agencies, to make a 
significant investment in training and reap the benefits that come from 
fielding a highly motivated, knowledgeable workforce. In addition, 
trained service corps participants can help leverage additional 
volunteerism by helping Federal land management personnel coordinate 
the activities of traditional volunteers. Both the GIVE Act and its 
Senate counterpart, the Serve America Act, were designed to foster 
long-term, non-episodic service work, and S. 1442 falls squarely in 
line with those efforts.
    The benefits of extended terms of service will also have a positive 
impact on corps members. The longer individuals serve, the more highly 
trained they may become. Service corps participants will receive 
training, mentoring, and undergo on-the-job experiences that are 
generally not afforded to short-term or seasonal volunteers. They will, 
as a result, become a more effective and efficient workforce, and gain 
valuable knowledge, skills, and abilities that will enhance future 
employability.
    Most of the service providing organizations, including the Student 
Conservation Association (SCA) and the Corps Network, have excellent 
track records in recruiting, managing, training, and fielding service 
workers for long-term, often residential service details, and they are 
familiar with the conservation ethic and management policies and 
practices of the Federal land management agencies with whom they 
partner. Long experience has taught these organizations the value of 
creating sustainable, scalable programs that can be ramped up or pared 
down as need be, without generating a costly new layer of bureaucracy. 
These organizations are battle-tested and ready to go.
    It is hard to overemphasize the effect service can have on the 
lives of those who undertake it, not to mention the people and 
resources who directly benefit from it. The youth of today are in 
danger of becoming the most disconnected generation from nature in our 
history as a nation. They are not benefiting from the magic of national 
parks and other natural areas that comes from experiencing them first-
hand. There are many reasons for this: over-scheduling of activities, 
economics, the decline in the time families have to travel, lack of 
outside play, and more. But when young people are given an opportunity 
to work in a park, they develop a very deep sense of ownership and 
connection to that place, to other national parks, and to the natural 
world, as well as experience many other benefits.
    Nearly 170,000 people volunteer to work for the Park Service each 
year. The hours these individuals give and the contributions they make 
are of an invaluable service to our national parks, and yield 
tremendous pride and connectedness to our parks and to our country. 
Yet, when parks lack sufficient funding, they often find themselves 
without the staff to recruit, train, and manage volunteers. Leveraging 
additional volunteer support and engagement is exactly the kind of 
utility that Public Lands Service Corps members, once trained, could 
bring to the National Park Service, the Forest Service, and NOAA. 
Nonetheless, capitalizing on such leveraging opportunities will require 
that parks and other public lands have funding and support personnel 
sufficient to foster and manage additional Corps member engagement.
    One way to augment this capacity, and an opportunity for enhancing 
S. 1442, relates to so-called ``experienced Americans.'' S. 1442 
attempts to get at this through a new mentorship authorization, which 
we strongly support. Encouraging older Americans like Volunteers in 
Parks, military retirees and veterans to help train service corps 
members and lead crews will tap the know-how of many thousands of able 
individuals who have much to contribute. However, we believe the 
mentorship provision could prove even more valuable if it is slightly 
broadened. By further tapping into the knowledge and abilities of older 
Americans, S. 1442 can significantly enhance the capacity of national 
parks and other public lands to harness the power of service, and the 
training younger participants receive. Attached at the end of my 
testimony is a suggested amendment that can help achieve this.
    AARP recently commissioned a report, entitled More to Give, which 
details the tremendous untapped potential of older Americans for 
service. An extensive survey of 44-79 year olds, whom the survey dubbed 
``experienced Americans'', found that ``55 percent believe they will 
leave the world in worse condition than they inherited it, while only 
20 percent believe they are leaving the world in better condition.'' It 
also found that those most engaged in volunteer work feel more 
optimistic about the future. The survey also found that financial 
wherewithal can be an important barrier to some older Americans serving 
as volunteers.
    As is the case with youth, stipends can enable older Americans to 
serve. In addition, according to the survey, ``more than half of all 
Experienced Americans (51 percent), including 55 percent of Baby 
Boomers, said that education awards they can earn and give to a child 
in exchange for significant levels of volunteer service would have a 
big or moderate impact on their participation in volunteer 
activities.'' Such incentives were particularly appealing to Hispanics 
and African-Americans.
    As a consequence, the GIVE and Serve America Acts authorized a 
transferable education award for older Americans who participate in 1-
year ``Encore Fellowships'' to carry out projects in areas of national 
need. Fellowships go to individuals 55 and older who engage in full-or 
part-time service in the nonprofit sector or government, and are 
designed to capitalize on the additional skills set and experience that 
participants have to offer. NPCA believes that the Public Lands Service 
Corps Act should encourage greater participation among older Americans, 
including eligibility for Encore Fellowships or some other means of 
making transferable education awards available to them, which they can 
use themselves or transfer to a grandchild.
    The existing law already provides for AmeriCorps education awards 
in approved Public Land Corps positions. The addition of an Encore-like 
provision would ensure that the Public Lands Service Corps tracks the 
opportunities that are being made available in other national volunteer 
programs. Importantly, the More to Give survey showed ``volunteer 
senior ranger'' to be among the most popular volunteer activities for 
Experienced Americans. When asked what kind of service they would like 
to do, millions of Experienced Americans chose serving in our national 
parks.
    The Public Lands Service Corps Act clearly contemplates valuable 
service learning opportunities-an emphasis NPCA strongly supports. 
Nonetheless, we would also like to see this role further emphasized. 
Providing for greater participation of experienced Americans, together 
with the creative deployment of younger participants, creates 
additional opportunity to enhance service learning capacity and 
opportunities in national parks. For example, the service corps should 
be expected to foster the greater use of service-learning projects 
linked to classroom learning in history, biology and civics.
    While the authorization contemplates a preference for service 
learning activities, it should be made clear that such efforts are a 
central purpose of the service corps, in addition to its important 
resource protection and restoration mandates. In addition, the law can 
provide for greater use of service corps participants in serving the 
public. While NPCA agrees that individuals without sufficient training 
should not be providing interpretation that should be provided by 
experts, it is important to provide a reasonable measure of flexibility 
in appropriate circumstances.
    NPCA also believes that the bill's well-intended restrictions on 
how service corps participants can engage in interpretation-related 
activities go too far. We agree that interpretive programs should be 
conducted by trained professionals, and we support the bill's reference 
to properly supervised corps members providing orientation and 
information services, and playing other appropriate interpretive roles. 
Something that is not apparent from the language of the bill, however, 
is the degree to which service corps members would be authorized to 
reach out to schools and afterschool and youth-serving community-based 
organizations, provided they are properly supervised. Several modest 
amendments related to interpretation opportunities are also included at 
the end of my testimony.
    Clearly, there is no substitute for trained Park Service personnel. 
However, the service corps can do more to augment that capacity. Some 
older members of the corps may very well have training that could be 
capitalized upon, rather than artificially restricted. In addition, by 
expanding the breadth of participation for older Americans in this 
area, S. 1442 could further enhance capacity and service. In addition, 
we suggest that the bill be amended to encourage the use of 
appropriately trained service corps members for multilingual services 
to visitors and outreach to diverse communities.
    Among the most important elements of the Public Lands Service Corps 
for the National Park Service is its placement and training provisions. 
First, as the organization that worked to initiate business planning 
within the national parks in the late 1990s, we are very pleased to see 
the consulting intern provision, which placement of graduate students 
to continue that program, which is now run through a partnership 
between the National Park Service and the Student Conservation 
Association. Well-trained consulting interns can provide useful 
assistance in areas beyond business planning as well, given the 
increasing demand for highly technical work in a variety of fields 
within the National Park Service.
    Second, the Park Service needs to ensure that retiring personnel 
are replaced with individuals from diverse racial and ethnic 
backgrounds, in order for the parks to adequately reflect the true face 
of America. The Act provides an important means to diversify the ranks 
of the National Park Service by recruiting and training individuals 
from a variety of backgrounds. The Act requires the National Park 
Service and other federal agencies to augment the training corps 
participants receive from nonprofit partners with appropriate training 
in resource stewardship, health & safety, ethics for public service, 
teamwork and leadership, and interpersonal communications. Corps 
members would also receive instruction about the agency's core values, 
history, and standards for natural and cultural resource preservation. 
NPCA wholeheartedly supports these training provisions, as well as 
providing noncompetitive hiring status for up to two years after 
completion of service for qualified candidates. We do suggest, however, 
that the bill be clarified to ensure the contemplated training 
requirement, in fact, augments rather than replaces the other high 
quality training participants receive.
    Finally, we are pleased that S. 1442 increases the prominence of 
service work related to historic and cultural resources. NPCA strongly 
believes that national service in our national parks should be 
sufficiently broad to encompass the tremendous civic, historical, and 
scientific resources and learning opportunities that our national parks 
have to offer. S. 1442 makes it clear that projects related to history 
and culture should have a prominent role in service corps efforts, 
including historical and cultural research, museum curatorial work, 
oral history projects and other cultural and historic preservation 
activities. In light of the significant backlog of archival work in the 
National Park System, we also suggest adding ``archival work'' to the 
list of referenced activities. In addition, we suggest that the bill be 
modified to refer to the ``heritage'' mission of the National Park 
Service, in addition to the ``public lands'' mission.
    Mr. Chairman, the end of my written testimony includes several 
specific recommendations related to the issues I have raised, for the 
benefit of the committee. NPCA again wishes to thank you for 
introducing this important legislation, and to offer our assistance as 
the bill moves through the legislative process. Thank you once again 
for the opportunity to submit testimony in support of the Public Lands 
Service Corps Act of 2009.
                        specific recommendations
  <bullet> Purpose Section: Section 202(b)--strike ``land management 
        agencies'' at the end of paragraph (5) and insert ``agencies 
        responsible for management of the Nation's natural, cultural, 
        historic, archaeological, recreational, and scenic resources;''
    --Rationale: The agencies in question are not mere land management 
            agencies. Their missions are much broader, and in some 
            cases are actually marine, not land, in nature. This 
            language more accurately describes the missions of the 
            agencies involved.
  <bullet> Purpose Section: Section 202(b): amend the new sixth 
        sentence to read ``promote public understanding and appreciate 
        of the individual missions of natural and cultural resources 
        conservation work of the Federal agencies through training 
        opportunities, community service and outreach, and other 
        appropriate means; and''
    --Rationale: This language better explains the mechanisms through 
            which the Act will promote such understanding; public 
            understanding should reflect the complex missions of many 
            agencies in question.
  <bullet> Section 204(e)(1)(E): include ``cultural and historic 
        sites'' rather than only historic sites
  <bullet> Interpretation: Section 204(e)(3)--revise the Interpretation 
        provision in S. 1442 to read:
    --``(3) INTERPRETATION.--The Secretary may assign Corps 
            participants to provide interpretation or education 
            services for the public under the appropriate direction and 
            supervision of agency personnel, including-
            ``(A) providing orientation and information services to 
        visitors, including services for non-English speaking visitors 
        and visitors who use American Sign Language;
            ``(B) assisting agency personnel in the delivery of 
        interpretive or educational programs, including outdoor 
        learning and classroom learning;
            ``(C) presenting programs on Federal lands or at schools, 
        after-school programs, and youth-serving community programs 
        that relate the personal experience of the Corps participant 
        for the purpose of promoting public awareness of the Corps, its 
        role in public land management agencies, and its availability 
        to potential participants; and
            ``(D) creating nonpersonal interpretive products, such as 
        Web site content, Junior Ranger program books, printed 
        handouts, and audiovisual programs.''.
    Rationale: The language in S. 1442 is too restrictive to leverage 
            the full measure of appropriate assistance Corps members 
            can provide in interpretation, including assistance with 
            multilingual services, and community outreach. This 
            amendment continues to ensure appropriate supervision of 
            Corps members while allowing for more creative engagement 
            of their talents.

    Mentors: Add the following amendments regarding experienced 
Americans:

  <bullet> Sec 202(b)--add Purpose--capitalize on the ability of older, 
        experienced Americans to engage as mentors and otherwise use 
        their talents to strengthen agency stewardship capacity on 
        public lands;
  <bullet> Section 204(b)--Separate into two paragraphs. The existing 
        paragraph (b) ``Participants'' becomes (b)(1).

    Add new paragraph (b)2: ``(2) Notwithstanding the age limitations 
of (1) above, the Secretary may authorize participation in the corps by 
participants in an encore service program under section 101 of Public 
Law 111-13 (42 USC 12501, et seq), using such criteria as the Secretary 
may develop.

                  Alternative: simply change the age criteria to read 
                ``16 and above''.

  <bullet> Sec 205(f) Mentors: after ``agency volunteer programs, `` 
        insert, ``encore service programs,''. Alternative: ``other 
        appropriate federally funded service or volunteer programs'' In 
        addition, the list of activities engaged in by mentors should 
        be expanded to include ``volunteer coordination'' in addition 
        to training, mentoring, crew-leading services.

    Rationale: Together these provision would authorize, but not 
require, the use and participation of Encore participants or other 
experienced Americans to augment capacity to train, mentor, and 
leverage greater assistance by Service Corps participants. This tool 
should be at the Secretary's disposal. Serve America included a 10% 
set-aside for Encore Service Programs (something we do not propose 
here), which are defined as programs carried out by an eligible entity 
that: (A) involve a significant number of participants age 55 or older 
in the program; and (B) take advantage of the skills and experience 
that such participants offer in the design and implementation of the 
program. The Encore authorization enacted in Serve America is 
specifically designed to provide Americans 55+ with opportunities to 
serve in areas of high need in return for a stipend and education 
award. Education awards may be transferred to children, grandchildren, 
etc, and participants may serve full-or part-time. It also provides for 
Encore Fellowships, which place Americans 55+ in one-year management or 
leadership positions in nonprofit and government sector areas where 
there is ongoing high demand. The fellowships help facilitate mid-
career shifts, and could help NPS and other agencies meet needs for 
highly trained individuals in certain areas. One example of an option 
for using Encore participants or comparable experienced Americans would 
be for parks to tap them as volunteer coordinators in the parks (and 
other public lands). That would better enable parks to capitalize on 
the provisions in Serve America under the Clean Energy Corps that 
authorize activities such as renewing, rehabilitating or otherwise 
carrying out projects in national parks. Training would be another area 
of potential. But this amendment would leave the decision for how/
whether to use Encore participants completely to the Secretary's 
discretion.
                                 ______
                                 
 Statement of Jacqueline Ostfeld, National Youth Representative of the 
                         Sierra Club, on S.1442
    Mr. Chairman, thank you for the opportunity to submit testimony on 
the benefits afforded both youth and the environment from public 
service and outdoor environmental education. My name is Jacqueline 
Ostfeld and I am the National Youth Representative for Sierra Club's 
Building Bridges to the Outdoors (BBTO) program. BBTO was established 
in 2006 to advance opportunities for underserved youth to experience 
the great outdoors and give back to their local communities through 
environmental service projects. In 2008, BBTO funding directly opened 
doors for more than 70,000 youth from low-income and minority 
backgrounds across the country to get outside. Thousands of these youth 
participated in service learning projects. BBTO's public education and 
outreach efforts indirectly create opportunities for more young people 
to engage in direct nature experience and to give back to their 
communities.
    While Sierra Club's BBTO program works with numerous partners 
across the country, I would like to give special recognition to the 
efforts of the Rocky Mountain Youth Corps (RMYC) of Taos, New Mexico 
and the Boys & Girls Clubs of Chicago for their remarkable service to 
youth and the nation's public lands. RMYC ``recognizes and engages the 
strengths and potential of youth through team service in the schools, 
the communities, and the landscapes of northern New Mexico. RMYC is a 
stepping stone to new opportunities.'' The Youth Corps engages and 
employs diverse young adults in conservation work, provides educational 
opportunities for youth and promotes an ethic of service to communities 
and the environment. In the last two years, BBTO funding has expanded 
the RMYC to serve over 300 at-risk and low-income youth in northern New 
Mexico, training them to build trails on Forest Service land, remove 
invasive species on BLM land, manage forest fires and become the next 
generation of environmental stewards. The Corps' innovative juvenile 
justice program combines service learning and classes to give youth 
offenders another chance to prove themselves. These programs give youth 
access to work experience that translates into real jobs on our public 
lands.
    Sierra Club's BBTO program also has been partnering with the Boys & 
Girls Clubs of Chicago (BGCC) for over four years. Each year, BBTO 
works with the local Sierra Club chapter and our Inner City Outings 
program to provide at least 100 BGCC youth with meaningful outdoor 
environmental education experiences, including an annual trip to the 
Indiana Dunes National Lakeshore. As the partnership has grown over the 
years, youth participants have begun to engage in environmental service 
projects in the Forest Preserve District of Cook County in and around 
Chicago. In an effort to restore the ecological health of the local 
prairie, savanna and woodlands, BGCC youth remove invasive species, 
collect and disperse native seeds, pick up trash and maintain trails. 
In doing so, they learn about the science of restoration and community 
ecology and plant biology. With 68,000 acres, the Forest Preserve 
District's mission is to maintain healthy ecosystems for the benefit of 
humans and wildlife. Restoring the ecological health of the Preserves 
benefits native wildlife, including many threatened and endangered 
species, and gives inner-city youth a new sense of purpose.
Testimony of BGCC youth participant, Tatiana Washington

          Going on the trip to LaBagh [Forest Preserve] was one the 
        best experiences that I had nature wise. I learned so much 
        about little things that we don't really pay that much 
        attention to in everyday life and those little things are big 
        matters to plants and animals when they aren't taken care of. 
        As Keystone members, we are expected to be role models and to 
        set examples for the younger children, and by taking the time 
        out to give back to Mother Nature, I think we set the ultimate 
        example.

    Over the years, Sierra Club has worked hard to educate the American 
public about the importance of reconnecting children with nature and 
developing youth leaders. Studies show that too much screen time may 
lead to poor school performance\1\ and increases in aggressive, violent 
and high-risk behaviors.\2\ Research has also linked television 
exposure to attention deficit disorders\3\ and obesity.\4\ Richard Louv 
describes this emerging phenomenon, whereby children today spend less 
time outdoors than at any point in human history, in his best-seller 
Last Child in the Woods. Louv coined the term ``Nature Deficit 
Disorder'' to describe the detrimental effects that too much time 
indoors are having on children and adolescents.\5\
---------------------------------------------------------------------------
    \1\ Sharid, Iman and James D. Sargent. ``Association between 
television, movie, and game exposure and school performance.'' 
Pediatrics. American Academy of Pediatrics. V. 118, n. 4: October 2006. 
Pgs. 1061-1070. (Retrieved on June 2, 2008 from http://
www.pediatrics.org/cgi/content/full/118/4/e1061).
    \2\ Villani S. ``Impact of Media on Children and Adolescents: a 10-
year Review of the Research.'' Journal of the American Academy of Child 
& Adolescent Psychiatry. V. 40, n. 4: April 2001. Pgs. 392-401. (need 
to get copy of complete study: http://www.ncbi.nlm.nih.gov/pubmed/
11314564)
    \3\ Christakis, Dimitri A. et al. ``Early Television Exposure and 
Subsequent Attentional Problems in Children.'' Pediatrics. V. 113, n. 
4: April 2004. Pgs. 708-713. (Retrieved June 5, 2008 from http://
www.pediatrics.org/cgi/content/full/113/4/708).
    \4\ Gortmaker, SL et al. ``Television viewing as a cause of 
increasing obesity among children in the United States, 1986-1990.'' 
Archives of Pediatrics & Adolescent Medicine. V. 150, n. 4: April 1996. 
Pgs. 356-62. (need to get full study http://www.ncbi.nlm.nih.gov/
pubmed/8634729)
    \5\ Louv, Richard. Last Child in the Woods: Saving Our Children 
from Nature Deficit Disorder. Algonquin Books of Chapel Hill: 2006.

     Emerging studies find that when children and youth spend more time 
outdoors, in green spaces, they experience reductions in the symptoms 
of attention deficit disorders\6\ and are more physically fit than 
their sedentary peers. Since the BBTO program emerged, Sierra Club has 
been working tirelessly to address Nature Deficit Disorder by getting 
youth outdoors. In 2005, Sierra Club worked with the California 
legislature to support research into the impacts of outdoor 
environmental programming on at-risk youth. The findings, published in 
Effects of Outdoor Education Programs for Children in California by the 
American Institutes for Research, showed that children who participated 
in residential field experiences improved their motivation to learn, 
problem-solving skills, cooperation, science scores and environmental 
behaviors.\7\
---------------------------------------------------------------------------
    \6\ Kuo, Frances E. and Andrea Faber Taylor. ``A Potential Natural 
Treatment for Attention-Deficit/Hyperactivity Disorder: Evidence from a 
National Study.'' American Journal of Public Health. V. 94, n. 9: 
September 2004. Pgs. 1580-6. (Retrieved June 2, 2008 from http://
www.ajph.org/cgi/reprint/94/9/1580.pdf). pg. 1582
    \7\ American Institutes for Research. ``Effects of Outdoor 
Education Programs for Children in California.'' American Institutes 
for Research. January 2005. (Retrieved May 29, 2008 from http://
www.sierraclub.org/youth/california/outdoorschool_finalreport.pdf).
---------------------------------------------------------------------------
    The Public Lands Service Corps Act of 2009 will expand 
opportunities for youth to engage in meaningful conservation projects 
and to get outside. It will provide more youth with skills, employment 
and leadership experience which will not only help them participate in 
the coming green economy, but to succeed in it. Sierra Club appreciates 
the opportunity to provide testimony on the benefits of service-
learning and outdoor environmental education for today's underserved 
youth. Sierra Club strongly supports this legislation.
                                 ______
                                 
                Statement of the Sierra Club, on S. 1442
    On behalf of our millions of members and supporters nationwide, we 
urge you to support the Public Lands Service Corps Act of 2009, S. 
1442. We, the undersigned organizations, represent members of the 
education, environmental, service, preservationist, recreation, Indian, 
Latino and business communities. The Public Lands Service Corps Act 
would help restore our Nation's natural and cultural resources by 
increasing service opportunities for youth and young adults on public 
lands.
    A modernized Public Lands Service Corps would improve opportunities 
for youth and young adults, particularly those from underserved 
communities, to gain valuable job skills and spend time working 
outdoors while providing much-needed services on our Nation's public 
lands. The bill would also lay the groundwork for a new and diverse 
generation of public land visitors and managers.
    S. 1442 would expand opportunities for young people to spend time 
outdoors. On average, American teenagers are spending about two and 
half hours per day watching television or surfing the internet and only 
six minutes each day engaged in outdoor activities. Contact with nature 
has been shown to improve academic and behavioral performance. Time 
outside has also been found to alleviate symptoms of attention deficit 
disorders, decrease stress levels among youth and improve vision. Youth 
who get outside and limit their screen time are also more physically 
fit than their peers.
    The Public Lands Service Corps Act would prepare youth and young 
adults for green jobs. As our nation moves towards a green economy, 
with more than half of the near future job growth coming from 
Environmental-Related Occupations, according to a recent projection by 
the White House Council of Economic Advisors, it is critical that we 
provide young people with the training they need to fully participate 
in the 21st Century workforce. Not only does S. 1442 provide entry-
level employment opportunities and job training for youth and young 
adults, service to the Corps will better qualify participants for 
future careers in public land management.
    S. 1442 would also authorize activities that would improve 
infrastructure, restore our public lands, encourage cultural and 
historical research, improve the health of coastal, marine and 
estuarine ecosystems, address climate change and assist with scientific 
data collection. Furthermore, the Public Lands Service Corps Act will 
instill in a new generation an appreciation for natural and cultural 
resource stewardship and public service.
            Sincerely,

            National and Regional Organizations

          American Camp Association; American Recreation Coalition; 
        Center for Desert Archaeology; Chesapeake Bay Foundation; 
        Coalition of National Park Service Retirees; The Corps Network; 
        Green For All; Hispanic Federation; Labor Council for Latin 
        American Advancement, LCLAA; National Education Association; 
        National Indian Youth Leadership Project; National Marine 
        Sanctuary Foundation; National Park Hospitality Association; 
        National Park Trust; National Parks Conservation Association; 
        National Puerto Rican Coalition; National Trust for Historic 
        Preservation; National Wildlife Federation; Natural Resources 
        Defense Council; NatureBridge; Partnership for the National 
        Trails System; The Outdoor Foundation; Outdoor Industry 
        Association; REI; Sierra Club; Southwest Conservation Corps; 
        Student Conservation Association; The Wilderness Society.

            State and Local Organizations

          Bosque Ecosystem Monitoring Program (New Mexico); Boys & 
        Girls Clubs of Chicago (Illinois); The Coalition for the 
        Northeast Ecological Corridor (Puerto Rico); Florida Wildlife 
        Federation (Florida); Fresno Local Conservation Corps 
        (California); Girl Scouts of Northern California (California); 
        Hands Across Cultures (New Mexico); Los Angeles Conservation 
        Corps (California); Muddy Sneakers: The Joy of Learning Outside 
        (North Carolina); Minnesota Conservation Corps (Minnesota); 
        North Cascades Institute (Washington); O'Neill Sea Odyssey 
        (California); River Source (New Mexico); Rocky Mountain Youth 
        Corps (New Mexico); Southwest Alaska Guidance Association 
        (Alaska) Southwest Youth Services (New Mexico); Talking Talons 
        (New Mexico); Vecinos del Rio (New Mexico); Vermont Youth 
        Conservation Corps (Vermont); Washington State Child Care 
        Resource & Referral Network (Washington); The Wellness 
        Coalition Youth Corps (New Mexico); Wilderness Arts and 
        Literacy Collaborative (California).
                                 ______
                                 
Statement of Michael Anderson, Senior Resource Analyst, the Wilderness 
                          Society, on S. 1122
                         summary of legislation
    S. 1122, the ``Good Neighbor Forestry Act,'' would allow State 
foresters to undertake a variety of forest and rangeland management 
activities on U.S. Forest Service and Bureau of Land Management lands 
in the West through ``Good Neighbor'' contracts and cooperative 
agreements. Good Neighbor authority could be used for a variety of 
``restoration and protection services'' such as removing insect-
infested trees and reducing hazardous fuels. The bill would permit the 
State foresters to subcontract those services to private companies and 
would exempt Good Neighbor projects from certain timber sale 
contracting requirements of the National Forest Management Act. 
Projects implemented by the States through cooperative agreements would 
also be exempt from federal contracting laws, including federal wage 
and liability requirements. However, the Forest Service and BLM would 
still be responsible for making project decisions under the National 
Environmental Policy Act. Under S. 1122, the Good Neighbor authority 
would apply to National Forest System and BLM lands in all of the 
western States and would last for 10 years.
                               background
    Congress first provided Good Neighbor authority to the Forest 
Service in Colorado on a four-year trial basis through a legislative 
rider to the FY 2001 Interior Appropriations Act.\1\ The Colorado bill 
was similar to S. 1122, except that it was limited to situations ``when 
similar and complementary watershed restoration and protection services 
are being performed by the State Forest Service on adjacent State or 
private land.''\2\ S. 1122, on the other hand, would allow State 
foresters to implement projects on federal lands that are not adjacent 
to State or private lands.
---------------------------------------------------------------------------
    \1\ P.L. 102-291, Sec. 331
    \2\ Id., Sec. 331(a)
---------------------------------------------------------------------------
    Four years later, in the FY 2005 Interior Appropriations Act, 
Congress continued the Colorado Good Neighbor authority until the end 
of fiscal year 2009 and included both Forest Service and BLM lands in 
Colorado within its scope.\3\ In addition, Congress provided similar 
Good Neighbor authority to the Forest Service in the State of Utah 
until the end of fiscal year 2006.\4\ However, the Utah version--like 
S. 1122--did not limit the authority to federal lands that were 
adjacent to State or private lands.\5\
---------------------------------------------------------------------------
    \3\ P.L. 108-447, Sec. 336
    \4\ Id., Sec. 337
    \5\ Id. Sec, 337(a)
---------------------------------------------------------------------------
                               gao report
    In February 2009, the U.S. Government Accountability Office issued 
a detailed report evaluating the use of the Good Neighbor authority.\6\ 
The GAO concluded that the authority can help land managers efforts to 
improve forest conditions and help prevent severe fires by allowing 
federal and State agencies to work more closely together to treat lands 
across ownership boundaries. However, the GAO raised concerns about 
potential problems with ``timber accountability,'' especially if the 
Good Neighbor authority is extended to additional States. The GAO 
recommended that the Forest Service and BLM ``first develop written 
procedures for Good Neighbor timber sales . to better ensure 
accountability for federal timber.''
---------------------------------------------------------------------------
    \6\ U.S. Government Accountability Office. Federal Land Management: 
Additional Documentation of Agency Experience with Good Neighbor 
Authority Could Enhance Its Future Use. GAO-09-277. Feb. 2009. http://
www.gao.gov/new.items/d09277.pdf.
---------------------------------------------------------------------------
                                analysis
    The timber accountability problem with the Good Neighbor authority 
provided by S. 1122 stems largely from the legislative exemption from 
important requirements in the National Forest Management Act (NFMA) 
that are aimed at avoiding fraud and conflicts of interest in federal 
timber sales. First, the legislation exempts Good Neighbor projects 
from Section 14(g) of the NFMA, which requires that Forest Service 
employees conduct the designation, marking, and supervision of timber 
sales and that those employees ``shall have no personal interest in the 
purchase or harvest of such products and shall not be directly or 
indirectly in the employment of the [timber sale] purchaser.'' This 
exemption is especially problematic because S. 1122 also allows State 
foresters to subcontract the timber sale preparation to private 
companies. Therefore, unless prohibited by State or local laws, the 
legislation could allow subcontracting timber industry employees to 
select what trees are cut from federal lands.
    Second, the legislation exempts Good Neighbor timber sales from 
Section 14(d) of NFMA, which requires the Forest Service to advertise 
timber sales before awarding contracts. Thus, a Good Neighbor timber 
sale could be awarded at minimum appraised value to the same timber 
company that laid out the sale.
    A third significant concern with S. 1122 is that it vastly expands 
the potential use of Good Neighbor authority. As previously noted, the 
original Colorado legislation only allowed Good Neighbor authority to 
be used ``when similar and complementary watershed restoration and 
protection services are being performed by the State Forest Service on 
adjacent State or private land'' (emphasis added). This limitation 
makes good sense, since the legislation is intended to benefit the 
``neighbors'' that are adjacent to federal lands. In contrast, S. 1122 
would allow Good Neighbor authorities to be used anywhere on Forest 
Service and BLM lands, irrespective of proximity to non-federal lands. 
This vast geographic expansion of the Good Neighbor policy raises 
serious questions about the potential for excessive control of federal 
land management by State foresters and private industry subcontractors 
throughout the West.
    While the use of these authorities in Colorado has succeeded in 
fostering cross-jurisdictional management actions to reduce fire risk 
to communities, Colorado's success may not foretell success in other 
States. Differences in the structure, staffing levels, and workload of 
other State forestry agencies, and the characteristics of federal 
lands, particularly the economic value of timber, would all affect the 
authority's chances for success and potential for abuse. For example, 
in States where maximizing revenue from State lands is the mandate, 
questions can be raised whether State timber sale procedures would be 
sufficient to protect public land interests.
    In addition to the concerns over environmental impacts of expanding 
this authority, some have questioned whether forestry worker rights, 
including protective federal wage and overtime standards and 
requirements would be undermined by ceding contracting authority to 
States. The specter of non-competitive sole-source contracting is seen 
as particularly disconcerting.
                               conclusion
    The Good Neighbor authority has helped federal land managers and 
State foresters in Colorado and Utah to work together more effectively 
in reducing fire risk to adjacent non-federal lands in Colorado and 
Utah. However, S. 1122 proposes a vast and unwarranted expansion of the 
potential use of that authority beyond its original purpose. 
Furthermore, the legislation lacks important safeguard against timber 
sale abuse which would become increasingly likely if the Good Neighbor 
authority were extended to other States.
                                 ______
                                 
   Statement of John Winchester, Former Chief of the Sugar Loaf Fire 
                     Protection District, on S. 555
    Mr. Chairman and Members of the Committee:
    Thank you for the opportunity to testify today in support of Senate 
Bill S.555. My name is John Winchester and I have been an active fire 
fighter in the Sugar Loaf Fire Department for 19 years, and have served 
as its chief for four of those years. For the last ten years I have 
pursued a land exchange with the U.S. Forest Service (USFS) that is the 
subject of this bill. The efforts of Senators Mark Udall and Michael 
Bennet that have made this bill possible are greatly appreciated.
                               background
    The Sugar Loaf Fire Protection District (SLFPD) encompasses 15,000 
acres of private and public (USFS) land in the foothills of the Rocky 
Mountains west of Boulder, Colorado. Elevations range from 6000 to 9000 
feet. The fire department began operation in 1967 and is staffed 
entirely by volunteers. Currently we have 34 fire fighters and respond 
to over 100 calls per year. We have always worked very closely with the 
USFS in fire prevention and suppression activities and will continue to 
do so.
    Our first fire station was established in 1967 in an existing 
building on USFS land under a Special Use Permit. The second station 
was built in 1970, also on USFS land and under a special use permit. 
Both of these stations are in strategic locations, the first near the 
center of the district, the second near two housing developments and 
with good access to Boulder Canyon Drive (CO 119). Boulder Canyon Drive 
is one of the most accident-prone highways in Colorado and we 
frequently respond to accidents there.
    Our goal with this legislation is to exchange an existing property, 
a patented mining claim surrounded by Forest Service land, for the land 
under our two stations.
   advantages of the land exchange to the sugar loaf fire protection 
                                district
    This land exchange will provide us clear title to the land under 
our two stations. This is important for three reasons.
    First, to improve health and sanitation. State and County 
regulations prohibit well and septic systems on public lands for 
private use. We operate these stations without water supplies and 
without indoor plumbing. Station 2 is an election polling location, and 
currently we have to rent a port-a-potty for such public to use. If we 
obtain title to the lands, we will be able to install bathrooms and 
kitchens, features found in all fire stations today.
    Second, to achieve a greater degree of self-determination. At 
present, all modifications to the stations and their grounds must be 
approved by the USFS. Drawing up and reviewing plans for non-routine 
building maintenance, grading and drainage is time-consuming for sboth 
us and the the USFS Boulder District office. In addition, the land at 
Station 1 includes a flat area we use for fire fighter training. This 
is the only flat non-private land available for training within the 
district, and currently we rely on the Boulder District's gracious 
interpretation of the Special Use Permit to train fire fighters in 
vehicle extrication, driver training and hose handling techniques. In 
addition, we have used this area as a slash collection point, so 
residents wishing to thin around their homes for fire mitigation have a 
place to drop off branches so they can be chipped.
    Third, to eliminate any uncertainty about the future of these fire 
stations. Although extremely unlikely because of our mutual interest in 
fire prevention and protection, the USFS has the right to not renew our 
Special Use Permit and change the use of these properties to some other 
purpose.
              advantages of the land exchange to the usfs
    Three principal advantages accrue to the USFS:
    First, due to the complex pattern of mining claims in the area, the 
Boulder Ranger District manages a large number of Special Use Permits. 
Because the fire stations are not a temporary use, if the land exchange 
does not occur the USFS will be required to inspect the properties and 
manage the Special User Permits in perpetuity. This exchange would 
eliminate management of two Special Use Permits at the Boulder District 
and would reduce, by a small amount, their workload.
    Second, it removes one more in-holding in the Boulder Forest 
District, and assures that it can never be developed. Blocking 
development to this property and properties like it is particularly 
important because any development would require construction of a new 
access road across USFS land.
    Third, it removes liability from the USFS. As the current 
landowner, the USFS is ultimately responsible for the Fire Department's 
activities on the property, including the stations themselves, our fuel 
tanks, and our public activities. Transferring ownership puts the 
liability where it belongs, with the Fire District.
        the procedural approach to land exchange has been tried
    For the past 10 years we have worked very hard to achieve a land 
exchange under the Small Tracts Act, filing for ownership in 1997. In 
preparation for a formal small tracts exchange, we have:

  <bullet> Paid for land surveys of both stations
  <bullet> Purchased a 5-acre building site (the in-holding in forest 
        land) to exchange with the USFS
  <bullet> Paid for cultural resource surveys of both stations
  <bullet> Coordinated an historical resources survey with the State of 
        Colorado
  <bullet> Signed a collection agreement in which the District agreed 
        to pay for part of the USFS staffing costs
  <bullet> Signed a Potentially Responsible Party Waiver
  <bullet> Arranged for title insurance for the properties
  <bullet> Filled in, at the request of the USFS, a small mine shaft on 
        the exchange property.

    In spite of these efforts, no progress has been made on the 
procedural land exchange, an admittedly onerous 64-step process for the 
USFS.
    Contributing factors to this lack of action have been:

  <bullet> Changes in USFS staff at various offices have resulted in 
        changing interpretations regarding exchange requirements, 
        making continuity in the process difficult.
  <bullet> Shortage of USFS lands staff, so that small exchanges such 
        as this have very low priority.
                        the legislative approach
    After 10 years, we now believe that a procedural approach to our 
land exchange will never be successful. Therefore we are requesting 
this legislative action to make the exchange, which we feel has 
benefits to both parties.
    In addition to the advantages for both parties cited above, the 
legislative approach streamlines the exchange process, a big advantage 
for both the District and the USFS. The lengthy 64-step process 
required by the Small Tracts Act is not required.
    Are U.S. citizens, the owners of forest lands, protected? Yes.
    The Fire District will be able to more efficiently provide fire and 
emergency medical services to the community. Land use will stay the 
same at both of the stations. The mining claim being exchanged will be 
protected from development, which will enhance the value of the public 
land that surrounds it.
    Furthermore, S.555 stipulates that the exchange must be equal in 
dollar value for the government. That is, if final land appraisals show 
the USFS land is of greater value, the SLFPD must equalize the exchange 
either by paying the USFS or reducing the size of one of the station 
properties.
                                summary
    I appreciate the opportunity to present our case today and 
sincerely hope that the subcommittee will approve S.555. The simple 
land transfer requested in S.555 has advantages for both the SLFPD and 
the USFS and should proceed.
                                 ______
                                 
                                           American Rivers,
                                 Washington, DC, November 11, 2009.
Hon.  Ron Wyden,
Chairman, subcommittee on Public Lands and Forests, 223 Dirksen Senate 
        Office Building, Washington, DC.
Hon. John Barrasso,
Ranking Member, subcommittee on Public Lands and Forests, 307 Dirksen 
        Senate Office Building, Washington, DC.
    Dear Chairman Wyden and Ranking Member Barrasso: On behalf of 
American Rivers' 65,000 members and supporters, thank you for holding a 
hearing on October 29, 2009 on S. 721, the Alpine Lakes Wilderness 
Additions and Pratt and Middle Fork Snoqualmie Rivers Protection Act. 
American Rivers strongly supports this legislation and we thank Senator 
Murray for her leadership in introducing this bill. The inclusion of 
the Pratt and Middle Fork Snoqualmie Rivers in the National Wild and 
Scenic Rivers System will ensure lasting protection for their 
outstanding fish wildlife, recreation, ecological and geological 
values, as will an expansion of the existing Alpine Lakes Wilderness.
    The Pratt River is one of King County's last truly wild rivers, 
offering excellent low-elevation old-growth and mature forest habitat 
for wildlife, particularly during the winter months. Due to its remote 
nature, the valley also provides unparalleled opportunities for people 
seeking solitude and inspiration--a rare opportunity in such close 
proximity to a major metropolitan center. The Middle Fork Snoqualmie 
Valley provides exceptional recreation opportunities for thousands of 
people including scenic day hikes, challenging whitewater boating, 
fishing, hunting, camping, back-country skiing and much more. The river 
and its associated valley is home to a significant resident trout 
population as well as a wide variety of wildlife. Many of our members 
in Washington State treasure these wild river valleys, and 
enthusiastically support their long-term protection through Wild and 
Scenic River and Wilderness designation.
    Permanent protection of rivers such as the Pratt and Middle Fork 
Snoqualmie are important to the long-term health of Puget Sound and 
recovery of threatened salmon and other species. These rivers provide 
cool. clean water that salmon and other species need to thrive, 
particularly in a warming climate. Additionally, they provide important 
migration corridors for wildlife.
    Wild and Scenic River designation of the Pratt and Middle Fork 
Snoqualmie Rivers would be the capstone to decades of work done by 
committed local volunteers such as the Middle Fork Outdoor Recreation 
Coalition and others to protect the valley and ensure that its 
recreation opportunities and important fish and wildlife habitat are 
preserved for the future. Inclusion of the Middle Fork Snoqualmie and 
Pratt Rivers in the National Wild and Scenic Rivers Systems is a 
perfect complement to these efforts and will help to ensure lasting 
protection.
    While we strongly support this legislation, there are two areas of 
logical improvement that we would like to raise for this or future 
legislation. The first is extension of the wild and scenic corridor for 
the Middle Fork Snoqualmie River an additional 3.6 miles downstream to 
the west section line of section 16 (river mile 53.6). We believe this 
reach is as worthy of designation as the upper reach: it was found 
suitable for wild and scenic designation in 1990 by the Forest Service 
because it has the same outstanding fish, wildlife and recreation 
values as the reach upstream, and it is the most popular section for 
whitewater recreation on the river. Additionally, inclusion of this 3.6 
mile reach would extend the Wild and Scenic corridor to the entrance to 
the valley corresponding to the boundary of public lands. Over the past 
several years, there has been a concerted effort to consolidate public 
ownership in the valley along the river; extension of the wild and 
scenic corridor through this reach would assist in simplifying 
management and protect significant recreation and fish and wildlife 
values.
    A second suggested modification is the extension of wild 
classification downstream from the west section line of section 3 to 
the confluence with Dingford Creek, a distance of approximately 8.2 
miles. When the original suitability determination was made by the 
Forest Service in 1990, Road 56 extended further upstream. In the 
August 2003 Record of Decision for the Middle Fork Snoqualmie Access 
and Travel Management Plan, the Forest Service made the decision to 
close Road 56 at Dingford Creek to motorized public recreation access. 
As a result of this decision, we believe that this section of river is 
worthy of wild classification.
    Wild and Scenic designation of the Pratt and Middle Fork Snoqualmie 
Rivers, along with the Illabot Creek Wild and Scenic River legislation, 
reflect a resurgence in interest in Washington State in the use of this 
tool to protect the State's most treasured rivers. Currently, 
Washington State has only six designated rivers; yet over 100 are 
eligible for Wild and Scenic River designation according to federal 
agencies. In particular, there are dozens of rivers in the North 
Cascades, Southwest Washington's ``Volcano Country'' and the Olympic 
Peninsula that have already been recommended to Congress for Wild and 
Scenic River designation. We hope to work with your Committee in the 
future to grant long-lasting protection to these rivers as well, 
through Wild and Scenic River designation.
    Thank you again for holding a hearing on S.721. American Rivers 
looks forward to working with you and your staff to see this important 
legislation enacted into law this Congress, and thereby ensure a wild 
legacy for the Pratt and Middle Fork Snoqualmie valleys.
            Sincerely,
                                               David Moryc,
                                 Senior Director, River Protection.
                                 ______
                                 
                            California State Parks,
California Off-Highway Motor Vehicle Recreation Commission,
                                  Sacramento, CA, October 27, 2009.
Hon. Diane Feinstein,
Member, U.S. Senate, 331 Hart Senate Office Building, Washington, DC.
Re: Support for S. 1328

    Dear Senator Feinstein, On behalf of the California State Parks, 
Off-Highway Motor Vehicle Recreation (OHMVIR) Commission, I would like 
to express our support for S. 1328 to interchange the administrative 
jurisdictions of public lands between the United States Forest Service 
(USFS) and the Bureau of Land Management (BLM). In particular, the 
jurisdictional exchange between these agencies would allow for 
consolidation and more efficient operation of federal lands in the 
Chappie-Shasta Off-Highway Vehicle (OHV) Area.
    The Chappie-Shasta OHV Area is a popular OHV recreation destination 
located in Northern California, encompassing approximately 200 miles of 
roads and trails within an area of approximately 52,000 acres, The 
region consists of a complex pattern of land ownership and a mix of 
administrative jurisdictions which has presented several challenges far 
the public land managers as well as OHV enthusiasts.
    For years, this popular OHV destination has been managed by the 
BLM, USFS, and the Bureau of Reclamation, Despite the fact that BLM has 
taken the lead in managing the OHV area and special events for both BLM 
and USES lands, the issues of mixed ownership, separate management and 
differing regulatory requirements between the two agencies has resulted 
in inefficient management of these lands.
    The BLM and USFS can better serve the public interest through 
passage of S. 1328 which proposes to transfer administrative 
jurisdiction of 11,760 acres of USFS managed lands located within the 
Chappie-Shasta OHV Area to the BLM. Lands under BLM management outside 
of the OHV area would be transferred to the USFS. Moreover, S. 1328 
will provide significant administrative and programmatic improvements 
through streamlined administration and management of these lands, 
thereby reducing costs. This legislation is a win-win for both the 
federal land managing agencies and the public who use these lands. The 
passage of S. 1328 would provide an effective solution to an agreed-
upon management problem.
    The OHMVR Commission is pleased to support S. 1328 because it 
represents a collaborative logical resolution to a long standing 
administrative issue that has been detrimental to cost efficient land 
management. We appreciate the dedicated efforts of the OHV community 
and U.S. Senator Feinstein to take action and facilitate responsible 
management of OHV recreation and public lands in the Shasta-Trinity 
National Forest,
    Thank you for the opportunity to express our support of S. 1328.
            Respectfully,
                                              Gary Willard,
                                                             Chair.
                                 ______
                                 
      Statement of Innovations in Civic Participation, on S. 1442
                              introduction
    Thank you for the opportunity to submit written testimony on S. 
1442: A Bill to Amend the Public Lands Corps Act of 1992. Innovations 
in Civic Participation, a Washington, DC-based nonprofit organization 
supporting the development of innovative, high quality youth service 
and civic engagement policies in the US and abroad, supports S. 1442 
but urges you to add service-learning provisions to enhance the PLSC 
experience for corps members by giving them the opportunity to learn 
from, and reflect on, their service.
    While the bill's language references service-learning, the 
legislation could be enhanced by a more substantial use of service-
learning. Therefore, ICP asks the Committee to consider the following 
language, which is intended to integrate service-learning into PLSC 
activities and explicitly not create a classroom-based program that, 
however valuable, might inadvertently detract from the primary purposes 
of the legislation:

          Page 4 [Purpose Section]: Add after line 10
                  Use service-learning to enhance the work of the 
                Public Lands Service Corps to benefit communities 
                adjacent to public lands. Service-learning offers young 
                people the opportunity to engage directly with the 
                nation's natural, cultural, historic, archeological, 
                recreational, and scenic resources and to encourage the 
                aspirations of a new generation of people seeking 
                careers in public land management. Service-learning can 
                improve civic engagement and participation among corps 
                participants and those they serve, improve student 
                achievement, graduation rates, and college attendance 
                rates, while improving and rehabilitating public 
                assets, including parks, forests, trails, rivers, 
                estuaries, and coastal and marine areas.
          Page 8 [Definition Section] Add after line 11
                  (15) Service-learning is an innovative teaching 
                methodology that integrates community service with 
                learning to develop a sense of civic responsibility and 
                the skills to be active citizens while engaging in work 
                that improves communities. Service-learning can be 
                employed in informal community settings as well as 
                formal educational institutions like schools and 
                universities.
          Page 11 [Public Lands Service Corps Program] Add after line 4
                  (2) ensure that all youth enrolled in the Public 
                Lands Service Corps benefit from a service-learning 
                program appropriate to the projects that Corps members 
                are expected to undertake.
          Page 11 [Public Lands Service Corps Program] Add on line 19 
        after the word ``that''
                  ``through service-learning Corps members enrolled to 
                undertake projects for a specific agency are 
                appropriately informed about matters specific to that 
                agency . . . ''

    ICP believes that with the addition of this language, the PLSC will 
even more effectively connect young people with their natural 
environment--instilling in them an appreciation for nature, an 
enjoyment of healthy recreation, and creating a new generation of 
environmental stewards; and to energize and invigorate education in 
science, environment and related fields while reducing the ``nature 
deficit disorder.'' By being involved in service-learning activities on 
public lands, young people of all ages can also contribute to energy 
conservation. These experiences are likely to increase interest in 
careers in federal land management agencies, which are in serious need 
of new, younger employees.
              overview of service-learning and its impact
    Service-learning is an innovative teaching methodology that 
integrates community service with educational instruction, formal and 
non-formal, to enrich learning, teach civic responsibility and 
strengthen communities. Service-learning can reverse disengagement, 
promote the public purposes of education, build on the willingness of 
young people to become involved in service, and contribute to young 
people's personal and career development. Service-learning is a 
teaching pedagogy that can be broadly applied to a wide range of 
subject matters and is successfully used in formal and informal 
educational settings as a way to engage young people in experiential 
learning with a focus on meeting community needs.
    Research has emphasized that young people who participate in 
service-learning have greater civic skills, do better in school and 
gain valuable life and employment skills.
    A study of service-learning programs in Colorado showed a 
significant and positive connection between participation in service-
learning and young peoples' connection to their community. Three 
separate studies in Philadelphia, Denver and Hawaii found that service-
learning participants developed better problem-solving skills and 
understanding of cognitive complexities. According to these studies, 
service-learning students were better able to advance realistic 
solutions to problems, understand the systemic nature of a community 
problem and take steps to address a problem.
    A study of urban youth engaged in service-learning activities 
demonstrated positive and significant gains in school attendance and 
acceptable school behaviors. Young people who participated in high 
quality service-learning programs showed an increase in measures of 
school engagement and achievement in mathematics than control groups. 
Several studies show that youth who engage in service-learning have 
higher attendance rates than control group peers.
    Several recent studies have consistently shown the value of 
service-learning in helping young people explore career options. A 2006 
study of a Hawaiian service-learning program, demonstrated that young 
people in service-learning relative to nonparticipating young people 
had a stronger set of job and career-related skills and aspirations, 
including knowledge of how to plan activities, desire to pursue 
postsecondary education and job interview skills. Participation in 
service-learning is also correlated to the reduction of behaviors that 
lead to pregnancy or arrest.
          service-learning and the public lands service corps
    Using service-learning to teach Corps members should be a key 
element of the Public Lands Service Corps. Few subjects lend themselves 
so well to service-learning opportunities as do public lands. They 
offer a prism through which to see the entire breadth and scope of 
American history including a history of the land and its inhabitants 
long before there was a United States--geology, geography, cultural 
heritage, biology, historic preservation, among many other aspects of 
public lands.
    Additionally, including service-learning with ``shovel work'' 
enables an increased use of the Public Lands Service Corps in a variety 
of program areas. Service, and service-learning, will help maintain 
public lands, reduce the maintenance backlog, and help ensure that our 
parks, forests and coastal lands will be available for future 
generations.
    Service-learning is also a pathway to careers in public lands 
management, the green economy, and engaging young people of all ages in 
the study of various sciences and the environment. The civic, 
historical, and scientific resources and learning opportunities that 
public lands offer have the potential to engage young people in a way 
that no textbook can.
    All young people enrolled in the Public Lands Service Corps should 
benefit from a service-learning program appropriate to the projects 
that Corps members are expected to undertake.
                    connecting youth to the outdoors
    Research shows that there is a ``nature deficit disorder'' 
reflecting the fact that children of the digital age have become 
increasingly alienated from the natural world, with disastrous 
implications for their physical fitness as well as their long-term 
mental and spiritual health.
    In a typical week, only 6% of children ages 9-13 play outside on 
their own. Studies show a dramatic decline in the past decade in such 
outdoor activities as swimming and fishing. Even bike riding is down 
31% since 1995. In San Diego, according to a survey by the nonprofit 
Aquatic Adventures, 90% of inner-city kids do not know how to swim; 34% 
have never been to the beach. In suburban Fort Collins, Colorado, 
teachers shake their heads in dismay when they describe the many 
students who have never been to the mountains visible year-round on the 
western horizon.
    Studies documenting the increasing indicators of nature deficit 
show that providing young people with quality opportunities to directly 
experience the natural world can improve their overall readiness to 
learn and academic performance, as well as self-esteem, personal 
responsibility, community involvement, personal health (including child 
obesity issues) and understanding of nature. Hands-on, experience-based 
environmental education connects children to the natural world, and 
research supports that time spent outdoors lessens the symptoms of 
Attention Deficit/Hyperactivity Disorder (ADHD), reduces stress and 
aggression, helps children sleep better and improves physical health.
    Service-learning provides critical tools for a 21st century 
workforce by providing young people with the skills to understand 
complex environmental issues so they may make informed decisions in 
their own lives and find solutions for real world challenges. Business 
leaders also increasingly believe that an environmentally literate 
workforce is critical to their long-term success. Environmental 
education helps prepare young people for real world challenges.
    At scale, the Public Lands Corps is an effective way to eliminate 
the nature deficit disorder, enabling young people to serve on public 
lands and increase their understanding of their value to future 
generations of Americans.
        examples of service-learning projects in the environment
    In the United States, young people of many ages are engaged in 
service-learning activities connecting formal and informal education 
with environmental sustainability efforts.
    The Watershed Stewards Project (WSP) of the California Conservation 
Corps is a comprehensive, community-based watershed restoration and 
education program. Established in 1994, biologists and educators 
created WSP to fill critical information gaps in scientific and 
education communities. In collaboration with the commercial and sport 
fishing industry, timber companies, teachers, nonprofit organizations 
and public agencies, WSP members and the WSP partnership work to 
revitalize watersheds inhabited by endangered and threatened species 
through the use of the WSP ?Real Science? environmental education 
curricula and State-of-the-art data collection and watershed 
techniques. Under the guidance of resource professionals, in 
collaboration with local land owners, public agencies and private 
industry, members learn and perform advanced monitoring and analysis 
techniques, present the WSP ``Real Science'' curricula to students in 
grades K-12, participate in instream and upslope restoration 
activities, tutor K-12 students in math and science, perform 
environmentally-based public outreach, and conduct environmental 
education workshops and symposiums.
    The National Youth Leadership Council (NYLC) developed Gulf Coast 
WalkAbout as part of its Resources for Recovery initiative. NYLC worked 
with colleagues and partners in the area and across the United States 
to create a framework to use service-learning as a means to address the 
needs in the Gulf Coast. With cooperation from State education agencies 
in the Gulf Coast States, NYLC adapted its WalkAbout program model to 
make it appropriate for middle school students in the region. Young 
people conducted service-learning projects based on their mapping of 
their communities in the three focus areas: environmental restoration, 
disaster preparedness and oral history projects. Young people at some 
sites cleaned up their school grounds. At other sites they planted 
gardens or trees, or worked on landscaping their schoolyard. They also 
built birdhouses and bus stop benches. One site reported to their city 
council on cleanup still needed in their community, while another 
worked on a longer-term project involving planning for improvements of 
their community's senior center.
    Earth Force's Global Rivers Environment Education Network (GREEN) 
is focused on providing middle and high school students with 
opportunities to acquire essential academic skills including critical 
thinking, teamwork, problem solving and decision making, all while 
actively engaging in their communities around water quality issues. 
GREEN seeks to engage young people as active citizens who improve 
conditions in their watersheds now and in the future. GREEN empowers 
young people to learn more about the watersheds they live and use their 
findings to create lasting solutions to pressing water quality issues. 
GREEN also works to connect educators to local partners to assist with 
water quality monitoring, classroom support, community connections and 
event coordination. These partnerships provide educators with access to 
innovative resources such as a network of national and community 
support, online resources, technical manuals, activity guides and water 
quality monitoring equipment.
    In a Massachusetts high school, students and teachers worked 
together to develop lessons and resources that used the school's nature 
trail, in conjunction with standard curriculum, in order to provide 
students with hands-on learning experiences and a better understanding 
of the local environment. The program started in the fall with a plant 
project familiarizing students with native and alien flora, and helping 
them understand local natural history. In the spring, students and 
teachers moved outside to study ecological relationships, such as 
succession, predator-prey interactions and symbiosis. Students used 
their drawing skills to record detailed information about plants, 
invertebrates, and other creatures that could easily be studied in the 
field and lab. The project expanded when high school students prepared 
hands-on demonstrations for younger children and led tours of the 
nature trail.
    Facing a growing threat of buckthorn--a tall non-native shrub that 
spreads aggressively, forcing out local flora, including tree 
saplings--Minnesota students undertook an issue analysis, community 
education program, and cleanup projects. The students divided 
themselves into action groups to research and respond to the problem, 
with different groups educating elementary students, conducting public 
surveys, contacting media outlets, and designing a brochure for a river 
bluff specialist. In the spring, the students helped the county Parks 
Department with a buckthorn removal project. To reflect on their work, 
students discussed and wrote about issues relating to buckthorn.
                               conclusion
    A modest service-learning component of S. 1442 can enhance the 
legislation to expand service-learning opportunities on public lands 
connecting more young people with the environment, addressing critical 
needs on public lands and creating a new generation on environmental 
stewards. Through service-learning on public lands we can enhance 
learning in critical subject areas, deepen youth commitment to American 
values, and help foster their becoming responsible, participatory 
adults. Thank you for the opportunity to submit testimony. ICP looks 
forward to working with you to strengthen service-learning on public 
lands and to see S. 1442 enacted into law.
                                 ______
                                 
    Statement of Dale Penny, President & CEO, Student Conservation 
                         Association, on S.1442
    Mr. Chairman, and other distinguished members of the subcommittee 
on Public Lands and Forests, my name is Dale Penny. I am the President 
and CEO of the Student Conservation Association (SCA), the largest 
youth conservation nonprofit in the country. I am pleased to have the 
opportunity to submit this testimony to the subcommittee to become part 
of the written record for the hearing on S. 1442--the Public Lands 
Service Corps Act of 2009. With a few suggested changes, SCA strongly 
supports this timely and very important piece of legislation.
    SCA was founded in 1957 on a simple premise: young people can and 
would make a difference in helping protect our national parks if given 
the opportunity. Fifty-two years later, SCA has helped engage over 
50,000 diverse young people in conservation service on public lands 
across the country. S. 1442 is a critical and necessary tool to help 
strengthen and expand opportunities for young people to help solve a 
host of challenges currently facing our public lands, to put young 
people to work in communities across the country, and to create the 
pipeline for the next generation of public land managers.
    S. 1442 amends the Public Lands Corps Act of 1993 (PLC) to expand 
service-learning opportunities, increase the authority of public land 
agencies to make youth service a priority in helping to restore the 
nation's natural, cultural, and historic resources, train a new 
generation of public land managers, and promote the value of public 
service. The bill also provides for the creation of a grant program to 
create an Indian Youth Service Corps for projects on tribal lands, and 
expands the definition of ``public lands'' to allow young people to 
provide national service on coastal and marine waters through the 
National Oceanic and Atmospheric Administration (NOAA).
    As you know, we are in midst of one of the most daunting economic 
crises since the Great Depression. The impact on young people is 
devastating. In July of this year, the youth unemployment rate for 16 
to 24 year olds reached the highest rate on record--18.5 percent--
according to the Department of Labor. Only 46 percent of youth had jobs 
in September, the lowest percentage since the government began counting 
in 1948. BusinessWeek referred to this group of young people as the 
``lost generation,'' suggesting that the damage to their careers and 
earning power may be deep and long-lasting.
    In 1933, President Franklin Roosevelt created the Civilian 
Conservation Corps (CCC) to help address the massive unemployment of 
young people through conservation of America's natural and cultural 
resources. The CCC built the infrastructure of national parks, planted 
billions of trees, and pioneered new ways to fight forest fires. The 
CCC's work restored our public lands, stimulated the economy, and 
helped build communities in every State in the country. Over three 
million young people served in the CCC.
    SCA is modeled after the CCC. Through its innovative, cost-
effective, and proven models, SCA provides young people with hands-on 
service opportunities in virtually every conservation and environmental 
field imaginable. Our members have restored desert ecosystems, saved 
endangered species, repaired and built trails, developed graduate-level 
business plans for park units, and surveyed coral reefs and fish 
populations, among other things. In addition, our rural and urban 
community programs engage diverse high school students who may lack 
access to the natural environment and to green job opportunities.
    This year, SCA placed over 4,000 high school, college students, and 
graduate students on over 500 public land sites across the country. 
Given the chance, many more young people would participate in our 
programs. On average, we receive four applications for each program 
slot we have available. Applications for our programs rose by over 40 
percent this year. We anticipate a similar trend in applications for 
2010. Under S. 1442, we believe our successful program models can be 
replicated and dramatically scaled, mobilizing thousands more young 
people who are eager to work and serve each year.
    The environmental challenges faced by our public land agencies 
today are even greater than those addressed by the CCC. The National 
Parks Conservation Association estimates that the National Park Service 
alone has a $750 million annual funding shortfall and backlog of 
maintenance and restoration projects of approximately $9 billion. S. 
1442 would give the Secretaries of Interior, Agriculture, and Commerce 
the authority to provide additional training and undertake a broader 
range of projects, including sophisticated projects like carbon 
reduction strategies, climate action planning, sustainability 
initiatives, earth observation and monitoring with satellites and in-
water instruments, and weather prediction models.
    Given that most of the environmental challenges will be inherited 
by young people, we also must find ways to develop a pipeline of 
qualified, diverse young people to become our next generation of 
conservation leaders. Once we identify them, we need to prepare them 
with leadership, knowledge, skills, and experience. Just as important, 
expanded conservation opportunities can and should provide them with 
the contemporary ``green job'' skills needed for the emerging green 
economy in both the private and public sectors.
    SCA has had great success creating a ``continuum of service'' to 
engage diverse young people from high school to college, and 
potentially graduate school. In our community programs, high school 
students receive summer jobs, work and life skills, and the opportunity 
to continue their green job training on public lands with SCA as they 
progress through school in subsequent years. This high-touch approach 
helps inspire a lifelong commitment to stewardship, create an ethic of 
service, and provide great potential for a career in natural resources.
    It is no secret that public land management agencies need to build 
and invest in their future workforce. Currently, one-third of the 
federal workforce will be eligible for retirement by 2012, up from 20 
percent in 2002, according to a 2008 Government Accountability Office 
report. Specifically, thirty-eight percent in The Department of the 
Interior and 35 percent in the Department of Agriculture will be 
eligible for retirement in 2012. In NOAA, the retirement numbers are 
even more urgent. Thirty-five percent of its workforce is eligible for 
retirement in 2014, but an even larger percentage of NOAA senior 
scientists can retire today--31 percent of biologists, 29 percent of 
meteorologists, 48 percent of oceanographers, and 56 percent of 
geodesists. If unaddressed, this potential brain-drain will create gaps 
in leadership, skills, and institutional knowledge.
    The innovative program models of conservation corps provide a 
unique and direct opportunity for public land management agencies to 
build upon existing outreach efforts to create a pipeline of 
conservation leaders. In fact, an informal and internal survey of 
National Park Service employees a few years ago showed that 
approximately 12 percent of its workforce came from SCA. S. 1442 
provides more training and career development opportunities for the 
federal land agencies. If we do not invest in our workforce pipeline 
now, public land management agencies simply will have to pay later with 
an unprepared workforce.
    SCA strongly supports S. 1442, and believes that its enactment is 
critical to helping SCA further its mission. SCA would like to make the 
following recommendations:

          1. Section 205--Residential Conservation Centers and Program 
        Support. SCA suggests amending the language to expressly 
        authorize the operation of residential centers by qualified, 
        experienced nonprofit organizations. We believe that nonprofits 
        such as SCA have the experience and qualifications to operate 
        such centers effectively and efficiently.
          2. Section 206(a)(2)--Consulting Interns. SCA strongly 
        supports the amendment authorizing ``consulting interns,'' and 
        very much would like this new category and the 10 percent cost-
        share requirement (as discussed below) to be retained in the 
        final law. We also suggest extending the top age-range for 
        ``consulting interns'' to 30 (from 25 as set forth in the 
        current PLC authority). See below.

    --Need for Consulting Interns.--Increasingly, our federal land 
            management partners need and have requested from SCA 
            graduate-level interns who can provide management analysis 
            on a host of issues, including business, scientific, and 
            environmental issues. For example, SCA has successfully 
            placed graduate students as business planning interns with 
            the National Park Service. Therefore, we strongly support 
            the expansion of PLC to include this new category.
    --Consulting Intern Cost-Share.--Graduate-level interns typically 
            are placed with our partners for longer periods of time 
            than resource assistants. Many placements currently can 
            last up to a year. Longer placements mean higher costs. 
            That is why, as currently drafted, the legislation 
            distinguishes between the cost-share requirements for 
            resource assistants (25 percent) and consulting interns (10 
            percent). Any cost-share for consulting interns that 
            exceeds 10 percent would be prohibitive, even for larger 
            conservation organizations such as SCA, particularly in 
            this tough economy. Therefore, we suggest that cost-share 
            requirement not be increased beyond 10 percent for 
            consulting interns. As indicated below, we also suggest 
            that the Secretary be given authority to lower the cost-
            share requirement for all corps categories, given the tough 
            economic challenges faced by nonprofits.
    --Age Range for Consulting Interns.--The profile of college and 
            graduate students has changed dramatically over the last 
            decade since the original PLC legislation was enacted. So 
            have our participants. Currently, the average age of a 
            graduate student is 33 years old with 20 percent of all 
            graduate students over the age of 40. We, therefore, 
            suggest that the top age be raised from 25 to at least 30, 
            so that our federal land management partners are able to 
            receive a large, diverse pool of well-qualified, eligible 
            consulting interns.

          3. Section 207--Indian Youth Service Corps. SCA supports the 
        Indian Youth Service Corps authorization as currently drafted. 
        We are unclear, however, whether the term ``Indian'' was meant 
        to include all Native Americans--American Indians, Aleuts, 
        Eskimos, Native Hawaiians, and Pacific Islanders. We believe 
        that it would be beneficial for all Native Americans to be 
        recognized by the legislation.
          4. Section 208 (b)--Preference and Future Employment. SCA 
        strongly supports this provision, and would like to suggest 
        that the language is clarified to make sure that the preference 
        applies to all categories--resource assistants, consulting 
        interns, and Indian corps participants--under the legislation.
          5. Cost Share Issues.--As mentioned above, SCA supports the 
        10 percent cost-share requirement for consulting interns. 
        However, given the tough economic challenges faced by 
        nonprofits, we further suggest that the Secretary have the 
        discretion to reduce the cost-share requirement for all 
        categories of participants--resource assistants, consulting 
        interns, and Indian Youth Service Corps participants, as 
        follows:

                  Cost Sharing Requirements--At the Secretary's 
                discretion, the requirements for cost sharing 
                applicable to participating nonprofit organizations for 
                the expenses of resource assistant, consulting intern, 
                and Indian Youth Service Corps participant may be 
                reduced.

    Thank you for the opportunity to submit our testimony for the 
hearing.
                                 ______
                                 
  Statement of the Alpine Lakes Protection Society, American Rivers, 
American Whitewater, Campaign for America's Wilderness, Friends of Wild 
  Sky, Midforc Coalition, North Cascades Conservation Council, Sierra 
   Club--Cascade Chapter, The Mountaineers, The Wilderness Society, 
     Washington Trails Association, Washington Wilderness Coalition
    Thank you Chairman Wyden, and Members of the subcommittee for 
providing the Alpine Lakes Working Group with the opportunity to submit 
this Statement in support of S. 721, the Alpine Lakes Wilderness 
Additions and Pratt and Middle Fork Snoqualmie Rivers Protection Act of 
2009\1\. The lands and waters proposed for protection under the current 
legislation are critical additions that provide important fish and 
wildlife habitat and world-class land and water-based recreation 
opportunities within an hour's drive from over a million people in the 
Seattle-Bellevue Metropolitan area.
---------------------------------------------------------------------------
    \1\ The Alpine Lakes Working Group includes the following 
organizations: Alpine Lakes Protection Society, American Rivers, 
American Whitewater, Campaign for America's Wilderness, Friends of Wild 
Sky, MidFORC Coalition, North Cascades Conservation Council, Sierra 
Club--Cascade Chapter, The Mountaineers, The Wilderness Society, 
Washington Trails Association, Washington Wilderness Coalition.
---------------------------------------------------------------------------
    We would also like to sincerely thank Senator Murray and 
Representative Reichert for introducing this important legislation and 
the other members of the Washington delegation who have cosponsored the 
bills: Senator Cantwell and Representatives Baird, Inslee, McDermott, 
and Smith. In particular, we applaud Representative Reichert's 
initiative to protect wildernessquality lands and the Pratt River in 
his district and to Senator Murray for adding protections for portions 
of the Middle Fork of the Snoqualmie River to the overall proposal.
          rich conservation history of the alpine lakes region
    This bill compliments the rich conservation history in an area very 
near and dear to the hearts of Washingtonians--the Alpine Lakes region. 
With its wide variety of largely untouched land forms, lakes, and 
ecosystems that embodies all the characteristics described in the 
Wilderness Act, the Alpine Lakes region has been the focus of 
conservation efforts on the part of the United States Congress, the 
Forest Service, State and municipal governments and local citizens for 
more than 60 years. From early regional administrative protections by 
the Forest Service to a 1976 Wilderness designation that utilized 
special processes to maximize protections, the area has received 
national attention. Over the past 30 years, the Forest Service acquired 
much private land in the Alpine Lakes region, particularly in the Pratt 
River valley and along the shorelines of the Middle Fork Snoqualmie 
River.
    The Middle Fork Snoqualmie valley region has also received 
significant attention from government agencies including the Washington 
State Department of Natural Resources (DNR) and King County. The DNR 
was a leader in protecting the Middle Fork Snoqualmie area when it 
established the Mt. Si Conservation Area in the late 1970's and then 
pursued several land exchanges west of the national forest boundary. 
This month DNR formally announced plans for a Middle Fork Snoqualmie 
Natural Resource Conservation Area (NRCA), which will include those 
lands south of the river that are contiguous with this proposed 
wilderness creating a large contiguous area of joint agency-protected-
habitat that is unique on the west slope of the Cascades. King County 
has also assisted in further conservation work in the area by 
purchasing key parcels along the Middle Fork Snoqualmie Valley bottom 
which are managed as the Middle Fork Snoqualmie River Natural Area.
    This proposal represents a celebration of nearly two decades of 
community-driven effort to protect and enhance the ecological and 
recreation values of the valley. Once a popular recreation destination, 
the Middle Fork Snoqualmie declined in popularity in the 1980's as the 
trail system disintegrated and campgrounds washed out and were closed. 
The Middle Fork Outdoor Recreation Coalition (MidFORC), supported by 
the Mountains to Sound Greenway, has worked for nearly two decades to 
improve trails and recreation infrastructure, provide better law 
enforcement, and restore damaged habitat in the Middle Fork Snoqualmie 
valley.
           outstanding wilderness and wild and scenic values
Low elevation habitat
    The proposed additions in the Pratt, Middle Fork and South Fork 
Snoqualmie Valleys provide an opportunity to protect rare low-elevation 
old-growth and mature forests--less than 900 feet in elevation at the 
mouth of the Pratt Valley. Statewide, of the roughly 2.7 million acres 
of designated wilderness on national forest land, just 6 percent 
includes low elevation lands (below 3,000 feet). In contrast, low 
elevation lands comprise a full 50 percent of this 22,100-acre 
proposal. Such biologically-rich lowlands are largely absent from the 
current Alpine Lakes Wilderness. Low elevation lands are snow-free for 
much of the year and are more biologically productive, supporting many 
more species than higher elevation habitats. The lands to be protected 
provide critical winter and spring habitat for wildlife when high 
country is deep in snow.
Clean Water and Flood Control
    The Pratt, Middle Fork and South Fork Snoqualmie watersheds are 
sources of clean water, important for downstream fisheries and 
commercial and residential water users. Preserving the forests as 
wilderness would ensure maintenance of flow during the dry summer 
months, and aid in flood control.
    The Snoqualmie River basin is subject to flood events on a regular 
basis. Many areas are in the `rain on snow' zone which means that rain 
falls on snow regularly throughout the winter months. This rainfall 
pattern is associated with landslides, downstream flooding, and stream 
bank damage. Evidence shows that forested areas are better able to 
capture rain that has fallen during the rain on snow events, making 
them critical for controlling runoff rates. The proposed additions 
would preserve intact forest ecosystems, protecting against increasing 
flood severity on downstream infrastructure and residents.
Close to a Large Human Population
    The Alpine Lakes Wilderness is one of the most-visited wilderness 
areas in the United States. Due to its proximity to the Seattle 
metropolitan area, it provides quick access to wilderness experiences 
to tens of thousands of people. This opportunity is fundamental to the 
quality of life for Washingtonians and the ability to gain inspiration 
and renewal from these lands. The proposed additions would increase the 
amount of wilderness available for these experiences that are cherished 
by so many. Fish and Wildlife These wild mountain valleys boast 
abundant native populations of trout, deer, and elk. Cougars, bears and 
bobcats are present, and at least one grizzly bear has been sighted in 
the Pratt valley. Salmon are not present due to the presence of 
Snoqualmie Falls; however, the Pratt and Middle Fork Snoqualmie rivers 
are home to healthy resident trout populations. Substantial areas of 
old growth forest are present in the area, supporting the full 
complement of native species. The balance of the forest is 70-80 year 
old second growth with many trees that are 3 feet in diameter and 150 
feet tall.
Recreation
    The Middle Fork and South Fork Snoqualmie valleys are some of the 
closest and most accessible mountain valleys to residents of the 
greater Seattle-Bellevue Metropolitan area. The proposed additions have 
been carefully crafted to preserve existing recreational opportunities 
for hiking, camping, rafting, kayaking, horseback riding, mountain 
biking and wildlife viewing. It also protects a large area of 
accessible lowland forests, preserving hunting and fishing 
opportunities in primitive settings.
Wild and Scenic River Values
    Few rivers anywhere in the country can match the quality of 
recreational, scenic and ecological resources that the Middle Fork 
Snoqualmie and its major tributary the Pratt provide. Whether it's a 
quiet fishing trip after work, a day out with friends on some of the 
most outstanding whitewater the region has to offer, or a weekend with 
the family in one of the most scenic river valleys in the country, 
these rivers are tremendous resources for our community. They are also 
an important source for clean water that sustains the culturally and 
biologically significant fishery resources of the Snoqualmie River 
system. Protecting the outstanding ecological and recreational value of 
these river corridors not only complements the protection of the 
amazing wilderness values, but also provides important ecological and 
recreational connectivity.
    The designation will ensure that 27 miles of the Middle Fork 
Snoqualmie River and 9.5 miles of the Pratt River are protected for 
future generations securing this important habitat, protecting the 
quality of the recreational experience, and recognizing the community-
based stewardship efforts that maintain the river corridor as one of 
our community's greatest natural assets.
    In their testimony on the bill, the Forest Service raised some 
minor issues and asked ``to work with the subcommittee to address some 
technical aspects of the bill.'' Here we address those concerns.
    The Forest Service suggests a modification of the proposed 
wilderness boundary to allow for trail reconstruction or relocation of 
the Middle Fork Snoqualmie River Trail #1003. This trail is popular 
amongst mountain bicyclists and the Forest Service is concerned about 
allowances for work in response to potential future events such as 
flooding or landslides. This issue has already been addressed by 
legislation to the satisfaction of our working group and the mountain 
bike community, who has endorsed the legislation. In October 2007, an 
evaluation of the proposal boundary was made using the latest digital 
definition of the trail location based upon recent Forest Service field 
work. This definition included not only the actual location of the 
trail (as defined by GPS equipment) but the definition was also 
adjusted for potential trail relocations so as to account for river 
channel movement, landslides, or other events that could require trail 
relocation further away from the river. The boundary was then placed on 
the opposite side of the trail from the river, using a set back of no 
less than 80 vertical feet from the digital trail definition noted 
above. This proposal boundary placement ensures that the actual trail 
location or its potential relocation will always lie outside of the 
proposed wilderness boundary. The proposal boundary was placed to 
ensure existing mountain bike usage will not be impacted by this 
proposal. The new trail alignment and the noted set backs were provided 
to the Forest Service and it is our understanding that they are 
incorporated in the Section.2.(a) map accompanying the legislation.
    The Forest Service suggests redrawing the wilderness boundary to 
exclude approximately three miles of the Pratt River Trail #1035 
because the trail is scheduled for major reconstruction beginning this 
fiscal year. The Forest Service also claims that the adjustment would 
reduce operation and maintenance costs along this segment of the trail, 
due to the ability to use motorized equipment for trail maintenance. 
While the Pratt River Trail (#1035) referenced in the testimony is a 
system trail, the segment referenced has not been maintained by the 
Forest Service for many decades. To say that it currently receives high 
use is inaccurate and misrepresents the situation on the ground. The 
noted segment does receive some use for the first mile or so before the 
route becomes so difficult to find that it cannot be followed. However, 
the use levels for this segment are well below what most would consider 
high use (i.e., Barclay Lake) even with the proximity of the campground 
across the river.
    Additionally, this trail is not planned for mountain bike use and 
therefore this area's designation is fully consistent with a wilderness 
designation. The Alpine Lakes Working Group (ALWG) does not support 
excluding a trail from wilderness designation because of anticipated 
trail construction. Trail use, construction and maintenance are allowed 
under the Wilderness Act and such activities are performed on a daily 
basis within the National Forest System. There are a number of examples 
here within the Mt. Baker Snoqualmie National Forest of trail 
construction of this scope within designated wilderness:

  <bullet> Kelley Creek Trail Reroute--Skykomish Ranger District, Mt. 
        Baker-Snoqualmie NF (Trail 1076)--The Forest Serviced approved 
        this project on April 9, 2008 with the recognition that the 
        Wild Sky Wilderness was likely to become law. A new trail would 
        be constructed within the wilderness and would connect to an 
        existing trail. The new trail would begin at the heavily-used 
        Iron Goat Trailhead, which has parking and amenities similar to 
        those at the Middle Fork Snoqualmie River Trailhead (gateway 
        bridge). The trail project would include approximately two 
        miles of new trail in wilderness in an area that has never had 
        a trail before.. No mechanized or motorized equipment is 
        proposed or authorized.
  <bullet> Suiattle Creek Trail reroute--Darrington Ranger District, 
        Mt. Baker-Snoqualmie NF (Trail 2000)--This trail reroute and 
        reconstruction is proposed to deal with flood damage that 
        eliminated a major trail bridge across the Suiattle River and 
        caused other extensive trail damage. To locate a bridge on a 
        better site less prone to flood damage, the project includes 
        building a new trail segment. The entire project would occur 
        within the existing Glacier Peak Wilderness. The trail project 
        would include 3 miles of new trail open to hikers and 
        packstock. Certain mechanized or motorized equipment is 
        proposed to be used.

    The Forest Service testimony States that the exclusion of three 
miles of the Pratt River Trail (#1035) would not significantly alter 
the proposal. The ALWG finds that such exclusion would eliminate low 
elevation areas from the proposal that are critical to the integrity of 
the lower Pratt River Valley and the proposal.
    Finally, the Forest Service recommends adjusting the boundary to 
exclude two segments totaling 300 acres of Washington State Department 
of Natural Resource (DNR) lands in the northwestern boundary of the 
proposal. These two DNR parcels were included within the wilderness 
boundary so that if they were to be acquired by the Forest Service 
after passage of the legislation they would be added to the wilderness 
without requiring an additional act of Congress. Nothing in the bill 
obligates or encourages the Forest Service or DNR to pursue an 
acquisition or exchange. The parcels were included to establish a 
manageable boundary based on ecological or watershed features that can 
be located on the ground. Currently, Thompson Lake is literally split 
between the two management agencies. The Mt Baker-Snoqualmie National 
Forest Boundary is located two to three miles west of Thompson Lake and 
Russian Butte. Consequently, the Forest Service has acquisition 
authority for the DNR parcels included in the proposal. As a result of 
the Huckleberry Land Exchange of 1996-2001, the Forest Service actually 
acquired a number of isolated parcels that are west of the noted DNR 
parcels near Russian Butte and Thompson Lake.
                    broad-based outreach and support
    The legislation under consideration enjoys broad-based community 
support, including 104 local elected officials, 69 religious leaders, 
15 hunting and angling groups, 14 recreation groups, 24 conservation 
groups, and 113 local businesses, including 100 from the the Snoqualmie 
Valley--closest to the proposal. Through the outreach efforts led by 
Representative Reichert and Senator Murray, several specific concerns 
and issues were addressed early on in the process.
    Of importance is the work with the local mountain biking group, the 
Evergreen Mountain Bike Alliance, to make sure that the current every-
other-day access to the Middle Fork trail is maintained. The wilderness 
boundary, as proposed, is drawn to exclude the trail (since mountain 
biking is not allowed in wilderness) and the Wild and Scenic 
designation along the same stretch compliments this with protections 
for the fish, wildlife, and recreational values that also allow for 
continued mountain bike use. As a result of their early involvement, 
Evergreen Mountain Bike Alliance and the International Mountain Bike 
Association (IMBA) are strong supporters of this bill and see it as a 
model for protecting the wildlands values of quality mountain bike 
areas.
    Additionally, outreach was made to State agencies with adjacent 
lands and responsibilities. As mentioned previously, the State 
Department of Natural Resources owns adjacent lands. The majority of 
these lands are managed to protect similar values as wilderness on 
federal lands. As such, this legislation complements the work and 
investment of that agency. Taken together, the combination of Federal 
Wilderness and Washington State DNR Natural Resource Conservation Area 
in the Pratt and Middle Fork Snoqualmie valleys will create a large 
extent of protected lowland acreage unrivalled in the Cascades. The 
State Department of Transportation (DOT) has road maintenance 
responsibilities on lands to the south of the proposal. The highway 
through this area (InterState 90) is a critical shipping and 
transportation route and requires snow and avalanche work throughout 
the winter to remain open. The DOT was consulted on the proposed 
wilderness additions and is comfortable that the boundaries do not 
impact their ability to perform this important work.
                 additional conservation opportunities
    We suggest three minor changes that should be made in this or 
future legislation. The first is extension of the wild and scenic 
corridor an additional 3.6 miles downstream to the west section line of 
section 16 (river mile 53.6). This would extend the wild and scenic 
corridor to the entrance of the valley corresponding to the edge of 
solid public ownership. This section of the river has been found 
suitable by the Forest Service for wild and scenic designation, and 
includes all the same values as the reach upstream. It is also the most 
popular section for whitewater recreation on the river. Over the past 
several years, public land managers and non-profits including Cascade 
Land Conservancy and Mountains to Sound Greenway have invested 
considerable resources into consolidating public ownership along the 
river. Public land managers including the Forest Service, King County, 
and Washington Department of Natural Resources have worked to 
cooperatively manage the corridor in a manner consistent with its high 
habitat and recreation values. Extending the wild and scenic corridor 
to include these additional 3.6 miles would insure uniform, unbroken 
designation, and simplify management for public land managers.
    The second suggested change is the extension of the wild 
classification downstream from the west section line of section 3 to 
the confluence with Dingford Creek, a distance of approximately 8.2 
miles. When the original suitability determination was made by the 
Forest Service in 1990, Road 56 extended further upstream. In the 
August 2003 Record of Decision for the Middle Fork Snoqualmie Access 
and Travel Management Plan, the Forest Service made the decision to 
close Road 56 at Dingford Creek. As a result of this decision, and the 
ecological values of the river, we believe that this section of river 
should be classified as wild.
    The third recommendation is a request to make a minor boundary 
adjustment to the wilderness boundary along the western edge of the 
proposal in the northeast corner of Section 12, (Township 23N, Range 
9E). There is a small (less than a quarter section; ca. 150 acres) 
piece of Forest Service land known as ``Russian Butte.'' We have 
reexamined this part of the proposal boundary and have determined that 
these 160 acres would make a logical and appropriate addition to the 
proposal. These lands are located entirely within the Gifford Creek 
drainage. The parcel is classified in the Mt Baker-Snoqualmie Land 
Management plan as `late successional reserve,' the same as the 
adjacent Pratt River drainage. This land is surrounded on 1 side by the 
proposed wilderness area and on the remaining three sides by DNR lands. 
These DNR lands have a high likelihood of becoming a State Natural 
Resource Conservation Area. Failing to add this small quarter section 
could result in an isolated patch of national forest surrounded by 
lands managed for wilderness values. As such, it is entirely logical to 
adjust the proposed wilderness boundary to include this parcel.
    In closing, the proposed legislation represents a magnificent 
investment in the quality of life of all Washingtonians and Americans 
and we are pleased to offer it our very strongest support. We celebrate 
in joining the broad-based voices of the conservation, recreation, 
business, religious, and list of elected officials that urge passage of 
these protections. We hope that the Committee will move favorably and 
quickly on this important legislation. Thank you.
                                 ______
                                 
   Statement of Sally Prouty, President and CEO, the Corps Network, 
                               on S. 1442
    My name is Sally Pouty and I am the President and CEO of The Corps 
Network and I am submitting testimony on behalf the 143 youth service 
and conservation corps throughout the nation and the more than 29,000 
young people who enroll in Corps each year.
    Nationally, 66% of Corpsmember families have incomes under the 
Federal poverty level, 72% have no college, and of those, 45% lack a 
high school diploma. About 43% are Caucasian, 30% African-American, 17% 
Latino, 4% Asian/Pacific Islander. Since 1985, Corps have enrolled over 
600,000 young men and women.
    The Corps Network believes that the Public Lands Service Corps has 
the potential to be the Civilian Conservation Corps (CCC) of the 21st 
Century. As the heirs to that wonderful legacy, we could not be more 
grateful for this legislation.
    The Corps Network wishes to express its strong support for the 
Public Lands Service Corps Act of 2009 and to thank Chairman Bingaman, 
Senator Udall, Senator Snowe, Senator Sanders, Senator Feinstein, and 
Senator Boxer for their leadership on this important issue.
    We also appreciate the Administration's support for the Public 
Lands Service Corps Act as expressed in Deputy Assistant Secretary for 
Policy, Management and Budet Bob Stanton's remarks before you on 
October 29 and its testimony on the House version of the 
legislation.The Corps Network enthusiastically supports S. 1442 because 
it:

  <bullet> will allow current land management efforts to be greatly 
        expanded, providing for the completion of many more backlogged 
        projects and providing meaningful service opportunities to 
        thousands more young people;
  <bullet> recognizes that service and service-learning are strategies 
        for getting things done on public lands;
  <bullet> will also introduce more, and more diverse, young people to 
        America's public lands--instilling in them an appreciation for 
        nature, an enjoyment of healthy recreation, and a sense of 
        stewardship for our natural resources and the environment;
  <bullet> sees young people, including those from diverse backgrounds, 
        as assets to be deployed rather than problems to be addressed;
  <bullet> expands the non-competitive hiring status of Public Lands 
        Corpsmembers, bringing youth and diversity to the land 
        management agency workforces and providing additional 
        opportunities for young people, particularly those from 
        disadvantaged backgrounds, to pursue good careers in land and 
        natural resource management as well as in other occupations;
  <bullet> includes lands under the jurisdiction of the National 
        Oceanic and Atmospheric Administration and will expand service 
        on public lands to new areas of the country, such as the 
        Northeast and Southeast, making it easier to engage young 
        people from those areas.
  <bullet> raises the profile of the Public Lands Service Corps (PLSC) 
        within each affected agency and establishes the important role 
        of PLSC coordinator, making it easier for Corps to participate; 
        and,
  <bullet> will help bring Corps, a proven youth development strategy, 
        to scale.

    We also are particularly pleased that S. 1442 takes an important 
first step in creating a grant program for Indian tribes to establish 
Indian Youth Corps so that Indian youth can benefit from Corps programs 
based on Indian lands, carrying out projects that their tribes and 
communities determine to be priorities.
    In general, Native American youth face a wide variety of problems, 
including high rates of dropping out of school, unemployment, crime, 
depression, and alcoholism and drug abuse. To take but a few examples:

  <bullet> The Bureau of Indian Affairs 2005 Indian Labor Force Report 
        found that 49 percent of the total Indian labor force living 
        on, or near reservations was unemployed. Tribes with the 
        highest unemployment rates are located in the Great Plains and 
        Rocky Mountain regions and have average unemployment rates of 
        77 percent and 67 percent, respectively.
  <bullet> Many young Native Americans do not finish high school. In 
        the 2004-2005 school year, the national graduation rate for 
        Indian high school students was 50.6 percent compared with 77.6 
        percent for white students.
  <bullet> According to data from 2002, some 90,000 Indian families 
        were homeless or under-housed. An estimated 200,000 units are 
        needed immediately to meet current demand. According to the 
        National American Indian Housing Council, ``a large percentage 
        of existing homes are in great need of rehabilitation, repair 
        and weatherization.''

    Because Corps use service as a strategy to provide young people 
with an educational environment conducive to learning, employment and 
training experiences, and a range of supportive services targeted to 
such issues as drug and alcohol abuse, wellness training and financial 
literacy, we strongly believe that Corps are an appropriate strategy 
for dealing with the problems that Indian youth confront. We believe 
that the Indian Youth Corps will enable Native American youth to 
benefit from this strategy at a far larger scale than ever before.
    In our conception of the Indian Youth Corps, tribes and communities 
will operate their own Corps, recruit their own youth and young adults, 
and determine their own service projects. We look forward to working 
with you, and Senator Udall, to ensure that a strong Indian Youth Corps 
program is included in the final version Public Lands Service Corps 
legislation.
                     service and conservation corps
History
    Service and Conservation Corps are direct descendents of the 
Depression-era Civilian Conservation Corps (CCC) that provided work and 
vocational training for unemployed single young men by conserving and 
developing the country's natural resources. Between 1933 and 1942 when 
it was disbanded, the CCC employed almost 3.5 million men who planted 
an estimated 2.5 billion trees, protected 40 million acres of farmland 
from erosion, drained 248,000 acres of swamp land, replanted almost a 
million acres of grazing land, built 125,000 miles of roads, fought 
fires, and created 800 State parks and 52,000 acres of campgrounds. But 
the biggest legacy of the CCC may have been the hope it provided both 
the young men and their families.
Today
    Modern Service and Conservation Corps reengage disconnected young 
people by providing them with opportunities to continue their 
education, obtain life and job skills, gain experience working in 
teams, and connect with the workforce. Corps look forward to making the 
most of the Public Lands Service Corps to advance the skills and 
experience of young people, help them create much-needed improvements 
on public lands, conduct conservation initiatives, develop a greater 
appreciation for our natural heritage, become effective stewards of our 
public lands, and become more civically engaged.
    Each year dozens of Corps engage thousands of young people in 
service on public lands by working on backlogged projects for federal 
land management agencies. Such projects--similar to those worked on by 
the original Civilian Conservation Corps--include trail maintenance, 
tree planting, invasive species removal, and wildfire mitigation. Many 
Corpsmembers choose to pursue careers in land management following 
their terms of service. With Public Lands Corps Service Act funding, 
Corps can prepare a new, much more diverse generation of federal land 
management employees, at a time when a full 38 percent of the 
Department of the Interior's workforce is due to retire in 2012.
    Today's Corps are a proven strategy for giving young men and women, 
many of whom are economically or otherwise disadvantaged and out-of-
work and/or out-of-school, the chance to have a positive impact on 
their own lives, their communities, and the environment.
    In the Corps model, Corpsmembers are organized into crews of six to 
10 people to carry out labor-intensive service projects while being 
guided by adult leaders who serve as mentors and role models as well as 
technical trainers and supervisors. In return for their efforts to 
restore and strengthen their communities, Corpsmembers receive: 1) a 
living allowance; 2) classroom training to improve basic competencies 
and, if necessary, to secure a GED or high school diploma; 3) 
experiential and environmental service-learning based education; 4) 
generic and technical skills training; and 5) a wide range of 
supportive services. Those Corpsmembers who are co-enrolled in 
AmeriCorps are also eligible to receive a Segal Education Award upon 
the completion of their service.
    Most importantly, these young men and women learn to value their 
personal contribution, and the importance of teamwork. They experience 
the recognition and pride that comes from making a positive investment 
in their community. Like the Depression-era CCC, they leave their Corps 
with the tools to achieve a better, more prosperous, and more 
productive future.
A Research-Supported Strategy
    In February 1997, Abt Associates published a groundbreaking study, 
funded by the Corporation for National and Community Service, on the 
value of youth Corps. The study, ``Youth Corps: Promising Practices for 
Young People and Their Communities'' used rigorous multi-site random 
assignment methodology to document key outcomes, including:

  <bullet> Significant employment and earning gains accrued to young 
        people who join a Corps;
  <bullet> Positive outcomes that are particularly striking for young 
        African-American men;
  <bullet> A reduction in arrest rates among all Corpsmembers by more 
        than one-third; and
  <bullet> A reduction in the number of unplanned pregnancies among 
        female Corpsmembers.

    The study concludes that, ``Youth Corps are rare among youth-
serving programs in their ability to demonstrate significant and 
positive impacts on participants.''
                                the need
    According to the National Parks Conservation Association, the 
National Park System has an annual operating shortfall estimated at 
$750 million and a maintenance backlog of approximately $9 billion. 
Parks are underfunded and managers are asked to do more with less.
    The National Park system would not be the only beneficiary of the 
Public Lands Service Corps. The Department of Agriculture's National 
Forest System, with lands in 42 States and Puerto Rico, also faces a 
backlog estimated at $280 million in deferred trail maintenance work. 
In addition, according to the House Appropriations Committee, the 
Bureau of Land Management (BLM) has ``an extensive legacy of old 
mining, oil, and wildfire rehabilitation needs and deferred maintenance 
for offices, work centers, and visitor facilities. Much of this work is 
considered `Green Jobs', as it involves habitat restoration, abandoned 
mine land repair, native plant restoration, and retrofitting 
buildings.'' The estimated backlog of deferred maintenance and 
construction needs in the National Wildlife Refuges and National Fish 
Hatcheries is $3 billion. The backlog includes capital improvements 
focusing on safety, energy efficiency, and habitat infrastructure.
    A larger Public Lands Service Corps can be widely deployed to help 
reduce this backlog. The energy, focus, and commitment that motivated 
the original CCC can now be brought to bear on today's problems: 
Corpsmembers do fuels reduction, remove invasive species, rehabilitate 
campgrounds and deteriorating structures throughout our national parks 
and forests, renovate and maintain historic, cultural, and 
archeological sites, and help conduct natural and cultural resource 
management, science and research projects. Adding thousands of 
additional service opportunities on our public lands would have a 
significant impact on the maintenance backlog in the Park Service and 
the Forest Service, in other agencies, and on other projects.
                         the public lands corps
Background and Examples
    For nearly three decades Service and Conservation Corps have worked 
in partnership with land management agencies to accomplish important 
work on public lands. Together, they have introduced young people to 
the great outdoors and provided them with various education and 
economic opportunities.
    Presently, The Department of the Interior agencies spend between 
$5-6 million on nearly 200 PLC projects with corps annually. This 
investment in turn, supports nearly 600 Corpmembers. Because Corps also 
recruit and manage unpaid volunteers from the local communities, much 
more work is actually being supported.
    PLC crews do everything from building trails and wheelchair 
accessible facilities to providing visitor services and environmental 
education to local school children. In recent years, due to an 
intentional focus on wildland fire mitigation, many crews have done a 
significant amount of hazardous fuels reduction, invasive species 
removal, and habitat restoration. Some specific examples of these 
projects include:
    The Rocky Mountain Youth Corps (RMYC),--which is headquartered in 
Taos, NM and enrolls nearly 150 at-risk youth annually, has a long-
standing partnership with Carson National Forest. Through the 
Collaborative Forestry Restoration Program (CFRP), a pilot program 
designed to involve citizens in the management and care of national 
forests, 30 RMYC Corpmembers recently completed a three-year project to 
thin 150 acres in Carson Forest to reduce the risk of catastrophic 
wildfire, making the area safer for area homes and residents. During 
the project, Corpsmembers received many hours of training and received 
various certifications, such as chain saw certification. Many of these 
young people, who were formerly high school drop outs and headed down 
the wrong path, will go on to careers in forestry.
    This past summer alone, the Wyoming Conservation Corps, housed 
within the School of Environment and Natural Resources at the 
University of Wyoming, engaged more than 40 young people to clear Pine 
Bark Beetle kill from Medicine Bow National Forest to make trails and 
campgrounds safe for visitor use. Following their experience with WCC, 
many of these young people expressed an interest in pursuing careers in 
land and natural resource management.
    In Oregon, the Northwest Youth Corps (NYC) works in Crater Lake 
National Park. Over the summer, NYC placed three crews of 11 
crewmembers each in Crater Lake National Park for three-week spikes. 
During the spikes, Corpsmembers did maintenance on 3.9 miles of trail 
and built 40 drainage structures. Overall, in 2008, NYC crews completed 
projects for partners including 51 Forest Service Ranger Districts, 
five BLM Districts, five National Parks, and two USFWS Refuges.
    For over 15 years, the Washington Conservation Corps (WCC) has 
partnered with Olympic National Park on a variety of fire abatement 
activities. Each year, WCC crews remove hundreds of downed old growth 
trees in an effort to reduce fire fuels and increase access.
    The California Conservation Corps (CCC) has a dedicated 18-person 
fire crew that partners with Whiskey Town National Park located outside 
of Redding, CA. For eight years, under the guidance and training of the 
National Park Service, this crew has performs controlled burns, removed 
hazardous fuels and cuts fuel breaks.
    The Southwest Conservation Corps (SCC) based in Durango, CO, works 
with Mesa Verde National Park on wildfire mitigation. Mesa Verde has a 
significant history of wildfire, especially in recent years. When the 
Park needed assistance in removing hazardous fuels from key areas in 
advance of the Park's 100th anniversary celebration, the entire SCC 
crew received 40 hour chainsaw training and certification. Corpsmembers 
also received S130/S190 Introduction to Wildland Firefighting at the 
conclusion of their four-month term of service to prepare them for 
obtaining jobs in the wildland fire management industry.
    The Coconino Rural Environment Corps (CREC), based in Flagstaff, 
AZ, thins hundreds of acres of federal, State, county, city, and 
private lands every year. Much of this wood is then turned over to 
local Native American communities for firewood.
    The Alaska Service Corps (ASC) was tasked with a weeklong invasive 
removal project in one of Alaska's premiere National Parks, Wrangell 
St. Elias. The ASC crew help eradicate White Sea Clover & other 
invasive plants from key areas near the Slana Visitor Center. The ASC 
crews' efforts allow native plants opportunities to reseed and enhance 
the experience for residents and tourists.
    The Western Colorado Conservation Corps (WCCC), based in Grand 
Junction, Colorado, has been actively involved in Tamarisk removal for 
several years. The WCCC has partnered with the Colorado State Parks 
Department and the State Division of Wildlife, the Audubon Society, and 
the Tamarisk Coalition to control acres of Tamarisk and Russian Olive, 
Hounds Tongue, Canada Thistle and other species, as well as 15 miles of 
Salsafy, Russian Thistle, and Storks Bill.
The Need for Expansion
    Estimates of the backlog on public lands now reach up to $8 
billion. At the same time, many among the current generation of public 
lands agency professionals, from the boomer generation, are nearing 
retirement age.
    Today's young people don't lack for potential. They want to give 
back. The desire to serve, probably also stimulated by a weak economy, 
is greater than ever. The Southwest Conservation Corps, which received 
20 applications a week in 2008, today is receiving 100 applications a 
week. The Coconino Rural Environment Corps is getting three to five 
times more applications than it has spaces available. Some of the 
interest is the result of high unemployment-but some is the desire to 
do work that makes a positive difference for communities and the 
environment.
    S.1442 recognizes the need to offer opportunities to those young 
people, as well as to those who are part of the high school dropout 
epidemic. Nearly one-half of minority students and almost one-third of 
all public high school students fail to graduate with their class. 
Research strongly suggests that public lands opportunities can make a 
significant difference for these young people.
    A groundbreaking report in 2006, The Silent Epidemic: Perspectives 
of High School Dropouts, showed that dropouts wanted ``real world 
opportunities'' and a more challenging curriculum to keep them engaged 
in school. A follow up study, Engaged for Success, showed that students 
believed service learning would keep potential dropouts engaged in 
school. Our public lands can provide such experiences for students in 
underperforming districts.
    Engaging these young people, many of them from minority 
communities, can be a way to help to diversify public lands personnel, 
to develop the ethic of stewardship among these populations, and to 
attract larger numbers of minorities as visitors, enabling them to 
embrace their natural patrimony.
                               conclusion
    The Public Land Service Corps Act would enable more youth to serve 
and learn on more public lands, reduce the backlog of deferred 
maintenance projects, and help prepare our public lands for the 21st 
century.
    Meanwhile, the Corpsmembers could, in turn, utilize their practical 
experience and the expanded non-competitive hiring authority contained 
in this bill to pursue careers in land management--thus building and 
diversifying the next generation of the resource management workforce.
    The Public Lands Service Corps is a win-win-win situation. It is a 
win for our public lands, for the youth who will serve on them and love 
and protect them, and a win for our nation as it turns new generations 
into productive and engaged citizens.
    In July, 1940, James J. McEntee, the Director of the Civilian 
Conservation Corps summed up its accomplishments by saying, ``Since it 
was organized in April, 1933, the Corps has made men out of hundreds of 
thousands of undernourished, underdeveloped and inexperienced 
youngsters . . .  the Corps has toughened them physically, taught them 
work skills, improved their morale, and taught them love and respect 
for their country and its government.'' We believe that the Public 
Lands Service Corps can do the same for future generations of young 
people.
    The entire Corps Network reiterates its strong support for S. 1442. 
We look forward to working with you to see it enacted into law.

                                    

      

</pre></body></html>
